1a
APPENDIX A
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

-----------------------------------------------------------------------

Argued November 30, 2018

Decided May 21, 2019

No. 18-5227
LIBERTARIAN NATIONAL COMMITTEE, INC.
APPELLANT
v.
FEDERAL ELECTION COMMISSION,
APPELLEE
-----------------------------------------------------------------------

On Certification of Constitutional Questions
from the United States District Court
for the District of Columbia
(No. 1:16-cv-00121)
-----------------------------------------------------------------------

Alan Gura argued the cause and filed the briefs for
appellant.
Timothy Sandefur and Aditya Dynar were on the
brief for amicus curiae Goldwater Institute in support
of appellant.
Allen Dickerson and Zac Morgan were on the brief
for amicus curiae Institute for Free Speech in support
of appellant.
Jacob S. Siler, Attorney, Federal Election Commission, argued the cause for appellee. With him on the

2a
brief were Kevin A. Deeley, Associate General Counsel,
and Harry J. Summers, Assistant General Counsel.
Paul M. Smith, Tara Malloy, Megan P. McAllen,
Fred Wertheimer, and Donald J. Simon were on the
brief for amici curiae Campaign Legal Center, et al. in
support of appellee.
Before: GARLAND, Chief Judge, and HENDERSON,
ROGERS, TATEL, GRIFFITH, SRINIVASAN, MILLETT, PILLARD,
WILKINS, and KATSAS, Circuit Judges.*
Opinion for the Court filed by Circuit Judge TATEL.
Opinion concurring in part and dissenting in part
filed by Circuit Judge GRIFFITH.
Opinion concurring in part, concurring in the judgment in part, and dissenting in part filed by Circuit
Judge KATSAS, with whom Circuit Judge HENDERSON
joins.
TATEL, Circuit Judge. When Joseph Shaber passed
away, he left over $235,000 to the Libertarian National
Committee (LNC). This case is about when and how
the LNC can spend that money. The LNC argues that
the Federal Election Campaign Act (FECA), which imposes limits on both donors and recipients of political
contributions, violates its First Amendment rights in
two ways: first, by imposing any limits on the LNC’s
ability to accept Shaber’s contribution, given that he is
dead; and second, by permitting donors to triple the
size of their contributions, but only if the recipient
* Circuit Judge Rao did not participate in this matter.

3a
party spends the money on specified categories of expenses. Scrutinizing each provision in turn, we find no
constitutional defects and reject the LNC’s challenges.
I.
Over half a million voters have registered as Libertarians. See Findings of Fact (“CF”) ¶ 3, Libertarian
National Committee, Inc. v. Federal Election Commission, 317 F. Supp. 3d 202 (D.D.C. 2018). The LNC, the
national committee of the Libertarian Party, has over
130,000 members and about 15,000 active donors. See
CF ¶¶ 1, 3.
During his lifetime, Joseph Shaber was one of
those donors, contributing a total of $3,315 in a series
of relatively small donations over some twenty-five
years. See CF ¶¶ 109–10. Unbeknownst to the LNC,
Shaber intended to be a donor in death as well. See CF
¶ 115. In 2015, shortly after Shaber had passed away,
the LNC learned that Shaber left it the generous sum
of $235,575.20. See CF ¶¶ 117, 121.
But the LNC had a problem. Under FECA, “no
person,” 52 U.S.C. § 30116(a)(1), may make a contribution to a national political party committee above an
inflation-adjusted annual limit, see id. § 30116(c)—
which, in 2015, capped contributions at $33,400, see CF
¶ 119—and national party committees, in turn, “may
not solicit, receive, . . . or spend any funds” donated in
excess of that limit, 52 U.S.C. § 30125(a). Furthermore,
the Federal Election Commission (the “Commission”),
the agency charged with enforcing FECA, interprets

4a
“person” to include the dead and their estates. See
FEC Advisory Opinion 1999-14 (Council for a Livable
World), 1999 WL 521238, at *1 (July 16, 1999) (“[A] testamentary estate is the successor legal entity to the
testator and qualifies as a person under the Act. . . .”).
Taken together, these restrictions prohibited the LNC
from accepting more than $33,400 of Shaber’s donation
into the LNC’s general fund in 2015.
But there was another way. Just the previous
year, in 2014, Congress had amended FECA to permit
donors to contribute, over and above their generalpurpose contributions, amounts up to three times the
base limit into each of three new kinds of “separate,
segregated” party-committee accounts. Consolidated and
Further Continuing Appropriations Act, 2015, Pub. L.
No. 113-235, div. N, § 101, 128 Stat. 2130, 2772–73
(2014) (codified at 52 U.S.C. § 30116(a)(1)(B), (a)(9)).
Recipient parties may use these accounts to pay for
“presidential nominating convention[s],” party “headquarters buildings,” and “election recounts . . . and other
legal proceedings.” 52 U.S.C. § 30116(a)(9). In 2015,
then, the LNC could have accepted up to $334,000 from
Shaber’s bequest, taking $33,400 into its general fund
and $100,200 into each of three segregated funds.
The LNC, however, preferred not to tie up the majority of Shaber’s gift in segregated accounts, and the
trustee in charge of distributing Shaber’s gift concluded that she had no authority to require the LNC to
accept the full bequest into a combination of generaland dedicated-purpose accounts because she “could
not impose restrictions on Mr. Shaber’s bequest that

5a
Mr. Shaber did not himself place.” CF ¶¶ 126–27. Accordingly, the LNC accepted only $33,400 of Shaber’s
donation, see CF ¶ 119, and the trustee asked the Commission for an advisory opinion on what to do with the
rest, see 52 U.S.C. § 30108(a) (requiring the Commission to issue written advisory opinions upon request).
In that request, the trustee proposed to put the balance
of Shaber’s bequest into an escrow account that would
disburse the maximum base-limit contribution into the
LNC’s general fund each year until the entire gift had
been depleted (about seven years in total). See FEC Advisory Opinion 2015-05 (Shaber), 2015 WL 4978865, at
*1 (Aug. 11, 2015). The Commission approved this
plan, with the caveat that the escrow agreement must
prevent the LNC from “exercis[ing] control over the
undisbursed funds.” Id. at *3 n.4.
In September 2015, the trustee and the LNC signed
an agreement under which the remaining $202,175.20
of Shaber’s bequest would be deposited into an escrow
account. See CF ¶ 128. Pursuant to the escrow agreement, in January of every year the LNC receives a payment equal to the inflation-adjusted contribution limit.
See CF ¶ 128; see also Defendant Federal Election Commission’s Memorandum in Support of its Motion to
Dismiss and in Opposition to Plaintiff ’s Motion to Certify Facts and Questions, Ex. 27 (“Escrow Agreement”)
¶ 3, Libertarian National Committee, 317 F. Supp. 3d
202 (No. 16-cv-00121), ECF No. 26-31. Although the escrow agreement prohibits the LNC from requesting
any money in excess of the contribution limit, it does
allow the committee to accept the “entire balance of the

6a
Escrow Fund” if it successfully “challenge[s] the legal
validity of the [c]ontribution [l]imit in federal court.”
Escrow Agreement ¶ 3.
The LNC now seeks to do just that. On January 25, 2016, it filed this action challenging both the
application of FECA’s contribution limits to Shaber’s
bequest and FECA’s new two-tiered limit on contributions to general and segregated accounts. See Complaint ¶¶ 21–34, Libertarian National Committee, 317
F. Supp. 3d 202 (No. 16-cv-00121), ECF No. 1. Proceeding under FECA’s special judicial review provision,
the district court then certified factual findings and
“non-frivolous constitutional questions” to this en banc
court. Holmes v. Federal Election Commission, 875 F.3d
1153, 1157 (D.C. Cir. 2017) (en banc); see also 52 U.S.C.
§ 30110 (“The district court immediately shall certify
all questions of constitutionality of [FECA] to the
United States court of appeals for the circuit involved,
which shall hear the matter sitting en banc.”).
With the benefit of the district court’s findings of
fact and certification order, we now consider the three
legal questions articulated by the district court. See
Order, Libertarian National Committee, 317 F. Supp.
3d 202 (No. 16-cv-00121), ECF No. 34 (“Certification
Order”). First:
Does imposing annual contribution limits
against the bequest of Joseph Shaber violate
the First Amendment rights of the Libertarian National Committee?
Id. at 2. Second:

7a
Do [FECA’s contribution limits], on their face,
violate the First Amendment rights of the Libertarian National Committee by restricting
the purposes for which the Committee may
spend its contributions above [the] general
purpose contribution limit to those specialized purposes enumerated in § 30116(a)(9)?
Id. Or, put more simply, does FECA’s two-tiered contribution limit, on its face, violate the First Amendment?
And third:
Do [FECA’s contribution limits] violate the
First Amendment rights of the Libertarian
National Committee by restricting the purposes for which the Committee may spend
that portion of the bequest of Joseph Shaber
that exceeds [the] general purpose contribution limit to those specialized purposes enumerated in § 30116(a)(9)?
Id. Again, put more simply, does FECA’s two-tiered
contribution limit, as applied to Shaber’s bequest, violate the First Amendment?
After assuring ourselves of subject-matter jurisdiction, we address each question in turn.
II.
“[T]he ‘irreducible constitutional minimum’ of
standing consists of three elements. The plaintiff must
have (1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant,
and (3) that is likely to be redressed by a favorable

8a
judicial decision.” Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547 (2016) (internal citation omitted) (quoting
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992)).
The Commission sees three defects in the LNC’s standing. We see none.
The Commission first argues that by electing to
place the balance of Shaber’s gift into escrow instead
of accepting it into segregated accounts, the LNC has
inflicted its own injury. See National Family Planning
& Reproductive Health Ass’n v. Gonzales, 468 F.3d 826,
831 (D.C. Cir. 2006) (explaining that self-inflicted harm
“does not amount to an ‘injury’ cognizable under Article III,” nor is it “fairly traceable to the defendant’s
challenged conduct”). Of course the Commission is correct in the most literal sense: the LNC did, indeed, put
pen to paper and sign the escrow agreement. But as
the district court explained in rejecting the Commission’s self-infliction argument, the LNC’s injury stems
not from its inability to accept the entire bequest immediately (which it could have done), but rather from
the committee’s “inability to accept [immediately] the
entire bequest for general expressive purposes” (which
FECA prohibits). Libertarian National Committee, Inc.
v. Federal Election Commission, 228 F. Supp. 3d 19,
25 (D.D.C. 2017). The Commission forced the LNC to
choose between immediate access to the money and
long-term flexibility in spending it; that the committee
chose the lesser of two evils hardly transforms FECA’s
limitation into a self-imposed restriction.
The Commission, however, has a response: because “[m]oney is fungible,” a dollar contributed into a

9a
segregated account “is an extra dollar from the . . . general account that becomes available for [the LNC’s]
general expressive purposes.” Federal Election Commission’s Motion to Dismiss for Lack of Subject-Matter
Jurisdiction (“Motion”) at 14–15. Perhaps so, but the
arithmetic just does not work. In 2015, the year the
LNC first gained access to Shaber’s $235,575 bequest,
it spent only $341 on its 2016 presidential nominating
convention and $7,261 on legal proceedings. Therefore,
even assuming the LNC could have maxed out its
headquarters spending at $100,200 and accepted an
additional $33,400 into its general account, some
$94,373 of Shaber’s bequest would have remained unused as of December 31, 2015.
Contrary to the Commission’s argument, we have
no need to examine the LNC’s “2016 budget expectations and expenditures.” Motion at 17. True, the LNC
must demonstrate standing “as of the time [its] suit
commence[d]” in January 2016, Del Monte Fresh Produce Co. v. United States, 570 F.3d 316, 324 (D.C. Cir.
2009), and expense reports reveal that by the end of
2016, the LNC had incurred enough convention, headquarters, and legal costs to have fully absorbed what
remained of Shaber’s donation—assuming the money
it spent on those expenses was itself unrestricted and
thus fully fungible. But by January 2016, Shaber’s bequest sat locked in an escrow account over which—at
the Commission’s direction—the LNC exercised “no
control.” FEC Advisory Opinion 2015-05 (Shaber),
2015 WL 4978865, at *3 (Aug. 11, 2015). The relevant date is therefore September 2015, when the LNC

10a
committed itself to the escrow arrangement. At that
time, although the committee may have projected certain expenses, it lacked perfect information about what
costs it would incur and what other donations it might
receive in the new year. We cannot rely on hindsight to
fault the LNC for its failure of foresight, and in any
event, our task is not to assess the committee’s financial planning acumen. Rather, we must determine only
whether the LNC suffered a cognizable injury in fact
that is fairly traceable to the Commission’s conduct
(and, by extension, to FECA). The LNC easily clears
that bar.
Next, the Commission argues that a favorable
judicial determination could not redress the LNC’s injury because this suit, filed in 2016, seeks only injunctive and declaratory relief for harm suffered a year
earlier in 2015, when Shaber’s bequest became available. To be sure, our Article III authority does not include the power to turn back time. Nonetheless, much
of the money remains tied up in escrow, and we most
certainly do have authority to invalidate the challenged portions of FECA—which, per the escrow agreement, would afford the LNC immediate access to the
remainder of the bequest for all purposes. See Escrow
Agreement ¶ 3. That is redress.
Finally, the Commission points out that the LNC
“lacks standing to the extent its claims” depend on the
allegation that the challenged contribution limits “place
the Libertarian Party at a competitive disadvantage
vis-à-vis other political parties,” which, the Commission argues, “is akin to the oft-rejected argument that

11a
a party is harmed because it is at a fundraising disadvantage to its competitors.” Motion at 20–21. But according to the LNC, “that extent is zero.” Plaintiff ’s
Opposition to Defendant’s Motion to Dismiss (“Opposition”) at 15. Taking the LNC at its word, we conclude,
as did the district court, that the committee has alleged a cognizable harm in its inability to accept immediately “the entire bequest for general expressive
purposes.” Libertarian National Committee, Inc., 228
F. Supp. 3d at 25.
III.
We proceed to the first certified question: whether
applying FECA’s annual contribution limits specifically to Shaber’s bequest violates the LNC’s First
Amendment rights.
A.
As the Supreme Court recognized in Buckley v.
Valeo—its first and seminal case examining FECA’s
constitutionality—contribution limits “operate in an
area of the most fundamental First Amendment activities.” 424 U.S. 1, 14 (1976) (per curiam). “There is no
right more basic in our democracy,” the Chief Justice
explained in his recent plurality opinion in McCutcheon v. Federal Election Commission, “than the right to
participate in electing our political leaders.” 572 U.S.
185, 191 (2014) (plurality opinion).

12a
In fact, political contributions implicate two distinct First Amendment rights: freedom of speech and
freedom of association. “When an individual contributes money to a candidate, he exercises both of those
rights: The contribution ‘serves as a general expression
of support for the candidate and his views’ and ‘serves
to affiliate a person with a candidate.’ ” McCutcheon,
572 U.S. at 203 (plurality opinion) (quoting Buckley,
424 U.S. at 21–22). The recipient, too, has First Amendment interests in accepting campaign contributions.
“[V]irtually every means of communicating ideas in today’s mass society requires the expenditure of money,”
from “distributi[ng] . . . the humblest handbill,” to “hiring a hall and publicizing” rallies, to purchasing airtime on “television, radio, and other mass media.”
Buckley, 424 U.S. at 19. And, of course, just as contributors associate with candidates and parties by making
donations, so, too, do recipients associate with contributors by accepting donations. See id. at 18, 22 (explaining that contributions “enable[ ] like-minded persons
to pool their resources in furtherance of common political goals” and that contribution limits therefore restrict “association by persons, groups, candidates, and
political parties”).
Altogether, then, in the world of political contributions, the First Amendment protects two kinds of
rights (speech and association) belonging to two different rights-holders (donors and recipients). As the parties argue this case, however, the First Amendment
interests at issue occupy only one box of the rights/
rights-holders two-by-two matrix. Because “Shaber’s

13a
death ended his expression and association,” and because the LNC “does not associate with the dead,” the
committee admits that “[t]his case concerns primarily
the LNC’s speech rights with respect to the Shaber bequest.” Appellant’s Br. 34–35. We thus find ourselves in
the speech-recipient box.
According to the Commission, contribution limits
have only minimal bearing on a recipient’s free-speech
rights. On the one hand, as the Commission observes,
the Court held in Buckley that “restriction[s] on the
amount of money a . . . group can spend on political
communication during a campaign”—that is, expenditure limits—“necessarily reduce[ ] the quantity of expression” and therefore receive “the exacting scrutiny
applicable to limitations on core First Amendment
rights.” Buckley, 424 U.S. at 19, 44–45 (emphasis
added). On the other hand, restrictions on the amount
of money someone can donate—that is, contribution
limits—“merely . . . require candidates and political
committees to raise funds from a greater number of
persons” “rather than . . . reduce the total amount of
money potentially available to promote political expression.” Id. at 22. Therefore, as the Court explained
in Buckley and reiterated in McConnell v. Federal Election Commission, “[b]ecause the communicative value
of large contributions inheres mainly in their ability
to facilitate the speech of their recipients, . . . contribution limits impose serious burdens on free speech
only if they are so low as to ‘preven[t] candidates and
political committees from amassing the resources necessary for effective advocacy.’ ” McConnell v. Federal

14a
Election Commission, 540 U.S. 93, 135 (2003) (third alteration in original) (quoting Buckley, 424 U.S. at 21);
see also Randall v. Sorrell, 548 U.S. 230, 248 (2006)
(plurality opinion) (explaining that contribution limits
fail “to survive First Amendment scrutiny” if they
“prevent candidates from ‘amassing the resources necessary for effective [campaign] advocacy’ ” or “magnify
the advantages of incumbency to the point where they
put challengers to a significant disadvantage” (alteration in original) (quoting Buckley, 424 U.S. at 21)).
If that is the test, then FECA’s contribution limit
as applied to Shaber’s bequest clearly passes. The LNC
nowhere claims that it needs Shaber’s money in order
to “amass[ ] the resources necessary for effective advocacy.” Buckley, 424 U.S. at 21. Surely, Shaber’s gift
hardly represents a make-or-break sum for the committee’s ability to engage in political communication.
We doubt, moreover, that the LNC could make such a
showing given that FECA’s current contribution limits
are no lower than the ceilings the Court approved in
McConnell.
With respect to donors’ rights, by contrast, contribution limits tread closer to core First Amendment activity. To be sure, the speech embodied by a political
contribution lacks nuance: because a contribution “does
not communicate the underlying basis for the [donor’s]
support,” “[a]t most, the size of the contribution provides a very rough index of the intensity of the contributor’s support for the candidate.” Buckley, 424 U.S. at
21. That said, the ability to express support through
monetary donations provides an “important means of

15a
associating with a candidate or committee,” id. at 22—
and a particularly important means, at that, for “individuals who do not have ready access to alternative
avenues for supporting their preferred politicians,”
such as volunteering in person, McCutcheon, 572 U.S.
at 205 (plurality opinion). To protect contributors’ heterogeneous First Amendment interests in making political donations, therefore, the Court has announced a
single unified test that applies an intermediate level
of scrutiny to contribution limits. See Nixon v. Shrink
Missouri Government PAC, 528 U.S. 377, 388 (2000)
(explaining that “a contribution limitation surviving a
claim of associational abridgment would survive a
speech challenge as well”). “Closely drawn” scrutiny, as
the Court now calls it, requires that “the [government]
demonstrate[ ] a sufficiently important interest and
employ[ ] means closely drawn to avoid unnecessary
abridgment” of First Amendment rights. Buckley, 424
U.S. at 25; see also McCutcheon, 572 U.S. at 197 (plurality opinion) (same).
But these decisions have left open the question
whether closely drawn scrutiny—usually justified as a
mechanism to safeguard donors’ rights—also applies
to a law limiting a recipient’s right to receive a donation absent a corollary restriction on a contributor’s
right to contribute. Because the typical donor is a living human being capable of both speaking and associating, neither the Supreme Court nor we have had
occasion to untangle a recipient’s rights from its donors’. But even though Shaber no longer speaks nor
associates, Buckley and its progeny hardly foreclose

16a
application of closely drawn scrutiny to the contribution limit at issue in this case. We shall therefore assume, without deciding, that closely drawn scrutiny
applies to the imposition of contribution limits on Shaber’s bequest. And because we conclude that FECA’s
limits survive even that heightened standard of review,
we have no need to interrogate that assumption further.
B.
“In a series of cases over the past 40 years,” the
Supreme Court has repeatedly recognized the government’s interest in imposing contribution limits to
combat “ ‘quid pro quo’ corruption [and] its appearance.” McCutcheon, 572 U.S. at 192 (plurality opinion)
(emphasis omitted). The risk that candidates might exchange political favors for money is far from hypothetical. As the Court explained in McConnell, “[t]he idea
that large contributions to a national party can corrupt
or, at the very least, create the appearance of corruption of federal candidates and officeholders is neither
novel nor implausible.” 540 U.S. at 144. Indeed, both
Buckley and McConnell cited “deeply disturbing examples” of “pernicious practices” in then-recent election
cycles. Buckley, 424 U.S. at 27; see also McConnell, 540
U.S. at 122 (noting “disturbing findings of a Senate investigation into campaign practices related to the 1996
federal elections”). Therefore, given the threat posed
by actual and apparent corruption to “the integrity of
our system of representative democracy,” Buckley, 424
U.S. at 26–27, the Court has long held that “the

17a
Government’s interest in preventing quid pro quo corruption or its appearance . . . may properly be labeled
‘compelling,’ ” McCutcheon, 572 U.S. at 199 (plurality
opinion) (emphasis omitted) (quoting Federal Election
Commission v. National Conservative Political Action
Committee, 470 U.S. 480, 496 (1985)).
The risk of quid pro quo corruption does not disappear merely because the transfer of money occurs after
a donor’s death. Individuals planning to bequeath a
large sum to a political party have two points of leverage during their lifetimes: they may tell the party
about their intentions, and they may change their
minds at any time. That latter possibility, as the district court found, “creates an incentive for a national
party committee to limit the risk that a planned bequest will be revoked” and could cause that party, “its
candidates, or its office holders to grant political favors
to the individual in the hopes of preventing the individual from revoking his or her promise.” CF ¶ 100
(first quoting Findings of Fact ¶ 92, Libertarian National Committee, Inc. v. Federal Election Commission
(LNC I), 930 F. Supp. 2d 154, 186 (D.D.C. 2013), aff ’d,
No. 13-5094, 2014 WL 590973 (D.C. Cir. Feb. 7, 2014);
then quoting Defendant Federal Election Commission’s Proposed Findings of Facts ¶ 80, Libertarian National Committee, 317 F. Supp. 3d 202 (No. 16-cv-00121),
ECF No. 26-3) (internal quotation marks omitted). In
other words, a donor’s death simply imposes a sequencing constraint on a quid pro quo exchange. Instead of
money for votes, the donor requires votes for money—
or, to be more precise, political favors now for the

18a
promise of money later. And even that constraint evaporates in the case of corrupt donors seeking favors for
their survivors. Although an individual’s death terminates his ability to profit personally from a corrupt quo
in exchange for his bequeathed quid, the donor’s surviving friends and family remain all too capable of accepting political favors that their deceased benefactor
may have pre-arranged for their benefit.
What’s more, where the courts have observed a
risk of corruption, so too will the electorate. As the
Court explained in Buckley, “[o]f almost equal concern
as the danger of actual quid pro quo arrangements is
the impact of the appearance of corruption stemming
from public awareness of the opportunities for abuse
inherent in a regime of large individual financial contributions.” 424 U.S. at 27. Voters lack the means to examine the intentions behind suspiciously sizable
contributions, a problem that becomes especially acute
in the case of a deceased donor who, of course, is forever
unavailable to answer inquiries. As a result, the corruptive potential of unregulated contributions, including the unregulated contributions of the dead, inflicts
almost as much harm on public faith in electoral integrity as corruption itself.
The LNC acknowledges these risks. “Nobody here
disputes the theoretical corruption potential of bequests,” declares the committee. Reply Br. 13. And as a
result, the LNC has declined, both before the district
court and on appeal, to “revisit” the conclusion that bequests “generally warrant[ ] . . . subjection to FECA’s
contribution limits.” Appellant’s Br. 35; see also CF

19a
¶ 93 (“ ‘[I]t is possible for a bequest to raise valid anticorruption concerns,’ as the LNC has ‘concede[d].’ ” (alterations in original) (quoting LNC I, 930 F. Supp. 2d
at 166)).
It is precisely because the LNC concedes “the theoretical corruption potential of bequests,” Reply Br. 13,
that we do not share our dissenting colleague’s concern
that “the [Commission] points to nothing substantiating” the same, Op. at 10 (Katsas, J.). The government
may, just like any other litigant in any other case, accept an opposing party’s concession. Moreover, among
the district court’s findings that the LNC declines to
dispute, see Oral Arg. Rec. 32:01-18 (conceding that
this court is bound by the district court’s findings of
fact unless clearly erroneous), are several that amount
to substantial evidence demonstrating the government’s anticorruption interest in regulating bequests.
To begin with, contrary to the dissent’s assertion that
“bequests are rarely used for political contributions,”
Op. at 10 (Katsas, J.), the district court found that since
1978 donors have contributed “more than $3.7 million
in bequeathed funds,” not infrequently in five- and
six-figure amounts. CF ¶ 102; see also CF ¶¶ 103–08
(listing bequeathed contributions to national political
party committees). And that figure is “likely underreported,” as “reporting entities are not required to inform the [Commission] that a particular contribution
they received came from a bequest.” CF ¶ 102. In fact,
the LNC did not report Shaber’s bequest as such. See
CF ¶ 102. Furthermore, the district court found that
“nothing prevents a living person from informing the

20a
beneficiary of a planned bequest about that bequest,”
CF ¶ 94; that “[p]olitical committees ‘could feel pressure to . . . ensure that a (potential) donor is happy
with the committee’s actions lest [that donor] revoke
the bequest,’ ” CF ¶ 100 (second and third alterations
in original) (quoting LNC I, 930 F. Supp. 2d at 167);
and that this pressure could cause a “national party
committee, its candidates, or officeholders . . . [to] grant
that individual political favors,” CF ¶ 99 (internal quotation marks omitted). Altogether, the district court’s
178 paragraphs of findings amount to much more than
“ ‘mere conjecture,’ ” Op. at 11 (Katsas, J.) (quoting
McCutcheon, 572 U.S. at 210 (plurality opinion)), that
bequests pose a threat of quid pro quo corruption.
Disclaiming any “categorical challenge to the limitation of all bequests,” the LNC instead asks us to conduct an “as-applied” inquiry “narrowly focused on one
particular bequest”: “whether Shaber’s bequest, specifically, warrants government limitation.” Appellant’s
Br. 30, 35. It does not, says the LNC, because the bequest was not corrupt and the government therefore
has no legitimate interest in its restriction.
As to the first half of the LNC’s argument, we have
no trouble making the unremarkable assumption that
Shaber’s contribution was not, in fact, part of a corrupt
quid pro quo exchange. Buckley rested on precisely the
same assumption—that “most large contributors do
not seek improper influence over a candidate’s position
or an officeholder’s action.” Buckley, 424 U.S. at 29. Indeed, the LNC’s observation that contribution limits
restrict legitimate as well as corrupt donations is

21a
wholly unsurprising. The Court has often “noted that
restrictions on direct contributions are preventative,
because few if any contributions to candidates will involve quid pro quo arrangements.” Citizens United v.
Federal Election Commission, 558 U.S. 310, 357 (2010)
(emphasis omitted).
But that is precisely the point: it is “difficult to isolate suspect contributions” in the sea of legitimate donations. Buckley, 424 U.S. at 30. As the LNC sees it,
because the government’s interest lies in preventing
quid pro quo corruption, the government may restrict
only corrupt contributions. The government, however,
already has those restrictions on the books: they are
called bribery laws. But bribery laws “deal with only
the most blatant and specific attempts of those with
money to influence governmental action,” id. at 28, and
if those laws were sufficient to achieve the government’s compelling interest in preventing quid pro quo
corruption and its appearance, then Congress would
have had no need in the first place to impose contribution limits to combat prior decades’ “deeply disturbing”
quid pro quo arrangements, id. at 27. Accordingly, the
problem with the LNC’s proposed regime—one under
which actually noncorrupt contributions could exceed
FECA’s limits—is that corruption is notoriously difficult to ferret out, and “the scope of . . . pernicious practices can never be reliably ascertained.” Id. Because
“the First Amendment does not require Congress to
ignore the fact that ‘candidates, donors, and parties
test the limits of the current law,’ ” McConnell, 540
U.S. at 144 (quoting Federal Election Commission v.

22a
Colorado Republican Federal Campaign Committee,
533 U.S. 431, 457 (2001)), “prophylactic” contribution
limits, McCutcheon, 572 U.S. at 221 (plurality opinion),
are permissible—even vital—to forestall the worst
forms of political corruption.
Critically, moreover, even if through some omniscient power courts could separate the innocent contributions from the nefarious, an appearance of corruption
would remain. Although “Congress may not regulate
contributions simply to reduce the amount of money
in politics,” id. at 191 (plurality opinion), it may certainly do more than ask the public to place groundless
faith in a bribery-prevention scheme that has failed to
thwart corruption in the past. “It is therefore reasonable,” the Court explained in McConnell, “to require that
all parties and all candidates follow the same set of
rules” in order to prevent “ ‘both the actual corruption
threatened by large financial contributions and the
eroding of public confidence in the electoral process
through the appearance of corruption.’ ” 540 U.S. at
136, 159 (quoting Federal Election Commission v. National Right to Work Committee, 459 U.S. 197, 208
(1982)).
That is not to say as-applied challenges to FECA’s
contribution limits are impossible. Because restrictions that strike a permissible balance between governmental and individual interests may nonetheless
“impose heavy burdens on First Amendment rights in
individual cases,” John Doe No. 1 v. Reed, 561 U.S. 186,
203 (2010) (Alito, J., concurring), people may bring asapplied challenges to demonstrate that, in their unique

23a
circumstances, the law in question works too harshly.
For example, “a nascent or struggling minor party can
bring an as-applied challenge” to a contribution limit
that “prevents [the party] from ‘amassing the resources
necessary for effective advocacy,’ ” McConnell, 540 U.S.
at 159 (quoting Buckley, 424 U.S. at 21), and, similarly,
a group may bring an as-applied challenge to a campaign-contribution disclosure provision that subjects
its donors to “ ‘threats, harassment, or reprisals,’ ” Citizens United, 558 U.S. at 367 (quoting McConnell, 540
U.S. at 198); see also Doe, 1 v. Federal Election Commission, 920 F.3d 866, 871 (D.C. Cir. 2019) (“Citizens
United left open the possibility of an as-applied First
Amendment challenge, but only if the donor proved
that revealing its identity would probably bring about
threats or reprisals.”). But while an individual may
demonstrate that, in his particular case, a contribution
limit imposes an impermissibly high burden, donors
and recipients may not use the guise of an as-applied
challenge merely to relitigate the government’s settled
interest in enforcing “preventative” limits, Citizens
United, 558 U.S. at 357, against all contributions—corrupt and noncorrupt alike. “[A] plaintiff cannot successfully bring an as-applied challenge to a statutory
provision based on the same factual and legal arguments the Supreme Court expressly considered when
rejecting a facial challenge to that provision.” Republican National Committee v. Federal Election Commission, 698 F. Supp. 2d 150, 157 (D.D.C.) (three-judge
panel), aff ’d, 561 U.S. 1040 (2010).

24a
Unlike the LNC and the dissent, see Op. at 18
(Katsas, J.), we see nothing to the contrary in SpeechNow.org v. Federal Election Commission, 599 F.3d 686
(D.C. Cir. 2010) (en banc). In that case, we sustained
an as-applied challenge to a contribution limit on the
grounds that “the government ha[d] no anti-corruption
interest in limiting contributions to an independent
expenditure group,” id. at 695, but we did not do so because of anything special about the government’s anticorruption interest “in that case” in particular, Op. at
18 (Katsas, J.). Instead, we explained that because the
Supreme Court had recently held in Citizens United
“as a matter of law that independent expenditures do
not corrupt or create the appearance of quid pro quo
corruption,” neither could contributions to independent expenditure-only groups “corrupt or create the appearance of corruption.” SpeechNow.org, 599 F.3d at
694 (emphasis omitted). In this case, by contrast, the
LNC raises no challenge to Buckley nor to the anticorruption interest that case and its successors recognized. See Appellant’s Br. 60 n.13 (“[T]his case does not
challenge Buckley.”).
The dissent suggests that even if the government
has an interest in limiting bequests disclosed during
donors’ lifetimes, it lacks a similar interest in regulating the class of bequests kept secret until donors’
deaths. See Op. at 12–14 (Katsas, J.). The trouble, however, is that because the LNC states in no uncertain
terms that its “as-applied Shaber challenge . . . does
not contest any contribution limit’s general sweep,”
Reply Br. 11, we are limited to addressing only the

25a
matters raised and litigated by the parties and certified to this court for review, see 52 U.S.C. § 30110—
that is, whether “imposing annual contribution limits
against the bequest of Joseph Shaber” violates the
LNC’s First Amendment rights. Certification Order 2.
Indeed, the LNC expressly foreswears any broader
challenge. See supra at 17. Perhaps, as the dissent proposes, the Commission might be able to “police” bequest disclosures in the same manner it distinguishes
coordinated from independent expenditures. Op. at 14
(Katsas, J.). But there are significant differences, both
practical and constitutional, between independent expenditures, coordinated expenditures, and contributions. See supra at 11–12; see also McConnell, 540 U.S.
at 221 (explaining that coordinated expenditures “may
be regulated as indirect contributions”). For now, then,
we simply observe that the task of distinguishing truly
uncoordinated from covertly disclosed bequests would
seem to require the same sorts of fact-intensive inquiries and give rise to the same sorts of appearanceof-corruption concerns that prophylactic contribution
limits are designed to avoid. Without the parties to
guide us, we decline to venture into such challenging
terrain. See Carducci v. Regan, 714 F.2d 171, 177 (D.C.
Cir. 1983) (“The premise of our adversarial system is
that appellate courts do not sit as self-directed boards
of legal inquiry and research, but essentially as arbiters of legal questions presented and argued by the
parties before them.”).
We thus return to the LNC’s bottom line: “[W]hat
about Shaber?” Reply Br. 14. By the LNC’s logic, the

26a
only individuals who must keep their contributions
under FECA’s limits are those who intend to violate
the bribery laws. That just cannot be what the First
Amendment requires. We therefore answer the first
certified question in the negative: imposing FECA’s
contribution limits on Shaber’s bequest does not violate the LNC’s First Amendment rights.
IV.
This brings us to the second and third certified
questions—a facial and an as-applied challenge—which
ask whether it offends the First Amendment that donors may contribute above the base limit only if they
make their contributions into segregated, dedicatedpurpose accounts.
A.
The only portion of FECA at issue here is an
amendment contained in the Consolidated and Further Continuing Appropriations Act—what we reluctantly assent to calling the “cromnibus” amendment.
The LNC assures us, as it must, that it “would not have
brought, and the District Court would not have certified, a challenge to the sort of contribution limits that
the Supreme Court upheld in McConnell.” Appellant’s
Br. 40. Instead, the LNC contends that because the
2014 cromnibus amendment “radically altered FECA’s
nature and structure,” id., we must now apply a heightened level of scrutiny. What was constitutional before,
the theory goes, is constitutional no longer.

27a
Accordingly, we begin by considering precisely
what “sort of contribution limits . . . the Supreme Court
upheld in McConnell.” Id. A little history will help.
In the FECA Amendments of 1976, Congress imposed a $20,000 limit on “contributions” to national
party committees. Federal Election Campaign Act
Amendments of 1976, Pub. L. No. 94-283, § 112(2),
90 Stat. 475, 487 (codified as amended at 52 U.S.C.
§ 30116(a)(1)(B)). But not all donations qualified as
contributions. Instead, FECA defined “contribution” as
a gift “made . . . for the purpose of influencing any election for Federal office,” thus leaving unregulated any
money ostensibly donated for the purpose of influencing state and local elections. Federal Election Campaign Act Amendments of 1979, Pub. L. No. 96-187,
§ 101, 93 Stat. 1339, 1340 (1980) (codified as amended
at 52 U.S.C. § 30101(8)). And so “soft money” was born.
While FECA subjected contributions for the purpose of
influencing federal elections (so-called hard money) to
its limits, parties remained free to “raise [soft money]
in massive dollops from single contributors.” Shays v.
Federal Election Commission, 414 F.3d 76, 81 (D.C. Cir.
2005). “Over time, political parties took increasing advantage of . . . soft money opportunities,” id., causing,
as the Senate Committee on Governmental Affairs described it, “a ‘meltdown’ of the campaign finance system,” McConnell, 540 U.S. at 129 (quoting S. Rep. No.
105-167, vol. 4, at 4611 (1998); id., vol. 5, at 7515).
Seeking to close the “soft-money loophole,” McConnell, 540 U.S. at 133, Congress enacted the Bipartisan Campaign Reform Act in 2002. See Bipartisan

28a
Campaign Reform Act of 2002, Pub. L. No. 107-155, 116
Stat. 81. Through that statute, known as BCRA, Congress took a two-pronged approach to purging federal
elections of soft money: it prohibited national political
party committees from accepting or “spend[ing] any
funds” “not subject to” FECA, and it prohibited (with
limited exceptions) state, district, and local party committees from “expend[ing] or disburs[ing] for Federal
election activity” any funds raised outside FECA’s limits. Id. § 101 (codified at 52 U.S.C. § 30125(a), (b)). Approving these soft-money restrictions in McConnell,
the Supreme Court rejected the argument that BCRA
imposes an impermissible expenditure limit rather
than a permissible contribution limit. According to
the Court, BCRA’s soft-money ban, though styled as a
restriction on party “spending,” “simply limit[s] the
source and individual amount of donations” without “limit[ing] the total amount of money parties can
spend.” McConnell, 540 U.S. at 139. “[I]t is irrelevant,”
the Court explained, “that Congress chose . . . to regulate contributions on the demand rather than the supply side.” Id. at 138.
So what changed? The 2014 cromnibus amendment introduced gradations into the political party
contribution limit where none had been before. As previously explained, see supra at 3–4, FECA now permits
donors to contribute up to three times the inflationadjusted base limit into any of three new “separate,
segregated account[s] . . . used . . . to defray expenses
incurred with respect to” presidential nominating

29a
conventions, headquarters buildings, and recounts and
other legal proceedings. 52 U.S.C. § 30116(a)(9).
Insisting that this case differs meaningfully from
Buckley and McConnell, the LNC argues that we must
apply strict scrutiny to FECA’s new two-tiered scheme.
We disagree.
The LNC first contends that because the statute
now restricts how certain funds may be “used,” 52 U.S.C.
§ 30116(a)(9), the cromnibus amendment “transformed”
FECA’s contribution limit into an expenditure limit,
Appellant’s Br. 41. But McConnell forecloses this argument. That decision teaches that the difference between an expenditure limit and a contribution limit
hinges not on the statute’s use of magic words such
as “spend” (as in BCRA) or “use” (as in the cromnibus
amendment), but rather on a functional test. “The relevant inquiry is whether the mechanism adopted to
implement the contribution limit, or to prevent circumvention of that limit, burdens speech in a way that a
direct restriction on the contribution itself would not.”
McConnell, 540 U.S. at 138–39.
That test makes this an easy case. Neither the
general-purpose contribution ceiling nor the 300%higher dedicated-purpose contribution ceiling “in any
way limits the total amount of money parties can spend.”
Id. at 139. The cromnibus amendment says nothing
about how much money political party committees
may expend on general purposes, conventions, headquarters, and recounts. Instead, the two-tiered scheme
does nothing more than its single-tiered predecessor:

30a
it “simply limit[s] the source and individual amount of
donations” for each category of expenses. Id. Or, as the
Court put it in Buckley, “[t]he overall effect of the Act’s
contribution ceilings is merely to require . . . political
committees to raise funds from a greater number of
persons . . . rather than to reduce the total amount
of money potentially available to promote political expression.” 424 U.S. at 21–22. That is a contribution
limit through and through.
The LNC’s second tack is somewhat more creative,
albeit no more successful. Consider, the LNC posits, a
contribution from Donor Doe that exceeds the base
limit by $1, i.e., a $33,401 donation. Under the cromnibus amendment’s two-tiered contribution limit, the
committee may use Doe’s extra dollar to pay for a presidential nominating convention but not a midterm convention, or for a sign on its headquarters but not a
billboard on the street. According to the LNC, then, regardless of whether the two-tiered limit imposes a permissible contribution ceiling on donors, with respect
to recipients, FECA’s “spending purpose restrictions
directly limit how the LNC may express itself ” based
on the content of its speech. Appellant’s Br. 46; see also
Reply Br. 20 (criticizing the Commission’s “obsessive
focus on contributors’ interests” as “irrelevant, because
the restrictions at issue target the parties’ accounts”
and because “[i]t is not the donors who are barred from
spending beyond the accounts’ segregated purposes”).
For this proposition, the LNC relies on Reed v. Town of
Gilbert, in which the Court recently held that laws “defining regulated speech by particular subject matter,

31a
. . . function[,] or purpose,” “are subject to strict scrutiny.” 135 S. Ct. 2218, 2227 (2015); see also Appellant’s
Br. 47–48 (arguing that “[c]haracterizing FECA’s revised contribution limit as a pure contribution limit
does not alter the fact that it ‘target[s] speech based on
its communicative content,’ ‘by particular subject matter, and . . . by its function or purpose’ ” (second and
third alterations in original) (citation omitted) (quoting Reed, 135 S. Ct. at 2226–27)).
But the LNC misses one crucial element in the
“content-based restriction on speech” inquiry: speech.
Recall that Buckley drew a clear distinction between
spending money (expenditures) and receiving money
(contributions). Restrictions on the former regulate
speech, as “virtually all meaningful political communications in the modern setting involve the expenditure
of money” so that an absolute limit on a political party’s
expenditures necessarily restricts its total amount of
expression. Buckley, 424 U.S. at 11. Restrictions on the
latter, however, are something different. Receiving
money facilitates speech, to be sure, but a bank account
balance becomes speech only when spent for expressive purposes. This is why the Court has made clear
“that contribution limits impose serious burdens on
free speech only if they are so low as to ‘preven[t] . . .
political committees from amassing the resources necessary for effective advocacy.’ ” McConnell, 540 U.S. at
135 (quoting Buckley, 424 U.S. at 21).
So there lies the solution to the Donor Doe problem. The LNC’s speech occurs when it spends Doe’s
money on political expression. That speech remains

32a
unencumbered by FECA because, as discussed above,
see supra at 24–25, the cromnibus amendment’s twotiered contribution limit imposes no expenditure limit.
True, the LNC may not spend Doe’s additional dollar
on a billboard. But it may spend as many dollars from
as many non-Does as it wants on billboards, so long
as it spends no more than $33,400 from any single donor. The LNC’s speech is thus subject to no restriction,
content-based or otherwise.
We emphasize that this case implicates only the
sort of line-drawing exercises that inhere in a system
of federal campaign finance regulation—that is, lines
that define in evenhanded terms covered recipients,
donors, and contributions. This case, in other words,
presents no plausible claim that FECA’s two-tiered
contribution limit restricts contributions based on the
donor’s identity or viewpoint.
And yet, the LNC argues that FECA’s two-tiered
contribution limit merits strict scrutiny. Consequently,
by the LNC’s logic, FECA would be rife with contentbased restrictions on recipients’ speech. For example,
the McConnell-approved BCRA prohibits national party
committees from “spend[ing] any funds,” 52 U.S.C.
§ 30125(a)(1), donated in excess of FECA’s limits,
which, in turn, apply to contributions made “for the
purpose of influencing any election for Federal office,”
id. § 30101(8)(A)(i). Likewise, BCRA’s soft-money ban
prohibits state party committees from spending nonFECA contributions on “Federal election activity.” Id.
§ 30125(b). If, as the LNC argues, a limit on contributions
made to segregated accounts dedicated to particular

33a
“uses” counts as a content-based restriction on speech,
then so, too, would restrictions on spending donations
“made . . . for the purpose of influencing any election
for Federal office” or on expending funds for “Federal
election activity.” But that, of course, is not the case: as
the Court explained in McConnell, BCRA does not
“burden[ ] speech in a way that a direct restriction on
the contribution itself would not.” 540 U.S. at 139.
Consequently, the LNC essentially asks us to conclude that Reed’s application of strict scrutiny to laws
that “defin[e] regulated speech by particular subject
matter, . . . function[,] or purpose,” 135 S. Ct. at 2227,
overruled, by implication alone, McConnell’s application of closely drawn scrutiny to FECA’s contribution
limits. To put it mildly, we have our doubts. But if the
Supreme Court had intended to shake the constitutional foundation of FECA’s contribution-limit architecture, then it is the Supreme Court’s province to say
so. See Rodriguez de Quijas v. Shearson/American Express, Inc., 490 U.S. 477, 484 (1989) (“If a precedent of
[the Supreme] Court has direct application in a case,
yet appears to rest on reasons rejected in some other
line of decisions, the Court of Appeals should follow the
case which directly controls, leaving to [the Supreme]
Court the prerogative of overruling its own decisions.”).
Unless and until the Court expressly abrogates McConnell, this “inferior court” lacks authority to “conclude [that the Supreme Court’s] more recent case[ ]”
has, “by implication, overruled an earlier precedent.”
Agostini v. Felton, 521 U.S. 203, 237 (1997).

34a
B.
With no reason to apply strict scrutiny to the
cromnibus amendment’s two-tiered contribution limit,
we again assume that closely drawn scrutiny supplies
the appropriate test. We say “assume” because it remains unclear whether closely drawn scrutiny applies
to a recipient’s First Amendment interests alone, see
supra at 13, and the LNC declines to invoke the rights
of its donors, see supra at 11, 25–26. Nevertheless, because we conclude that the cromnibus amendment’s
two-tiered contribution limit survives closely drawn
scrutiny, we have no need to determine whether a less
stringent standard of review may apply.
In applying closely drawn scrutiny, “we must assess the fit between the stated governmental objective
and the means selected to achieve that objective.”
McCutcheon, 572 U.S. at 199 (plurality opinion). “[I]f a
law that restricts political speech does not ‘avoid unnecessary abridgement’ of First Amendment rights, it
cannot survive ‘rigorous’ ” closely drawn review. Id. (internal citation omitted) (quoting Buckley, 424 U.S. at
25, 29).
The LNC makes no attempt to challenge the government’s significant anticorruption interest served by
limiting the size of contributions to political parties.
Indeed, the LNC invokes the district court’s factual
finding on this point: “[T]he essential truth,” says the
committee, “is that ‘[a]ll contributions to political parties can create the risk of corruption or its appearance regardless of the way that money is ultimately

35a
spent. . . .’ ” Appellant’s Br. 57 (alterations in original)
(quoting CF ¶ 36). Rather than contesting the need for
contribution limits, the LNC makes a more refined
point. “It is one thing to generalize that larger contributions pose a greater risk, and for that reason, impose
a simple contribution limit,” argues the committee, but
“[r]estricting how a party spends 90% of a contribution,
in 30% tranches tied to presidential nominating conventions, buildings, and litigation, cannot be explained
on a corruption-fighting rationale.” Id. at 56. In other
words, conceding the need for an overall contribution
limit, and taking no issue with drawing that line at either $33,400 or $334,000, the LNC questions whether
the government can demonstrate an anticorruption interest in treating general- and dedicated-purpose contributions differently.
Right out of the gate, the LNC’s argument faces a
high hurdle: the cromnibus amendment increased the
total amount individuals may contribute to a political
party. Before 2014, the LNC could accept only a baselimit sized contribution from any one person; now it
may accept ten times that amount. Consequently, the
LNC’s argument sounds very much like a grievance
with Congress’s decision to raise contribution limits.
But so long as contribution limits apply equally to all
donors and recipients, “[t]here is . . . no constitutional
basis for attacking contribution limits on the ground
that they are too high.” Davis v. Federal Election
Commission, 554 U.S. 724, 737 (2008). If, as the LNC
concedes, the government had a legitimate anticorruption interest in keeping individual contributions below

36a
$33,400, then, by simple mathematics, it must also have
an interest in keeping contributions below $334,000.
We hasten to add a caveat. Although a law does
not offend the First Amendment merely because it “conceivably could have restricted even greater amounts of
speech in service of [its] stated interests,” a law’s underinclusivity—in this case, the fact that FECA restricts
some contributions less than others—nonetheless “can
raise ‘doubts about whether the government is in fact
pursuing the interest it invokes.’ ” Williams-Yulee v.
Florida Bar, 135 S. Ct. 1656, 1668 (2015) (quoting
Brown v. Entertainment Merchants Ass’n, 564 U.S. 786,
802 (2011)). But we see no reason for such skepticism
in this case, as allowing donors to make larger contributions into each of the new dedicated-purpose accounts
serves Congress’s legitimate interest in relaxing restrictions on First Amendment activity where, as it has
concluded here, it can achieve its anticorruption interest with less stringent limits.
Take the new, higher limit on contributions to pay
for presidential nominating conventions. In April 2014,
Congress ended public funding for such conventions,
leaving parties on their own. See Gabriella Miller Kids
First Research Act, Pub. L. No. 113-94, 128 Stat. 1085
(2014). The cromnibus amendment gives parties a tool
for making up for that shortfall, ensuring, as Congress
must, that parties remain capable of “amassing the resources necessary for effective advocacy.” Buckley, 424
U.S. at 21.

37a
Equally benign are the other two new dedicatedpurpose accounts, one for party headquarters and the
other for election recounts and “other legal proceedings.” 52 U.S.C. § 30116(a)(9). As the Court explained
in McConnell, the donations “that pose the greatest
risk of . . . corruption” are “those contributions . . . that
can be used to benefit federal candidates directly.” 540
U.S. at 167. Congress could have permissibly concluded
that unlike contributions that can be used for, say,
television ads, billboards, or yard signs, contributions
that fund mortgage payments, utility bills, and lawyers’ fees have a comparatively minimal impact on a
party’s ability to persuade voters and win elections. Indeed, congressional leaders supporting the cromnibus
amendment emphasized that “many” of the “expenditures made from the [dedicated-purpose] accounts” are
“not for the purpose of influencing federal elections.”
160 Cong. Rec. S6814 (daily ed. Dec. 13, 2014) (statement of Sen. Reid); id. at H9286 (daily ed. Dec. 11,
2014) (statement of Rep. Boehner). That makes good
sense: headquarters, once built, exist regardless of
whether an election is afoot, and recounts, by definition, can occur only after votes have been cast. In fact,
before BCRA, the Commission entirely excluded donations for both party headquarters and election recounts
from the definition of “contribution.” See 11 C.F.R.
§ 100.7(b)(12) (2002) (“A gift . . . made to a national
committee . . . of a political party is not a contribution
if it is specifically designated to defray any cost incurred for construction or purchase of any office facility
which is not acquired for the purpose of influencing the
election of any candidate in any particular election for

38a
Federal office.”); id. § 100.7(b)(20) (“A gift . . . made
with respect to a recount of the results of a Federal
election, or an election contest concerning a Federal
election, is not a contribution. . . .”).
We are untroubled in this case by the fact that,
as the LNC observes, the cromnibus amendment
passed Congress without the sort of robust record of
congressional factfinding that accompanied BCRA.
In one sense this might be expected; after all, BCRA
imposed new contribution limits, so its additional restriction on First Amendment rights required justification. The cromnibus amendment, by contrast, did
just the opposite: it relaxed contribution limits. Had
BCRA’s extensive legislative history identified some
troubling finding related specifically to conventions,
headquarters, or legal expenses, we would perhaps
harbor more concern about the cromnibus amendment’s relatively stingy congressional record. But we
have discovered in that record no basis for any such
concern, leaving us without any reason to conclude
that the Congress of 2014 committed constitutional error by determining that, a dozen years after BCRA,
times and circumstances had sufficiently changed to
permit it to deal more generously with expense categories less directly tied to particular candidates or elections. See Wagner v. Federal Election Commission, 793
F.3d 1, 30 (D.C. Cir. 2015) (en banc) (noting that contribution restrictions need not address “speculative” concerns).
Our dissenting colleague worries that Congress
may have enacted the cromnibus amendment not to

39a
better tailor contribution limits to serve the government’s anticorruption interest, but rather to benefit
the major parties that do the most spending on segregated-account activities. See Op. at 7–9 (Griffith, J.).
But the LNC itself, though displeased that FECA’s
two-tiered contribution limit more closely “align[s] with
the financial needs and goals of the incumbent parties,” Appellant’s Br. 58 (internal quotation marks
omitted), expressly disclaims any argument that “the
First Amendment requires a level electoral playing
field, free of the advantages that speakers may have
owing to their resources,” Opposition at 26; see also id.
at 27 (stating that the LNC’s “merits briefing [is] bereft
of even a molecule of competitive disadvantage theory”
and arguing that “it is absurd for the [Commission] to
insist” otherwise). And indeed, the First Amendment
requires no such thing. While Congress may not enact
contribution limits that “magnify the advantages of incumbency to the point where they put challengers to a
significant disadvantage,” Randall, 548 U.S. at 248
(plurality opinion), neither is it “an acceptable governmental objective,” “[n]o matter how desirable it may
seem,” “to ‘equaliz[e] the financial resources of candidates,’ ” McCutcheon, 572 U.S. at 207 (plurality opinion)
(second alternation [sic] in original) (quoting Arizona
Free Enterprise Club’s Freedom Club PAC v. Bennett,
564 U.S. 721, 748, 750 (2011)). Therefore, “if Congress
concludes that allowing contributions of a certain
amount does not create an undue risk of corruption or
the appearance of corruption,” the Court has explained,
then “a candidate who wishes to restrict an opponent’s
fundraising cannot argue that the Constitution demands

40a
that contributions be regulated more strictly.” Davis,
554 U.S. at 737. By the same token, the mere fact that
additional fundraising opportunities will benefit some
political parties over others does not itself render Congress’s relaxation of contribution limits suspect under
the First Amendment. See Federal Election Commission v. Massachusetts Citizens for Life, Inc., 479 U.S.
238, 257 (1986) (“Political ‘free trade’ does not necessarily require that all who participate in the political
marketplace do so with exactly equal resources.”).
We thus see no reason to “ ‘doubt[ ] . . . [that] the government is in fact pursuing the interest it invokes,’ ”
Williams-Yulee, 135 S. Ct. at 1668 (quoting Brown, 564
U.S. at 802), to justify FECA’s two-tiered contribution
limit: combatting quid pro quo corruption and its appearance.
At bottom, the cromnibus amendment represents
just another tweak in Congress’s decades-long project
to fine-tune FECA’s balance between speech and associational rights, on the one hand, and the government’s
anticorruption interest, on the other. That balance, to
be sure, remains imperfect. But closely drawn scrutiny
“require[s] ‘a fit that is not necessarily perfect, but reasonable; that represents not necessarily the single best
disposition but one whose scope is in proportion to
the interest served. . . .’ ” McCutcheon, 572 U.S. at 218
(plurality opinion) (internal quotation marks omitted)
(quoting Board of Trustees of the State University of
New York v. Fox, 492 U.S. 469, 480 (1989)). And lacking
any “ ‘scalpel to probe’ each possible contribution level,”
we “defer[ ] to the legislature’s” “empirical judgments”

41a
about “the precise restriction necessary to carry out
the statute’s legitimate objectives.” Randall, 548 U.S.
at 248 (plurality opinion) (quoting Buckley, 424 U.S. at
30).
Here, Congress drew that line at $33,400 for
general-purpose spending and $100,200 for dedicatedpurpose spending. The LNC has given us no reason to
think that this two-tiered limit would offend the First
Amendment. The cromnibus amendment’s limits are
closely drawn to the government’s anticorruption interest, and, as compared to the pre-2014 baseline, they
certainly avoid unnecessary infringement of associational and speech rights. We therefore answer the
second and third certified questions in the negative:
FECA’s two-tiered contribution limit, both on its face
and as applied to Shaber’s bequest, does not violate the
LNC’s First Amendment rights.
V.
The task of crafting campaign finance restrictions
is, in many ways, a zero-sum game. Make the regime
too restrictive, and you threaten “fundamental First
Amendment interests” by burdening citizens’ political
expression. Buckley, 424 U.S. at 23. Make the regime
too permissive, and you threaten “the integrity of our
system of representative democracy” by failing to prevent quid pro quo corruption and its appearance. Id. at
26–27. Balancing these interests has turned out to be
a difficult and iterative task. For the reasons given
above, we conclude that the current version of FECA—

42a
both its application of contribution limits to Shaber’s
bequest and its use of a two-tiered contribution limit—
has achieved a constitutionally permissible balance.
Therefore, although we deny the Commission’s motion
to dismiss for lack of standing, we reject each of the
LNC’s three constitutional challenges on the merits.
So ordered.

GRIFFITH, Circuit Judge, concurring in part and dissenting in part: When the government restricts First
Amendment freedoms, it “bears the burden of proving
the constitutionality of its actions.” McCutcheon v.
FEC, 572 U.S. 185, 210 (2014) (plurality opinion) (quoting United States v. Playboy Entm’t Grp., 529 U.S. 803,
816 (2000)). Here, the government has not justified the
cromnibus amendments’ two-tiered scheme for contributions to national political parties. I therefore part
ways with the majority on the second and third certified questions.
The appropriate standard of review is closely
drawn scrutiny, as the majority assumes and Judge
Katsas explains. See Maj. Op. at 28; Op. at 1–5 (Katsas,
J.). Under this standard, the government must “demonstrate[ ] a sufficiently important interest and employ[ ]
means closely drawn to avoid unnecessary abridgment” of First Amendment freedoms. Buckley v. Valeo,
424 U.S. 1, 25 (1976) (per curiam). The only qualifying interest is combating quid pro quo corruption and
its appearance, and we require the government to employ “a means narrowly tailored to achieve the desired

43a
objective.” McCutcheon, 572 U.S. at 192, 218 (quoting
Bd. of Trs. of State Univ. of N.Y. v. Fox, 492 U.S. 469, 480
(1989)). This standard is “rigorous,” and the government will not prevail if there is “a substantial mismatch between [its] stated objective and the means
selected to achieve it.” Id. at 197, 199 (first quoting
Buckley, 424 U.S. at 29).
The Libertarian National Committee (LNC) would
take no issue with a single contribution limit set at
$33,400 or $334,000. Maj. Op. at 29. Indeed, a challenge to such a limit would be foreclosed by McConnell
v. FEC, 540 U.S. 93 (2003). There, the Supreme Court
held that the Federal Election Campaign Act permissibly prohibited a donor from contributing more than
$25,000 to a national political party because the government showed that the prohibition substantially advanced, and was properly tailored to, the government’s
interests in preventing corruption or its appearance.
See McConnell, 540 U.S. at 142–61.
But McConnell does not resolve this case, because
the two-tiered scheme here differs in important ways
from the limit upheld in McConnell. Rather than limiting all contributions above a certain level, the scheme
prohibits contributions above the general limit of
$33,400 but makes exceptions to that general limit by
allowing additional contributions of up to $100,200 to
each of three segregated accounts for presidential nominating conventions, party headquarters, and election
recounts and litigation. See 52 U.S.C. § 30116(a)(1)(B),

44a
(a)(9); Maj. Op. at 3–4.1 This is a new scheme. McConnell
did not address the propriety of a regime with these
exceptions, the presence of which “can raise doubts
about whether the government is in fact pursuing the
interest it invokes” or “reveal that a law does not actually advance” that interest. Williams-Yulee v. Fla. Bar,
135 S. Ct. 1656, 1668 (2015) (internal quotation marks
omitted). Put differently, the cromnibus amendments
introduced a critical feature not present in McConnell:
“Congress’ judgment” that contributions of $300,600 to
segregated accounts “do not unduly imperil anticorruption interests.” Davis v. FEC, 554 U.S. 724, 741
(2008). Given this judgment by Congress, it is now
“hard to imagine how” limiting general contributions
to $33,400 “serv[es] anticorruption goals sufficiently to
justify the resulting constitutional burden”—unless
general and segregated contributions differ in a constitutionally meaningful way. Id. For these reasons, the
government cannot justify treating general contributions more restrictively than segregated contributions
based on McConnell’s approval of a since-abandoned
congressional judgment. Rather, the government must
show that a new scheme that differentiates between
general and segregated contributions is closely drawn
to serve anticorruption interests.
To do so, the government argues that general and
segregated contributions raise different corruption concerns. This is because general-account spending is more
likely to be for the purpose of influencing elections and
1

Like the majority, I use the limits adjusted for inflation as
of 2015. Maj. Op. at 3–4.

45a
thus raise corruption concerns, while segregatedaccount spending is less likely to be for the purpose of
influencing elections and thus does not raise comparable corruption concerns. See FEC Br. 46–50. The record
does not support this distinction.
The government relies on identical statements
from Senator Reid and Representative Boehner, who
both asserted that “many” of the expenditures from
segregated accounts are “not for the purpose of influencing Federal elections.” 160 Cong. Rec. S6814 (daily
ed. Dec. 13, 2014); id. at H9286 (daily ed. Dec. 11, 2014).
But these self-serving assertions by representatives of
the major parties do not tell us whether segregatedaccount spending is any different from general-account
spending with respect to influencing elections or raising corruption concerns. Without that information, we
simply do not know whether the cromnibus amendments are justified in prohibiting all contributions
above the general limit except those made to segregated accounts. And an ambivalent record is not enough
to survive closely drawn scrutiny. See McCutcheon, 572
U.S. at 217 (rejecting aggregate contribution limits in
part because the government did not provide “any realworld examples” that they served anticorruption interests by preventing donors from circumventing the base
limits); McConnell, 540 U.S. at 145–154 (upholding
limits on soft-money contributions only after identifying extensive evidence connecting the limits to the
government’s legitimate interests); cf. Turner Broad.
Sys., Inc. v. FCC, 512 U.S. 622, 666–67 (1994) (in applying intermediate scrutiny to a speech restriction,

46a
explaining that “we cannot determine” whether Congress drew “reasonable inferences based on substantial evidence” without “a more substantial elaboration
in the District Court of the predictive or historical evidence upon which Congress relied, or the introduction
of some additional evidence”); Annex Books, Inc. v. City
of Indianapolis, 581 F.3d 460, 463 (7th Cir. 2009)
(Easterbrook, J.) (“[T]here must be evidence” to carry a
First Amendment burden.).
The government’s position does not fare any better
when we examine the segregated accounts more closely.
As the majority points out, the higher limits on contributions to pay for presidential nominating conventions
were prompted by the end of public funding for such
conventions in 2014. The cromnibus amendments gave
parties a “tool for making up for that shortfall.” Maj.
Op. at 31. That explanation is understandable, but it
does not establish that there are lesser corruption concerns with contributions that help put on nominating
conventions. There can be no serious doubt that the nominating conventions of the major parties are closely
connected to elections. Contributions to their staging
therefore appear to raise the same corruption risks as
general contributions, and the record provides no reason to think otherwise.
The record is similarly slim as to the segregated
accounts for maintaining party headquarters and contesting election results. The majority offers that “Congress could have permissibly concluded that unlike
contributions that can be used for, say, television
ads, billboards, or yard signs, contributions that fund

47a
mortgage payments, utility bills, and lawyers’ fees
have a comparatively minimal impact on a party’s ability to persuade voters and win elections.” Id. Perhaps,
but that inference lacks record support. The record
gives no reason to think that spending on party headquarters or election contests has a different influence
on elections than general-account spending, and the majority might just as reasonably have said the opposite:
that Congress “could have” determined that elections
are significantly influenced by a party headquarters
(where parties might host donors and connect them to
party leaders and candidates) and election recounts
and litigation (which resolve whether an actual candidate wins or loses a particular election). My point is
not that either of these potential determinations is
more reasonable than the other; my point is that without record support they are “too speculative” to carry a
First Amendment burden. McCutcheon, 572 U.S. at
210.
Finally, the factual findings made by the district
court provide no better support for the government.
The district court found that “unrestricted funds are
more valuable to national party committees and their
candidates than funds that may only be used for particular categories of expenses.” Findings of Fact (“CF”)
¶ 50, Libertarian Nat’l Comm. v. FEC, 317 F. Supp. 3d
202 (D.D.C. 2018). And according to the government,
“it is simple common sense that the more a political
party values a contribution, the more likely that contribution will be or appear to be part of a quid pro quo
corruption scheme,” making it more reasonable for the

48a
cromnibus amendments to treat general contributions
more restrictively than segregated contributions. FEC
Br. 47. The problem for the government, however, is
that the district court’s findings simultaneously point
in the opposite direction: “A political party may in some
circumstances value a contribution with use restrictions
more highly than a smaller contribution without such
restrictions,” particularly because money is generally
fungible and every dollar received through segregated
accounts “potentially frees up another dollar in the recipient’s general account for unrestricted spending.”
CF ¶¶ 38–39. The record does not clarify whether such
a “circumstance” is presented by this case; again, we
just don’t know. Moreover, even if a dollar donated to a
general account raised more corruption concerns than
a dollar given to a segregated account, the government
acknowledges that “larger contributions to political
parties are generally more likely to lead to actual or
apparent quid pro quo arrangements and can do so regardless of how the funds are ultimately used.” CF ¶ 35
(alterations omitted). This further highlights the poor
fit of the cromnibus amendments, which treat larger
contributions to segregated accounts as if they were
less likely to raise corruption concerns than substantially smaller contributions to a general account.
In the absence of any corruption-related difference
between general and segregated contributions, the
government has not carried its burden of showing that
the two-tiered scheme is closely drawn to serve anticorruption interests. This conclusion does not rely on a
“freestanding underinclusiveness limitation,” as Judge

49a
Katsas fears. Op. at 20 (Katsas, J.) (quoting WilliamsYulee, 135 S. Ct. at 1668). Although “the First Amendment imposes no freestanding ‘underinclusiveness
limitation,’ ” underinclusivity still “creates a First Amendment concern when the State regulates one aspect of a
problem while declining to regulate a different aspect
of the problem that affects its stated interest in a comparable way.” Williams-Yulee, 135 S. Ct. at 1668, 1670
(first quoting R.A.V. v. City of St. Paul, 505 U.S. 377,
387 (1992)). That’s the problem with the two-tiered
scheme in this case. On this record, segregated and
general contributions affect the government’s anticorruption interests in the same way, yet the scheme restricts general contributions while declining to restrict
segregated contributions. Thus, the scheme’s underinclusiveness—its exceptions allowing some contributions
above the general limit—shows that the government
has not justified prohibiting other contributions from
exceeding the general limit. See id. at 1670; see also
Reed v. Town of Gilbert, 135 S. Ct. 2218, 2231 (2015)
(rejecting a speech restriction as “hopelessly underinclusive” under strict scrutiny because it drew distinctions between prohibited and permissible categories of
speech in a way that was not justified by the interests
asserted by the government); id. at 2239 (Kagan, J.,
concurring in the judgment) (rejecting the same restriction under intermediate scrutiny due to its underinclusivity); Edwards v. District of Columbia, 755 F.3d
996, 1007–08 (D.C. Cir. 2014) (rejecting a speech restriction as “fatally underinclusive” under intermediate scrutiny).

50a
That is enough to resolve the second and third certified questions in the LNC’s favor, but in closing I note
that there are additional reasons to be skeptical of the
government’s position. The two-tiered scheme’s exceptions loosen restrictions on the very contributions that
are highly sought by major parties but of little use to
minor parties. In my view, this further undercuts the
government’s position that the scheme pursues the
only permissible government interest: combating quid
pro quo corruption and its appearance.
Under the scheme, a donor may contribute a total
of $334,000 to a political party: $33,400 to the general
account and $100,200 to each of the three segregated
accounts. The major parties benefit from this scheme
because they spend substantial sums on activities that
can be paid for through segregated accounts: They put
on lavish nominating conventions that are spectacles
made for a national audience, they maintain expensive
headquarters, and they challenge and defend in court
the outcomes of numerous elections across the country.
Indeed, from December 2014 through December 2016,
the Republican Party received more than $23 million
for its convention, $26 million for its headquarters, and
$5 million for election recounts and litigation; the
Democratic Party received more than $12 million for
its convention, $3 million for its headquarters, and
$6 million for election recounts and litigation. CF
¶¶ 45–46; J.A. 90. The cromnibus amendments enable
the major parties to raise such sums with individual
contributions of up to $334,000. What’s more, those
contributions are in effect no different from general

51a
contributions. So long as a party has segregated-account expenses, a dollar received in a segregated account frees up a dollar in the general account that
otherwise might have been used to defray the segregated-account expenses. Therefore, until a party receives enough money to cover its segregated-account
expenses, the two-tiered scheme establishes an effective general contribution limit of $334,000.
By contrast, minor parties gain little from this scheme
because they do not have much use for segregatedaccount contributions. The LNC, for example, holds
more modest conventions and maintains a less expensive headquarters than the major parties, and the LNC
has never spent money on election recounts and is
unlikely to do so in the future. See LNC Br. 13–15. In
most years, its expenses for these purposes are less
than $500,000. See id.; CF ¶¶ 25–29. Lacking further
segregated-account expenses, the LNC and similar
minor parties do not benefit much from the higher
limit for segregated-account contributions. Instead,
they seek contributions that can be used for other purposes, and those contributions are limited to $33,400.
In this way, the scheme’s exceptions loosen restrictions on those contributions that are useful to major parties but not to minor parties. Of course, this
effect is in part attributable to the various levels of
support for different parties and the parties’ decisions
on how to raise and spend contributions. And as the
majority notes, this effect alone does not render the
scheme unconstitutional. See Maj. Op. at 33. Even so,
it raises further doubts that the scheme is tailored to

52a
serve anticorruption interests rather than an impermissible interest, such as disadvantaging minor parties.
See Williams-Yulee, 135 S. Ct. at 1668. This concern overlaps with those that motivate comparative-disadvantage
cases, see, e.g., Randall v. Sorrell 548 U.S. 230, 248
(2006) (a statute regulating contributions must not
“magnify the advantages of incumbency to the point
where [it] put[s] challengers to a significant disadvantage”), but it is not an attempt to raise a comparative-disadvantage claim on the LNC’s behalf, Maj. Op.
at 32–33. It simply provides further record-based reasons to be skeptical that the two-tiered scheme is tailored to serve anticorruption interests.
Because the government has not carried its burden of showing that the scheme is closely drawn to
combat corruption or its appearance, I would hold that
the scheme violates the First Amendment. Having
reached a different decision on the merits, the majority
has no occasion to address the appropriate remedy. I
therefore do not reach the issue either.2 But on the
2

The appropriate remedy, i.e., the “upshot” of holding that
the scheme violates the First Amendment, Op. at 23 (Katsas, J.),
is disputed by the parties. The LNC argues that the appropriate
remedy is excising the use restrictions while leaving the increased
overall limit, allowing a donor to contribute $334,000 for general
use. LNC Br. 62–63; accord Amicus Br. of the Goldwater Inst. 8.
The government urges the pre-cromnibus status quo, which would
allow a donor to contribute $33,400 for general use and nothing
more. FEC Br. 54–56. Alternatively, the court could remand this
matter for further record development. See Order, Holmes v. FEC,
No. 14-5281 (D.C. Cir. Jan. 30, 2015) (en banc) (per curiam); Buckley v. Valeo, 519 F.2d 817, 818 (D.C. Cir. 1975) (en banc) (per curiam); see also Turner, 512 U.S. at 668.

53a
merits of the second and third certified questions, I respectfully dissent.

KATSAS, Circuit Judge, with whom Circuit Judge
HENDERSON joins, concurring in part, concurring in the
judgment in part, and dissenting in part: This case
involves statutory limits on contributions that individuals may make to political parties. In McConnell v.
FEC, 540 U.S. 93 (2003), the Supreme Court held that
these contribution limits are not facially unconstitutional. Here, we consider whether the limits are unconstitutional as applied to contributions made through
bequests. We also consider whether the limits became
unconstitutional when Congress amended them in
2014.
I
To frame the relevant inquiries, we must first decide the appropriate level of First Amendment scrutiny. The majority reserves this question, ante at 13, 28,
but I would decide it.
In 1976, the Supreme Court fixed the level of scrutiny for limits on contributions to candidates for federal elective offices. Those limits “may be sustained if
the State demonstrates a sufficiently important interest and employs means closely drawn to avoid unnecessary abridgment” of speech and associational freedoms.
Buckley v. Valeo, 424 U.S. 1, 25 (1976) (per curiam).
Subsequently, the Court has applied this same level

54a
of scrutiny to assess the constitutionality of contribution limits imposed on all kinds of donors and recipients, including candidates for federal and state offices;
national, state, and local political parties; and political
action committees. See, e.g., McCutcheon v. FEC, 572
U.S. 185, 196–99 (2014) (plurality opinion); Ariz. Free
Enter. Club’s Freedom Club PAC v. Bennett, 564 U.S.
721, 734–35 (2011); Davis v. FEC, 554 U.S. 724, 736–37
(2008); Randall v. Sorrell, 548 U.S. 230, 246–48 (2006)
(plurality opinion); McConnell, 540 U.S. at 134–41;
FEC v. Beaumont, 539 U.S. 146, 161–62 (2003); FEC v.
Colo. Republican Fed. Campaign Comm., 533 U.S. 431,
446–56 (2001); Nixon v. Shrink Mo. Gov’t PAC, 528 U.S.
377, 387–88 (2000). For shorthand, this level of scrutiny is now referred to (rather clumsily) as “closely
drawn scrutiny.”
Despite this long line of precedent, the Federal
Election Commission urges us to lower the bar, at least
with respect to bequests. The FEC asks us to consider
only whether the challenged contribution limits prevent the Libertarian National Committee, which received the bequest at issue here, from “amassing the
resources necessary for effective advocacy.” The FEC
plucks that phrase out of Buckley, which observed that
contribution limits “could have a severe impact” if they
prevented recipients from amassing such resources.
424 U.S. at 21. The FEC reasons that bequests implicate neither the donor’s speech interests nor anyone’s
associational interests, and the recipient’s speech interests are impaired only if it is prevented from mounting,
in the aggregate, some quantum of “effective” advocacy.

55a
This analysis is flawed at every turn. To begin, “effective advocacy” is not a reduced, free-floating level of
First Amendment scrutiny. If a contribution limit prevents effective advocacy, then it is insufficiently tailored to satisfy closely drawn scrutiny. See Randall,
548 U.S. at 246–62 (plurality opinion); id. at 267–73
(Thomas, J., concurring in the judgment). But contribution limits may be insufficiently tailored for other
reasons, such as “a substantial mismatch between the
Government’s stated objective and the means selected
to achieve it.” McCutcheon, 572 U.S. at 199 (plurality
opinion). And regardless of any tailoring problems, contribution limits are unconstitutional if the asserted
government interest is insufficiently important. See,
e.g., Davis, 554 U.S. at 740 n.7; SpeechNow.org v. FEC,
599 F.3d 686, 695 (D.C. Cir. 2010) (en banc).
Likewise, the Supreme Court has never attempted
“to parse distinctions between the speech and association standards of scrutiny for contribution limits.”
Shrink Mo. Gov’t, 528 U.S. at 388. Rather, it has fashioned what the majority aptly describes as a “single
unified test that applies an intermediate level of scrutiny to contribution limits.” Ante at 13. Thus, in reaffirming the appropriateness of closely drawn scrutiny
in McConnell, the Court held it immaterial that the
challenged provisions restricted the acceptance of contributions by parties rather than the giving of contributions by donors. See 540 U.S. at 138. Applying closely
drawn scrutiny in SpeechNow, this Court held that the
challenged contribution limits violated the First Amendment rights of both the donors and the recipient,

56a
without hinting at any distinction between the two.
See 599 F.3d at 690–96. And the three-judge district
court in Republican National Committee v. FEC, 698
F. Supp. 2d 150 (D.D.C.) (Kavanaugh, J.), aff ’d, 561
U.S. 1040 (2010) (mem.), applied closely drawn scrutiny to assess contribution limits challenged only by
recipients. See id. at 153, 156. Of course, different contribution limits may impact speech and associational
interests in different ways, but “we account for [those
impacts] in the application, rather than the choice, of
the appropriate level of scrutiny.” McConnell, 540 U.S.
at 141.
The FEC’s plea for less-than-intermediate scrutiny
is also radical. For over four decades, various justices
have urged that because contribution limits “operate
in an area of the most fundamental First Amendment
activities,” Buckley, 424 U.S. at 14, they should be subjected to strict rather than closely drawn scrutiny. See,
e.g., Shrink Mo. Gov’t, 528 U.S. at 405–10 (Kennedy, J.,
dissenting); id. at 410–30 (Thomas, J., joined by Scalia,
J., dissenting); Colo. Republican Fed. Campaign Comm.
v. FEC, 518 U.S. 604, 635–44 (1996) (Colorado I) (Thomas,
J., dissenting in part); Buckley, 424 U.S. at 241–46
(Burger, C.J., dissenting in part); id. at 290 (Blackmun,
J., dissenting in part). McConnell acknowledged this “significant criticism.” 540 U.S. at 137. And in McCutcheon
—the Court’s most recent decision in this area—the
plurality sought to minimize the differences between
strict and closely drawn scrutiny, see 572 U.S. at 196–
99, in the face of a continuing call for strict scrutiny, see
id. at 228–32 (Thomas, J., concurring in the judgment).

57a
Given this longstanding debate over whether closely
drawn scrutiny sets the bar too low, it is quite a stretch
to posit that, here, it sets the bar too high.
The FEC’s proposal would create anomalies in
First Amendment law more generally. Effective speech
often requires multiple parties—speakers, listeners,
and, in the context of mass markets, patrons. The Supreme Court generally treats the rights of these parties as “reciprocal.” Va. State Bd. of Pharmacy v. Va.
Citizens Consumer Council, Inc., 425 U.S. 748, 756–57
(1976) (“the protection afforded is to the communication, to its source and to its recipients both”). So, the
right of one party to speak implies the right of another
party to listen. See id. Likewise, the right of one party
to fund speech implies the right of another party to accept the funds. Cf. McConnell, 540 U.S. at 138 (“it is
irrelevant that Congress chose . . . to regulate contributions on the demand rather than the supply side”).
It would be odd enough to isolate one from the other in
deciding the merits, much less to do so in fixing an appropriate level of scrutiny.
Finally, in fixing the level of scrutiny, death should
make no difference. Of course, living donors have substantial speech and associational interests in contributing money to political parties of their choice. See, e.g.,
McCutcheon, 572 U.S. at 191–92 (plurality opinion); id.
at 228 (Thomas, J., concurring in the judgment). Yet a
contribution is no less speech and expressive association if the donor makes it through a bequest rather
than a lifetime transfer. Either way, the donor intends
to support the political views of the party, and an

58a
observer would reasonably understand as much. See
Buckley, 424 U.S. at 16–17; cf. Spence v. Washington,
418 U.S. 405, 410–11 (1974) (per curiam). Likewise, the
speech and associational interests of recipients—in using all available resources to fund political speech—
do not vary depending on whether contributions come
from living or deceased donors.
In sum, the FEC’s attempt to ratchet down the
level of scrutiny by separating speech from expressive
association, donors from recipients, and the living from
the dead is unsupported by precedent and unsound in
principle. I would hold what the majority only assumes—that closely drawn scrutiny governs this case.
II
Under closely drawn scrutiny, limits on political
contributions are constitutional “if the State demonstrates a sufficiently important interest and employs
means closely drawn to avoid unnecessary abridgment” of speech and associational freedoms. Buckley,
424 U.S. at 25. In this sensitive area, the only sufficiently important government interests are the prevention of quid pro quo corruption—“a direct exchange
of an official act for money”—and its appearance.
McCutcheon, 572 U.S. at 192 (plurality opinion). Interests in equalizing “electoral opportunities,” and in preventing donors from acquiring “influence over or access
to elected officials or political parties,” are insufficient.
Id. at 207–08 (quotation marks omitted). Moreover,
“the Government bears the burden of proving the

59a
constitutionality of its actions,” id. at 210 (quotation
marks omitted), consistent with how intermediate
scrutiny works in other First Amendment contexts.
See, e.g., United States v. Nat’l Treasury Emps. Union,
513 U.S. 454, 475 (1995) (“the Government . . . must
demonstrate that the recited harms are real, not
merely conjectural, and that the regulation will in fact
alleviate these harms in a direct and material way”
(quotation marks omitted)) (speech restrictions on government employees); Turner Broad. Sys., Inc. v. FCC,
512 U.S. 622, 664–68 (1994) (plurality opinion) (same
for content-neutral speech restrictions); Edenfield v.
Fane, 507 U.S. 761, 770–71 (1993) (same for commercial speech restrictions).
In Buckley, the Supreme Court applied these principles to reject a facial challenge to limits on contributions made to candidates for federal elective offices.
The Court noted “deeply disturbing examples” of “quid
pro quo” corruption, which proved that the government’s asserted interest was “not an illusory one.” 424
U.S. at 26–27. The Court cited “a number of the abuses”
discussed in our Buckley opinion, id. at 27 n.28, which
explained that the record before Congress was “replete
with specific examples of improper attempts to obtain
governmental favor in return for large campaign contributions,” 519 F.2d 821, 839 n.37 (D.C. Cir. 1975) (en
banc). The Supreme Court further reasoned that, even
if most contributors do not improperly seek quid pro
quo exchanges, “suspect contributions” are “difficult
to isolate.” 424 U.S. at 30. So, to prevent actual and

60a
apparent corruption, the government may eliminate
the “opportunity for abuse” from large contributions.
Id.
In McConnell, the Court rejected a facial challenge
to limits on contributions to political parties. Given
what it described as the “unity of interest” between
parties and elected officials, the Court found “neither
novel nor implausible” the supposition that large contributions to a party could corrupt its elected officials.
540 U.S. at 144–45. The Court also discussed at length
the supporting evidence: the major political parties annually had been raising hundreds of millions of dollars
in previously unregulated soft money, id. at 124; these
contributions often were solicited by, and used to help,
individual candidates, id. at 146; wealthy donors made
large contributions to both major parties, id. at 148;
and these contributions impacted a wide range of legislation, id. at 150.
III
A
This case presents a challenge to limits on contributions to political parties made through bequests. In
a prior case, the LNC unsuccessfully sought to enjoin
application of the contribution limits to all bequests.
Libertarian Nat’l Comm., Inc. v. FEC, 930 F. Supp. 2d
154 (D.D.C. 2013) (LNC I). Here, the LNC seeks to enjoin application of the limits only to a bequest made by
Joseph Shaber.

61a
The facts surrounding this bequest are undisputed. Shaber neither coordinated with the LNC regarding his decision to include the party in his will nor
even informed the party of that decision. Libertarian
Nat’l Comm., Inc. v. FEC, 317 F. Supp. 3d 202, 249
(D.D.C. 2018) (LNC II). “Aside from pursuing its ideological and political mission, the LNC has provided
nothing of value to Mr. Shaber, or to anyone else, in exchange for his bequest.” Id. at 251. The bequest imposed no conditions and made no requests, but instead
provided for the LNC to take “outright” a contribution
ultimately valued at about $235,000. Id. at 250 (quotation marks omitted). Over the course of his lifetime,
Shaber donated a total of $3,315 to the LNC, made in
46 separate gifts spread out over 24 years. Id. at 248–
49. Besides making these contributions, Shaber had no
other relationship with the LNC. Id. at 251.
In its prior cases on contribution limits, the Supreme Court considered no issues specific to bequests.
Because the LNC does not rest its claim on “the same
factual and legal arguments the Supreme Court expressly considered” in Buckley and McConnell, those
precedents do not foreclose the LNC’s as-applied challenge here. Republican Nat’l Comm., 698 F. Supp. 2d at
157 (“McConnell permits as-applied challenges”); see
also Doe v. Reed, 561 U.S. 186, 201 (2010) (“upholding
the law against a broad-based challenge does not foreclose a litigant’s success in a narrower one”). Indeed,
the Supreme Court has sustained an as-applied challenge to corporate-expenditure limits previously held
facially constitutional, FEC v. Wis. Right to Life, Inc.,

62a
551 U.S. 449, 476–82 (2007) (WRTL) (plurality opinion), and this Court has sustained an as-applied challenge to contribution limits previously held facially
constitutional, SpeechNow, 599 F.3d at 692–96. Moreover, because the LNC’s challenge raises issues not addressed in Buckley or McConnell, the government
retains its burden of proof under heightened scrutiny.
See WRTL, 551 U.S. at 464–65 (plurality opinion). Of
course, we must determine which facts, if any, distinguish this case from Buckley and McConnell, and the
breadth of our reasoning will impact the law going forward. See Citizens United v. FEC, 558 U.S. 310, 331
(2010) (“no general categorical line bars a court from
making broader pronouncements of invalidity in properly ‘as applied’ cases” (quotation marks omitted)). But
regardless of the breadth of our reasoning, the LNC’s
first claim seeks relief only as to Shaber’s individual
bequest.
Under these rules for assessing as-applied challenges, I would hold that the challenged contribution
limits are unconstitutional as applied to any of three
nested categories: bequests, uncoordinated bequests,
and Shaber’s bequest. I will address the categories
from broadest to narrowest.
1
“The quantum of empirical evidence needed to satisfy heightened judicial scrutiny of legislative judgments will vary up or down with the novelty and
plausibility of the justification raised.” McConnell, 540

63a
U.S. at 144 (quotation marks omitted). Here, that
means requiring more evidence rather than less, for
there are strong reasons to think that bequests—in
contrast to contributions from living donors—do not
pose a significant risk of actual or apparent quid pro
quo corruption. For one thing, politics operates on notoriously “short timeframes,” Citizens United, 558 U.S.
at 334, so gifts deferred until death—perhaps many
election cycles down the road—will have relatively little value to political parties or their candidates. For another, there is no easy means for deceased donors or
their beneficiaries to enforce any corrupt bargains. In
the context of contributions from living donors, such
bargains are managed through winks and nods over
time, as money flows one way and political favors
flow the other. See McConnell, 540 U.S. at 147 (quoting
lobbyist’s testimony that “overt words are rarely exchanged about contributions, but people do have understandings”). Bequests cannot work like that, because
the money flows only once, and at death. So, if a corrupt
donor seeks political favors during his lifetime, when
the bequest is nothing more than a revocable promise,
the recipient will have no way to prevent the donor
from accepting the favors but then reneging on the
promise. Or, if the donor seeks favors for survivors, he
will have no way to ensure delivery after death makes
the bequest irrevocable and removes him from the picture. Either way, inherent constraints limit the feasibility of any contemplated exchange. Bequests are thus
generally “less susceptible . . . to misuse,” Beaumont,
539 U.S. at 160, than contributions from living donors.

64a
The evidence confirms this point. To justify its concerns about possible corruption through bequests, the
FEC could have pointed to anything in any of four records: the legislative record of a select committee established by Congress to investigate fundraising for the
1972 presidential election, see Buckley, 519 F.2d at 839
n.35; the 100,000-page record compiled for the threejudge district court in McConnell, see 251 F. Supp. 2d
176, 209 (D.D.C. 2003); the district-court record in LNC
I, where all bequests were at issue; or the district-court
record in this case. Yet, despite the massive records
in Buckley and McConnell, and the two records made
in the bequest-specific LNC cases, the FEC points to
nothing substantiating its concerns. In fact, these records undercut its position in three critical respects.
First, bequests are rarely used for political contributions. From 1978 through August 2017, bequests accounted for only about $3.7 million in contributions to
federal candidates, political parties, and all other entities required to file reports with the FEC. LNC II, 317
F. Supp. 3d at 247. To put that number in perspective,
the same group of recipients spent $7 billion in the
2012 election cycle alone, McCutcheon, 572 U.S. at 219
(plurality opinion), and the major political parties
spent nearly $1.2 billion in 2000 alone, see McConnell,
540 U.S. at 124. Of course, bequests to political parties
might increase if the relevant contribution limits were
invalidated. But, from 1978 to 2002, donors could have
made unlimited soft-money bequests to political parties. See id. at 122–24. And if McConnell correctly
understood the “unity of interest” between political

65a
parties and elected officials, such bequests would have
been almost as enticing as ones made directly to the
officials. See id. at 144–45. In sum, despite decades of
little or no relevant regulation, contributions through
bequests have remained a drop in the proverbial
bucket.
Second, and perhaps most striking, the FEC does
not point to even a single quid pro quo exchange—
at any time in American history—allegedly effected
through a bequest. Nor do the careful, extensive findings made by the district courts in the LNC cases. See
LNC I, 930 F. Supp. 2d at 171–90; LNC II, 317 F. Supp.
3d at 225–57. In developing the records for those cases,
all the FEC could muster up was more evidence of corruption involving contributions from living donors.
See id. at 236–42. In striking down limits on independent expenditures by corporations, the Supreme Court
stressed that “[t]he McConnell record was over 100,000
pages long, yet it does not have any direct examples of
votes being exchanged for expenditures.” Citizens
United, 558 U.S. at 360 (cleaned up). The FEC’s failure
of proof here is no less dramatic.
Third, there is no evidence of testators trying to
play both sides. In McConnell, the Court found it
“[p]articularly telling” that wealthy individuals “gave
substantial sums to both major national parties, leaving room for no other conclusion but that these donors
were seeking influence, or avoiding retaliation, rather
than promoting any particular ideology.” 540 U.S.
at 148. The FEC alleges nothing comparable as to
bequests. This should hardly be surprising, for the

66a
possibility of a corrupt donor securing political favors,
not by giving large sums to both parties during his lifetime, but by simultaneously remembering both parties
in his will, seems almost fantastic.
Against this evidence (or lack thereof ), and despite the practical problems with effectuating any quid
pro quo through a bequest, the majority posits that a
corrupt bequest might be possible—in theory—if the
donor and the party worked out the exchange in advance. Ante at 14–15. With respect, I find that possibility insufficient to discharge the FEC’s significant
burden of proof under closely drawn scrutiny. The
Supreme Court has “ ‘never accepted mere conjecture
as adequate to carry a First Amendment burden,’ ”
McCutcheon, 572 U.S. at 210 (plurality opinion) (quoting Shrink Mo. Gov’t, 528 U.S. at 392), and so neither
should we.
2
In any event, contribution limits are unconstitutional as applied to uncoordinated bequests. To reiterate, the majority posits that bequests could be corrupt
if the testator bargained with the intended beneficiary
before his death. Ante at 14–15; see also LNC I, 930
F. Supp. 2d at 166 (“making one’s bequest known before death could be treated just as a contribution is”).
But this cannot happen if the testator does not even
tell the recipient about the planned bequest during his
lifetime. In that circumstance, a quid pro quo exchange
is impossible.

67a
The only response is that coordinated and uncoordinated bequests may be difficult to distinguish, so
both must be regulated together. But this reasoning
runs counter to perhaps the most fundamental distinction in campaign-finance law—between contributions
and independent expenditures.
In Buckley, the Court invalidated a limit on the
expenditures that any person could make “relative to
a clearly identified candidate.” See 424 U.S. at 39–51
(quotation marks omitted). The government defended
the expenditure limit as necessary to prevent evasion
of the limits on contributions to candidates. But the
governing statute already treated “controlled or coordinated expenditures” as “contributions rather than
expenditures.” Id. at 46 & n.53. And the Court held
that this distinction between coordinated and independent spending also marked a critical constitutional
line. Thus, the treatment of “prearranged or coordinated
expenditures” as contributions permissibly addressed
the government’s concern about evading contribution
limits. Id. at 47. But the limit on independent expenditures did not. As the Court explained: “The absence of
prearrangement and coordination of an expenditure
with the candidate or his agent not only undermines
the value of the expenditure to the candidate, but also
alleviates the danger that expenditures will be given
as a quid pro quo for improper commitments from the
candidate.” Id. Later decisions have reinforced this
“fundamental constitutional difference” between independent expenditures, which are fully protected, and
coordinated expenditures, which may be and are

68a
regulated as contributions. FEC v. Nat’l Conservative
Political Action Comm., 470 U.S. 480, 497 (1985); see,
e.g., McConnell, 540 U.S. at 202–03, 219–22; Colorado
I, 518 U.S. at 613–16 (plurality opinion); FEC v. Mass.
Citizens for Life, Inc., 479 U.S. 238, 251–63 (1986). Most
recently, in Citizens United, the Court applied this reasoning to invalidate limits on independent expenditures by corporations and unions. 558 U.S. at 356–60,
365–66.
In SpeechNow, this Court recognized that the protection for independent expenditures also constrains
the government’s ability to regulate contributions. We
held that contribution limits are unconstitutional as
applied to recipients that engage only in independent
expenditures. We noted that, after Citizens United,
“the government has no anti-corruption interest in
limiting independent expenditures.” 599 F.3d at 693.
Then, we reasoned: “In light of the Court’s holding as a
matter of law that independent expenditures do not
corrupt or create the appearance of quid pro quo corruption, contributions to groups that make only independent expenditures also cannot corrupt or create
the appearance of corruption.” Id. at 694. Because no
legitimate government interest was implicated, even a
modest impairment of speech and associational rights
would be unconstitutional. See id. at 695 (“something
. . . outweighs nothing every time” (quotation marks
omitted)).
The line between coordinated and uncoordinated
spending thus runs throughout campaign-finance law,
and the FEC routinely must police it. Congress has

69a
long defined an expenditure “independent” of a candidate as one that, in pertinent part, was “not made in
concert or cooperation with or at the request or suggestion of such candidate, the candidate’s authorized political committee, or their agents, or a political party
committee or its agents.” 52 U.S.C. § 30101(17)(B); see
also id. § 30116(a)(7)(B)(i) (treating expenditures not
independent of a candidate as “a contribution to such
candidate”); McConnell, 540 U.S. at 221–22 & n.99. A
parallel definition now distinguishes expenditures “independent” of political parties from contributions to
those parties. See id. at 219–20 & n.97. The Supreme
Court has held that this definition is not impermissibly
vague, id. at 222–23; the FEC has promulgated a
swath of regulations implementing it, see generally 11
C.F.R. pt. 109; and the Commission or the courts frequently apply it to determine whether disputed expenditures were in fact independent, see, e.g., Colorado
I, 518 U.S. at 619–23 (plurality opinion); AFL-CIO v.
FEC, 333 F.3d 168, 171 (D.C. Cir. 2003). Likewise, other
decisions assess whether specific entities make only independent expenditures and thus have a First Amendment right to receive unrestricted contributions under
SpeechNow. See, e.g., Vt. Right to Life Comm., Inc. v.
Sorrell, 758 F.3d 118, 140–41 (2d Cir. 2014).
Armed with extensive disclosure requirements and
enforcement powers, the FEC routinely determines
whether disputed expenditures were coordinated or independent. The FEC offers no reason why it cannot make
the same determination as to bequests. Because coordinated and uncoordinated bequests can be manageably

70a
distinguished, and because uncoordinated bequests
are not even alleged to present any corruption risk, the
contribution limits are unconstitutional at least as applied to them.
3
Finally, the contribution limits are unconstitutional as applied to Shaber’s individual bequest. Not
only was his bequest uncoordinated, but several additional facts make the LNC’s challenge even stronger.
First, far from coordinating with the LNC, Shaber
never even told the LNC of the bequest before his
death. LNC II, 317 F. Supp. 3d at 249. With the LNC
unaware that a testamentary quid might be forthcoming, there could be no quid pro quo agreement—
nor even any debate about whether to infer such an
agreement based on winks, implicit understandings, or
other ambiguous circumstances.
Second, the bequest came with no strings attached. LNC II, 317 F. Supp. 3d at 250. It neither demanded nor even asked that the LNC do anything in
return. The district court noted that, in one other instance, a trustee had requested that the LNC use the
bequest to help defeat specific candidates. See id. at
248. There would be nothing wrong with such an
agreement, for that quo would not involve any “official
act” of the government. See McCutcheon, 572 U.S. at
192 (plurality opinion). But, here, Shaber never sought
any quo at all.

71a
Third, the LNC “provided nothing of value” in exchange for the bequest, except perhaps for continuing
to “pursu[e] its ideological and political mission.” LNC
II, 317 F. Supp. 3d at 251. In LNC I, the FEC expressed
concern that a political party could grant “preferential
access” to testators who (unlike Shaber) tell the party
of the intended gift during their lifetime. 930 F. Supp.
2d at 186. However, “[i]ngratiation and access . . . are
not corruption.” Citizens United, 558 U.S. at 360. And,
here, Shaber did not seek even that.
Fourth, Shaber made only modest contributions to
the LNC during his lifetime. As the district court explained, Shaber’s total lifetime donation of $3,315,
made in 46 separate contributions spread out over 24
years, “is a drop in the bucket relative to current law’s
annual limit of $33,900 for individuals to contribute for
any purpose to national political party committees,
and an even smaller drop relative to the limit of
$339,000 that individuals may contribute for either
general or specialized purposes.” LNC II, 317 F. Supp.
3d at 216. Likewise, Shaber’s contribution history did
not qualify him for any of the benefits that the LNC
affords to its major donors. See id. at 242. So, there is
no reason to think that the LNC might have even identified Shaber as someone likely to make a large bequest, much less used that possibility to engineer a
secret quid pro quo before his death.
Finally, besides making his modest gifts, Shaber
had no other relationship with the LNC during his lifetime, LNC II, 317 F. Supp. 3d at 251, thus making the
prospect of corruption even more unlikely.

72a
B
The majority views the LNC’s as-applied claim as
resting on nothing more than a factual contention that
Shaber’s individual bequest was not corrupt. Ante at
16–17. It then rejects the claim as inconsistent with
Buckley’s holding that, because corrupt and legitimate
contributions are hard to distinguish, “prophylactic”
limits may be applied to both. Ante at 17–19 (quotation
marks omitted). But there is more to the LNC’s claim.
As noted above, the fact that the LNC sought relief
only as to Shaber’s bequest did not prevent it from
making substantive arguments that sweep more
broadly. See Bucklew v. Precythe, 139 S. Ct. 1112, 1127–
28 (2019); Citizens United, 558 U.S. at 331. Although
the LNC asks us to assess Shaber’s bequest based on a
totality of the circumstances, it also makes broader arguments keyed to the general nature of bequests and
uncoordinated bequests. See, e.g., LNC Opening Br. at
37 (“[B]arring supernatural intervention, the potential
for quid pro quo activity is rather more limited than in
the case of a living donor, as are prospects for its enforcement. Regardless of what the LNC might do for
Shaber now, he will give it nothing more or less than
his bequest.”); LNC Reply Br. at 14 (“Bequests are different. Until death, they are merely a revocable promise. After death, they are irrevocable, and cannot be
policed by the dead for quid pro quo compliance.”). In
my judgment, that was enough to preserve the broader
arguments—and, as to them, to trigger the FEC’s burden of proof under closely drawn scrutiny. The FEC did
not misapprehend this point; to the contrary, it argued

73a
both that Buckley forecloses as-applied challenges
based on the facts of individual cases, FEC Br. at 25–
28, and that bequests as a category raise the same
corruption concerns as other kinds of political contributions, id. at 29–32.
On the merits, the LNC’s substantive arguments
do not threaten the general justification for prophylactic
contribution limits. As explained above, contributions
made through bequests may be safely distinguished
as a category—just like contributions to groups that
make only independent expenditures. See SpeechNow,
599 F.3d at 692–96. The same is true for the narrower
category of contributions made through uncoordinated
bequests. And to the extent that additional facts
strengthen the LNC’s challenge, there is nothing inappropriate about considering them. Successful asapplied challenges often turn on the facts of individual
cases. See, e.g., WRTL, 551 U.S. at 469–81 (plurality
opinion) (expenditure limit impermissibly extended beyond functional equivalent of express advocacy); Brown
v. Socialist Workers ‘74 Campaign Comm., 459 U.S. 87,
88 (1982) (disclosure requirement impermissibly subjected party to threats or harassment). Likewise, casespecific facts would be necessary to determine whether
contribution limits prevent individual recipients from
“amassing the resources necessary for effective advocacy”—a type of as-applied challenge that McConnell
repeatedly invited. 540 U.S. at 159 (quotation marks
omitted); see id. at 173.
The majority also suggests that as-applied challenges to contribution limits may be appropriate in

74a
cases where the burdens imposed on speakers are particularly harsh, but not in cases where the relevant
government interests are particularly weak. Ante at
19–20. There is no conceptual reason why that should
be so, for closely drawn scrutiny requires proof both
that an important government interest is implicated
and that the challenged restriction does not infringe
speech or associational interests unnecessarily. SpeechNow confirms this point. There, in striking down contribution limits as applied to recipients that make only
independent expenditures, we rested squarely on the
premise that “the government ha[d] no anti-corruption
interest” in that case, without reaching the question of
how severely the challenged limits infringed speech
and associational interests. 599 F.3d at 694–95.
Finally, it is worth remembering that Buckley and
McConnell are themselves exceptions to an overarching First Amendment principle. “Broad prophylactic
rules in the area of free expression are suspect,” and
“[p]recision of regulation must be the touchstone” in
this area. NAACP v. Button, 371 U.S. 415, 438 (1963).
Buckley and McConnell qualify that principle, by approving “prophylactic” restrictions extending to some
non-corrupt contributions. McCutcheon, 572 U.S. at
221 (plurality opinion). But the “prophylaxis” must
also have limits. See id. Under closely drawn scrutiny,
it cannot properly be extended to bequests that, as a
group and individually, may reliably be determined to
be legitimate.

75a
IV
Beyond any question about bequests, the LNC
challenges the contribution limits as amended in 2014.
The LNC contends that the current limits are unconstitutional, both on their face and as applied. On this
point, the LNC does not highlight any facts about Shaber’s individual contribution, but instead attacks the
statutory scheme itself.
The provisions at issue are structured as one old
rule subject to three new exceptions. The rule is that
no person may contribute over $25,000 per year to a
national political party, 52 U.S.C. § 30116(a)(1)(B), subject to adjustment for inflation, id. § 30116(c). It is contained in the Federal Election Campaign Act of 1971
(FECA), as amended by the Bipartisan Campaign Finance Reform Act of 2002 (BCRA), and it was upheld
by McConnell. See Pub. L. No. 107-155, § 307(a)(2), (d),
116 Stat. 81, 102–03; 540 U.S. at 142–61. The exceptions permit individuals to make additional annual
contributions of up to $75,000 for presidential nominating conventions, $75,000 for party headquarters,
and $75,000 for recounts and other legal proceedings,
all subject to the same inflation adjustment. 52 U.S.C.
§ 30116(a)(1)(B), (a)(9). They were created by a 2014
amendment to FECA. Pub. L. No. 113-235, div. N, § 101,
128 Stat. 2130, 2772–73. The LNC’s challenge to this
scheme mixes attacks on the new exceptions, attacks
on the old rule, and attacks on how the two treat
different categories of speech differently. The LNC
also combines arguments based on overbreadth and

76a
underbreadth. But once these various arguments are
unpacked, none of them succeeds.
Most obviously, the new contribution limits do
not themselves restrict too much speech. On this point,
McConnell controls. If a prohibition on contributing
more than $25,000 to a political party for any purpose
does not restrict too much speech, then neither do exceptions that permit additional contributions of up to
three times that amount. The majority correctly concludes that this much is a matter of “simple mathematics,” ante at 30, and Judge Griffith agrees, ante at 1.
The LNC further attacks the statutory distinction
between contributions for nominating conventions,
headquarters, and legal proceedings (now governed by
the higher 2014 limits) and contributions for all other
purposes (still governed by the lower BCRA limit). It
contends that there is no anti-corruption justification
for treating these categories differently. The majority
concludes that there are such justifications, ante at 30–
32, while Judge Griffith concludes that there may not
be, ante at 3–7. In my view, Judge Griffith has the better of this argument, so I would join his dissent if the
First Amendment required proof of a corruption-based
justification for the differential treatment of these
speech categories. But I do not think that such proof is
necessary in this case.
As a general matter, “the First Amendment imposes no freestanding ‘underinclusiveness limitation.’ ”
Williams-Yulee v. Fla. Bar, 135 S. Ct. 1656, 1668 (2015)
(quoting R.A.V. v. City of St. Paul, 505 U.S. 377, 387

77a
(1992)). So, for example, if a state may prohibit obscenity across the board, then it may prohibit obscene telephone calls but not obscene telegrams—even if the two
raise comparable concerns. See R.A.V., 505 U.S. at 387.
Otherwise, laws might “violate[ ] the First Amendment
by abridging too little speech”—which is highly “counterintuitive.” Williams-Yulee, 135 S. Ct. at 1668.
In my view, that principle governs this case. Under
closely drawn scrutiny, Congress needed an anti-corruption justification both to impose BCRA’s original
contribution limit and to limit the additional categories of spending permitted by the 2014 amendment.
As noted above, McConnell found sufficient justification for the former, and the latter follows from it. But
Congress did not need a further, corruption-related
justification to restrict contributions for nominating
conventions, headquarters, and legal expenses less severely than it restricts other contributions. Rather,
Congress could have chosen to restrict those contributions less severely for other reasons, such as a desire
to make up for the loss of public funds for nominating
conventions, or simply to permit more speech rather
than less. The First Amendment demands a strong
anti-corruption justification when Congress chooses to
restrict campaign contributions, not when it chooses to
loosen the restrictions.
There are two important qualifications to this
analysis, but neither affects the bottom line here.
First, distinctions among categories of speech may
violate the First Amendment if they are based on

78a
content. See R.A.V., 505 U.S. at 387 (“the First Amendment imposes not an ‘underinclusiveness’ limitation
but a ‘content discrimination’ limitation”). Here, the
LNC contends that the more favorable treatment of
contributions for nominating conventions, headquarters, and legal expenses is content-based, because it
targets speech based on its “function or purpose.” Reed
v. Town of Gilbert, 135 S. Ct. 2218, 2227 (2015). Moreover, if a distinction between “political” and other
speech is content-based, see id. at 2224–30, then so are
the distinctions among the types of political-speech
contributions at issue here.
Whatever the force of this argument in the abstract, it cannot carry the day. Reed did not involve
campaign contribution limits, which the Supreme
Court has long treated as content-neutral restrictions
subject to intermediate scrutiny. So, while I disagree
with the majority’s suggestion that Reed is inapposite
because this case does not involve speech restrictions,
ante at 26, I agree with its ultimate conclusion, ante at
27–28, that a lower court cannot follow the implications of Reed as against the holdings of the campaignfinance cases. See Agostini v. Felton, 521 U.S. 203, 237
(1997).
Second, underinclusiveness can raise First Amendment concerns for another reason, by suggesting that
the government is not pursuing its asserted interests
or that the challenged speech restriction will not substantially advance them. See Williams-Yulee, 135 S. Ct.
at 1668. The majority concludes that the 2014 scheme
does not raise these concerns, ante at 30–32, while

79a
Judge Griffith concludes that it does, ante at 3–9. Were
we free to engage this question, I would agree with
Judge Griffith. But I believe that McConnell forecloses
the debate.
An underinclusiveness argument along these lines
uses speech-enabling exceptions to attack a speechrestricting rule. If the government allows the sale of
violent movies, that casts doubt on its asserted need
to restrict the sale of violent video games. Brown v.
Entm’t Merchs. Ass’n, 564 U.S. 786, 801–02 (2011). If
the government permits newspapers to be distributed
through newsracks, that casts doubt on its asserted
need to prohibit commercial publications from being
similarly distributed. City of Cincinnati v. Discovery
Network, Inc., 507 U.S. 410, 416–28 (1993). If the government permits electronic media to release names of
juvenile offenders, that casts doubt on its asserted
need to prohibit newspapers from doing so. Smith v.
Daily Mail Publ’g Co., 443 U.S. 97, 104–05 (1979).
Here, the analogous argument amounts to a direct
attack on BCRA itself: If Congress permits annual contributions to political parties of $225,000 (or $300,600,
adjusted for inflation) for three specified categories of
activity, that casts doubt on its asserted need to prohibit all other annual contributions over $25,000 (or
$33,400, adjusted for inflation). As Judge Griffith explains, the argument is compelling: money is fungible,
the exceptions dwarf the rule, and there is no plausible anti-corruption rationale to explain the disparate
treatment. Nonetheless, McConnell held that BCRA’s
$25,000 contribution limit substantially advances, and

80a
is narrowly tailored to, the important government interest in combatting actual or apparent quid pro quo
corruption. If we may not revisit that conclusion based
on intervening Supreme Court decisions that undermine McConnell’s reasoning, see Agostini, 521 U.S. at
237, then neither may we revisit it based on intervening statutes that do likewise. On this point, any course
correction must come from the Supreme Court itself.
Judge Griffith concludes that McConnell is not
binding on this point because it did not involve a “regime” with the three new exceptions. Ante at 2. True
enough, but the upshot of his argument is that “limiting general contributions to $33,400” is now unconstitutional. Id. And that general limit, created by section
307(a)(2) of BCRA, and currently codified at 52 U.S.C.
§ 30116(a)(1)(B), is precisely the one that McConnell
upheld.
*

*

*

I join Part II of the majority opinion, which holds
that the LNC has standing to raise its various challenges. For the reasons given above, I respectfully dissent from Part III of the opinion, and I concur in the
judgment as to Part IV.

81a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
LIBERTARIAN NATIONAL
COMMITTEE, INC.,
Petitioner,
v.
FEDERAL ELECTION
COMMISSION,

Civil Action No.
16-cv-00121 (BAH)
Chief Judge
Beryl A. Howell

Defendant.
MEMORANDUM OPINION
(Filed Jun. 29, 2018)
The petitioner, the Libertarian National Committee, Inc. (“LNC”), has challenged for over seven years
the constitutionality of certain contribution limits, under the Federal Election Campaign Act of 1971
(“FECA”), Pub. L. No. 92-225, 86 Stat. 3, as amended
(codified at 52 U.S.C. § 30101 et seq.), that regulate how
the LNC may accept and use testamentary bequests.
In this latest round of litigation, the LNC raises one
facial and two as-applied constitutional challenges to
the statutory limits on the amount of money a person
may contribute per year “to the political committees
established and maintained by a national political
party.” 52 U.S.C. § 30116(a)(1)(B); see also id.
§ 30116(a)(9); Pet.’s Mot. Certify Facts & Questions
(“Pet.’s Mot. Cert.”) at 1, ECF No. 24. The role of a

82a
district court under FECA’s statutory scheme is not to
resolve constitutional challenges to the statute in the
first instance, but merely to certify to the U.S. Court of
Appeals those challenges that are meritorious. See 52
U.S.C. § 30110. Now pending before the Court is the
LNC’s motion to certify for resolution by the U.S. Court
of Appeals for the District of Columbia Circuit three
questions: whether LNC’s First Amendment rights are
violated by (1) applying the annual contribution limits
to “the bequest of Joseph Shaber,” (2) “restricting the
purposes for which the [LNC] may spend its money,” in
general, and (3) “restricting the purposes for which the
[LNC] may spend the bequest of Joseph Shaber,” in
particular. Pet.’s Mot. Cert. at 1.1 The defendant Federal Election Commission (“FEC”), in opposing certification, has moved to dismiss the case, pursuant Rule
12(b)(1) of the Federal Rules of Civil Procedure, for lack
of subject matter jurisdiction. Def.’s Mot. Dismiss
(“Def.’s Mot.”) at 1, ECF No. 25. For the reasons that
follow, the LNC’s motion is granted in part and denied
in part, and the FEC’s motion is denied.
I.

BACKGROUND

The LNC, a nonprofit organization incorporated
under District of Columbia law, is the national
1

The FECA imposes differing contribution limits depending
on the source, recipient and use of the contribution. Unless otherwise specified, the phrase “challenged contribution limits” as used
in this Memorandum Opinion refers to the limits, under 52 U.S.C.
§ 30116(a)(1)(B), (a)(9), on the amounts of money that a person
may donate per year to a national political party committee.

83a
committee of the Libertarian Party of the United
States, which Party has 15,031 active paid sustaining
donors, and 137,451 members, in all 50 states and the
District of Columbia. App’x, Findings of Fact ¶¶ 1, 3. In
addition, forty-eight partisan officeholders and 111
non-partisan officeholders are affiliated with the Libertarian Party nationwide, and over half a million registered voters identify with the Libertarian Party in
the states in which voters can register as Libertarians.
Id. ¶ 3. The LNC describes its purpose “to field national Presidential tickets, to support its state party
affiliates in running candidates for public office, and to
conduct other political activities in furtherance of a libertarian public policy agenda in the United States.” Id.
¶ 5. This is the second round of litigation brought by
the LNC against the FEC regarding the constitutionality of the FECA’s limits on monetary contributions to
political parties. The details of the prior litigation bear
directly on the present dispute and are recounted below, followed by an overview of the underlying facts.
A. The Previous Litigation
The FECA establishes limits on the amount of
money a person may donate per year to national political party committees. See 52 U.S.C. § 30116(a)(1)(B).
In Buckley v. Valeo, the Supreme Court rejected a facial
challenge to the FECA’s “limitation on total contributions by an individual during any calendar year,” describing contribution limits as one of the FECA’s
“primary weapons against the reality or appearance of
improper influence stemming from the dependence of

84a
candidates on large campaign contributions.” 424 U.S.
1, 58 (1976). “The contribution ceilings . . . serve the
basic governmental interest in safeguarding the integrity of the electoral process,” Buckley held, “without directly impinging upon the rights of individual citizens
and candidates to engage in political debate and discussion.” Id. Buckley did not address an as-applied
challenge to the contribution limits.
Ten years ago, Raymond Burrington died and left
the LNC a residuary bequest of $217,734. See Libertarian Nat’l Comm., Inc. v. FEC (“LNC I”), 930 F. Supp. 2d
154, 156 (D.D.C. 2013) (Wilkins, J.). The FEC, consistent with longstanding policy, determined that the
FECA’s limits on contributions to national political
party committees applied to Mr. Burrington’s bequest,
and thus, that the Burrington estate could contribute
to the LNC, in any year, no more than the contribution
limit amount. Id. The Burrington estate contributed to
the LNC the amount of the annual contribution limit
and, in agreement with the LNC, deposited the balance
of Mr. Burrington’s bequest “into an escrow account,
from which the escrow agent . . . would distribute annual contributions from the Estate to the LNC in
amounts equal to FECA’s contribution limit.” Id. at
176.
The LNC sued the FEC to “enjoin application of
the Party Limit to the contribution, solicitation, acceptance, and spending of decedents’ bequests, as said
application violates the LNC’s First Amendment
speech and associational rights and those of its supporters.” Id. at 156. The LNC moved to certify to the

85a
D.C. Circuit the following question: “Does imposing annual contribution limits against testamentary bequests directed at, or accepted or solicited by political
party committees, violate First Amendment speech
and associational rights?” Id. The Court declined to
certify the LNC’s question as overbroad, reasoning
that the LNC’s challenge “would not apply solely to
[the LNC], but would extend to other entities not before this Court.” Id. at 165. The Court further explained that under certain circumstances, “it is
possible for a bequest to raise valid anti-corruption
concerns.” Id. at 166. For example, the Court reasoned,
“making one’s bequest known before death could be
treated just as a contribution is.” Id. Likewise, “[a] bequest may also help friends or family of the deceased
have access to political officeholders and candidates.”
Id. These examples were supported by witness testimony and other factual evidence of how political
“groups treat such bequests.” Id. The Court thus recognized that even contributions by the dead may, in certain contexts, raise concerns about actual or apparent
corruption justifying a contribution limit’s application.
Id. at 166–67.2 Furthermore, with the testators being

2

Independent expenditures likewise might be thought capable of exerting corrupting influence on political officeholders under proper circumstances. In SpeechNow.org v. FEC, however, the
D.C. Circuit concluded that “contributions to groups that make
only independent expenditures also cannot corrupt or create the
appearance of corruption,” 599 F.3d 686, 694 (D.C. Cir. 2010), but
without any apparent discussion or analysis of the myriad possible factual circumstances under which such contribution may be
made. As explained further below, SpeechNow does not support a

86a
dead and their estates having no First Amendment
rights of association or expression, the Court concluded
that the LNC could challenge the contribution limits
only as to its own First Amendment rights, not as to
testators’ rights. Id. at 169–171.3 Given these legal conclusions, the Court then narrowed and certified the following question: “Does imposing annual contribution
limits against the bequest of Raymond Groves Burrington violate the First Amendment rights of the Libertarian National Committee?” Id. at 171.
The FEC moved, pursuant to Federal Rule of Civil
Procedure 59(e), to alter or amend the Court’s order,
arguing, among other things, that while “as-applied
First Amendment challenges seeking categorical exceptions to FECA’s contribution limits are proper under the statute,” a petitioner may not, as a matter of
law, raise “a First Amendment challenge to an individual contribution” without identifying a categorical basis to exempt an entire class of contributions from the
contribution limits’ application. Libertarian Nat’l
Comm., Inc. v. FEC (“LNC II”), 950 F. Supp. 2d 58, 60
(D.D.C. 2013) (Wilkins, J.) (emphasis added). In denying the FEC’s motion, the Court rejected this
conclusion that testamentary contributions categorically cannot
create actual or apparent corruption. See infra Part III.B.2.
3
The Court also determined that the LNC’s proposed question encompassed another issue, namely, whether a separate provision of the FECA prevented the LNC from “solicit[ing] bequests
over the maximum even if they were parsed out annually at the
legal limit,” but the parties’ briefs had mooted the issue. LNC I,
930 F. Supp. 2d at 167–68. That issue is not relevant to the pending motion for certification.

87a
argument, concluding that § 30110 requires a district
court to certify “individualized as-applied challenges to
contribution limits.” Id. at 62.
The D.C. Circuit summarily affirmed LNC I’s reformulation and certification of the LNC’s question, determining that “[t]he district court properly declined to
certify the broad proposed question of law, as framed
by appellant.” Libertarian Nat’l Comm., Inc. v. FEC,
No. 13-5094, 2014 WL 590973, at *1 (D.C. Cir. Feb 7,
2014). The escrow account fully distributed Mr. Burrington’s bequest to the LNC before the D.C. Circuit
could hear the certified question on the merits, however. See Pet.’s Mem. Supp. Pet.’s Mot. Certify Facts &
Questions (“Pet.’s Mem.”) at 2, ECF No. 24-1; Def.’s
Mem. Supp. Mot. Dismiss & Opp’n Pet.’s Mot. Certify
Facts & Questions (“Def.’s Opp’n”) at 9, ECF No. 26.
Consequently, the D.C. Circuit dismissed the certification as moot and vacated the district court’s order. Order, Libertarian Nat’l Comm., Inc. v. FEC (“LNC
Dismissal Order”), No. 13-5088, 2014 U.S. App. LEXIS
25108, at *1 (D.C. Cir. Mar. 26, 2014).
B. Joseph Shaber’s Bequest
Joseph Shaber, a prior donor to the LNC, died in
August 2014. Def.’s Opp’n at 9; Factual Findings
¶¶ 109–10, 117. Upon his death, Mr. Shaber bequeathed, with no restrictions, the LNC an amount determined to be $235,575.20 from a living trust. Id.
¶¶ 115, 117, 121. The LNC accepted an amount from
the bequest equal to the annual contribution limits,

88a
and placed the remainder of the bequest in an escrow
account, to distribute the maximum allowable contribution to the LNC on an annual basis. Id. ¶ 128.
The LNC sued to enjoin the FEC from enforcing
the contribution limits “either generally or in relation
to the Shaber Bequest,” and to obtain declaratory relief, costs, attorney’s fees, and other “just and appropriate” relief. Compl. at 10–11, ECF No. 1. The FEC
moved to dismiss the LNC’s complaint for lack of subject matter jurisdiction, Def.’s Mot. Dismiss for Lack of
Juris., ECF No. 9, which motion was denied, see Order
Denying Def.’s Mot. Dismiss, ECF No. 20; Libertarian
Nat’l Comm., Inc. v. FEC (“LNC III”), 228 F. Supp. 3d
19 (D.D.C. 2017) (Howell, C.J.). The LNC now seeks to
certify the following three questions of law to the D.C.
Circuit:
1.

Does imposing annual contribution limits
against the bequest of Joseph Shaber violate the First Amendment rights of the
Libertarian National Committee?

2.

Do 52 U.S.C. §§ 30116(a)(1)(B) and 30125,
on their face, violate the First Amendment rights of the Libertarian National
Committee by restricting the purposes for
which the Committee may spend its
money?

3.

Does restricting the purposes for which
the Libertarian National Committee may
spend the bequest of Joseph Shaber violate the Committee’s First Amendment
rights?

89a
Pet.’s Mot. Cert. at 1. The FEC opposes the LNC’s motion, and has moved to dismiss for lack of jurisdiction,
which motion parrots in substance the FEC’s opposition to LNC’s certification motion. See Def.’s Mot.4 The
parties’ motions are now ripe for consideration.
II.

LEGAL STANDARD

Under the FECA, “the national committee of any
political party . . . may institute such actions in the appropriate district court of the United States, including
actions for declaratory judgment, as may be appropriate to construe the constitutionality of any provision of
this Act.” 52 U.S.C. § 30110.5 “The district court immediately shall certify all questions of constitutionality of
this Act to the United States court of appeals for the
circuit involved, which shall hear the matter sitting en
banc.” Id. A district court’s role in the certification process is to (1) “[i]dentify constitutional issues in the
complaint, (2) “[t]ake . . . evidence . . . to the extent not
controverted in material and substantial degree,” (3)
“[m]ake findings of fact with reference to those issues,”
and (4) “[c]ertify to [the D.C. Circuit] constitutional
questions arising from steps 1, 2, and 3.” Buckley v.
4

This Memorandum Opinion references both the FEC’s opposition and motion to dismiss with citations exclusively to the
FEC’s motion to dismiss, as these documents are identical in substance.
5
The term “Act,” as used in § 30110, “means the Federal
Election Campaign Act of 1971 as amended,” 52 U.S.C.
§ 30101(19), and covers the specialized purpose contribution limit
regime that came into existence in 2015.

90a
Valeo, 519 F.2d 817, 818 (D.C. Cir. 1975). A district
court does not certify questions under § 30110 that
“are ‘wholly insubstantial,’ ‘obviously frivolous,’ and
‘obviously without merit,’ ” which means that satisfying this standard is “a ‘low bar.’ ” Holmes v. FEC, 823
F.3d 69, 71–72 (D.C. Cir. 2016) (quoting Shapiro v.
McManus, 136 S. Ct. 450, 456 (2015)). In applying this
standard, the fact that a proposed question presents a
legal argument foreclosed by binding precedent does
not, in and of itself, “make the question obviously frivolous, or wholly insubstantial, or obviously without
merit,” at least “so long as the [petitioner] mounts a
non-frivolous argument in favor of overturning that
precedent.” Id. at 74 (internal quotation marks omitted).6
A district court’s discretion under § 30110 is not
limited to certifying or dismissing a question exactly
as formulated by a petitioner, but allows the court to
reformulate a proposed question prior to certification.
See LNC I, 930 F. Supp. 2d at 168 (“[L]ongstanding
precedent supports this Court’s discretion in crafting
and/or amending any questions certified to the Court
6

The FEC cites Johnson v. Comm’n on Presidential Debates,
869 F.3d 976 (D.C. Cir. 2018), for the proposition that “claims
‘foreclosed by prior decisions of the Supreme Court deprive the
lower courts of jurisdiction to hear the claim.” Def.’s Opp’n at 18
(quoting Johnson, 869 F.3d at 984 (alterations omitted)). Johnson
did not, however, address a situation where a petitioner “mounts
a non-frivolous argument in favor of overturning that precedent,”
and so is reconcilable with Holmes’s holding that § 30110 allows
certification of claims that existing precedent forecloses when a
petitioner argues, on some non-frivolous basis, that the precedent
should be overruled. 823 F.3d at 74.

91a
of Appeals.”). Indeed, before Buckley v. Valeo reached
the Supreme Court, the D.C. Circuit initially had remanded the case to the district court to “formulat[e]
[the] constitutional questions to be certified.” LNC I,
930 F. Supp. 2d at 168 (citing Buckley, 387 F.2d at 835
(emphasis omitted)). “Buckley’s history strongly suggests the district court has an active, rather than passive, role in the certification process under [§ 30110].”
Id. at 168–69; see also Khachaturian v. FEC, 980 F.2d
330, 332 (5th Cir. 1992) (“If [the district court] concludes that colorable constitutional issues are raised
from the facts, it should certify those questions to us.”);
Bread Political Action Comm. v. FEC, 635 F.2d 621, 625
n.4 (7th Cir. 1980) (noting with approval that “[t]he district court polished plaintiffs’ draft questions into their
present form”); Cao v. FEC, 688 F. Supp. 2d 498, 542
(E.D. La. 2010) (“Although the Court finds the substance of Questions Three and Six non-frivolous, the
plaintiffs, in their briefing, put a much finer point on
the questions than those originally proposed in the motion to certify. As such, the Court will exercise its discretion in fashioning a question for the Fifth Circuit
that more precisely captures the Constitutional difficulty raised by the plaintiffs’ arguments.”), dismissal
order aff ’d, certified questions answered, In re Cao, 619
F.3d 410, 414 (5th Cir. 2010) (“The district court, abiding by its proper role . . . identified the constitutional
issues in the complaint. . . .”).

92a
III.

DISCUSSION

The LNC contends the challenged contribution
limits violate this national political committee’s First
Amendment rights by restricting how it may receive
and spend the bequest of Mr. Shaber, in particular, and
the purposes for which it may spend contributions generally. See Pet.’s Mot. Cert. at 1. As noted, the LNC
challenges as unconstitutional, in the first question,
the contribution limits as applied to Mr. Shaber’s bequest; in the second question, the FECA’s specialized
purpose regime, which permits contributions to a national political party committee over the maximum annual general purpose contribution limit, but only for
one of three specific government-approved purposes;
and, in the third question, the FECA’s specialized purpose regime as applied to Mr. Shaber’s bequest. Id. A
brief overview of the governing statutory and regulatory framework is provided before turning to an analysis of each proposed question’s fitness for certification
under § 30110.
A. Legal and Regulatory Framework
The FECA provides that “no person shall make
contributions . . . to the political committees established and maintained by a national political party,
which are not the authorized political committees of
any candidate, in any calendar year which, in the aggregate, exceed $25,000.” 52 U.S.C. § 30116(a)(1)(B).
This amount is indexed for inflation, id. § 30116(c), and
now stands, under current regulations, at $33,900, see

93a
Price Index Adjustments for Contribution and Expenditure Limitations and Lobbyist Bundling Disclosure Threshold, 82 Fed. Reg. 10,904, 10,905–06 (Feb.
16, 2017). The FEC has long construed the term “person” in § 30116(a)(1) to encompass a testamentary estate, a construction not challenged here. See, e.g., FEC
Advisory Op. 2015-05 (Shaber), 2015 WL 4978865, at
*2 (Aug. 11, 2015) (citing advisory opinions dating back
to 1983); see also Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 843–46 (1984) (holding that
courts shall defer to agencies’ reasonable interpretations of ambiguities in statutes they administer); LNC
I, 930 F. Supp. 2d at 165 (“The FEC’s interpretation of
the statute to include a testamentary bequest appears
reasonable, is not seriously challenged by the LNC in
its briefs, and is entitled to deference under Chevron.”).
Notwithstanding the general limit on contributions to national political party committees, the FECA,
as amended, provides that “contributions made to” any
“separate, segregated account of a national committee
of a political party” established for one of three specialized purposes may “exceed 300 percent of the amount
otherwise applicable” in any calendar year. 52 U.S.C.
§§ 30116(a)(1), 30116(a)(9)(A)–(C). These specialized
purposes are (1) “to defray expenses incurred with respect to a presidential nominating convention (including the payment of deposits) or to repay loans the
proceeds of which were used to defray such expenses,
or otherwise to restore funds used to defray such expenses, except that the aggregate amount of expenditures the national committee of a political party may

94a
make from such account may not exceed $20,000,000
with respect to any single convention;” (2) “to defray
expenses incurred with respect to the construction,
purchase, renovation, operation, and furnishing of one
or more headquarters buildings of the party or to repay
loans the proceeds of which were used to defray such
expenses, or otherwise to restore funds used to defray
such expenses;” and (3) “to defray expenses incurred
with respect to the preparation for and the conduct of
election recounts and contests and other legal proceedings.” Id. § 30116(a)(9)(A)–(C). In other words, while a
person may contribute only $33,900 per year to a national political party’s committee for unrestricted use,
see 82 Fed. Reg. at 10,905–06, an individual may contribute up to $101,700 to each account established by
a national political party committee to pay expenses
incurred with respect to (1) a presidential nominating
convention, (2) a party headquarters building, or (3) an
election recount, see 52 U.S.C. § 30116(a)(9)(A)–(C). Altogether, then, an individual may contribute $339,000
per year to accounts established and maintained by
national political parties—$101,700 to each of three
specialized purpose accounts, plus $33,900 for general
purposes. Id. § 30116(a)(1)(B).
Finally, the FECA provides that “[a] national committee of a political party . . . may not solicit, receive,
or direct to another person a contribution, donation, or
transfer of funds or any other thing of value, or spend
any funds, that are not subject to the limitations, prohibitions, and reporting requirements of this Act.” Id.
§ 30125(a)(1) (emphasis added).

95a
B. The LNC’s Argument That The Contribution Limits Are Unconstitutional As
Applied To Mr. Shaber’s Bequest Warrants Certification
The LNC’s first question—“Does imposing annual
contribution limits against the bequest of Joseph
Shaber violate the First Amendment rights of the Libertarian National Committee?”—is identical in substance to the question that LNC I certified, merely
substituting the name “Joseph Shaber” for “Raymond
Burrington.” Pet.’s Mot. Cert. at 1; LNC I, 930 F. Supp.
2d at 171. Collateral estoppel thus would seem to require the instant question’s certification. The FEC argues, however, that LNC I does not compel certification
here, because LNC I did not have the benefit of adequate briefing on whether the contribution limits were
unconstitutional as applied to Mr. Burrington’s particular bequest, as the FEC had expected to litigate only
whether the contribution limits constitutionally may
apply to bequests in general. See Def.’s Opp’n at 30.
The FEC acknowledges that the opportunity to address this issue was presented through a postcertification motion to alter or amend, which LNC II
denied. See id. at 30–31; see also 950 F. Supp. 2d 58.
Nonetheless, the FEC posits that LNC II does not compel certification either, since this issue was resolved
under the demanding clear error standard of review
rather than de novo. See Def.’s Opp’n at 31; 950
F. Supp. 2d at 60 (reciting applicable standard of review for motions under Fed. R. Civ. P. 59(e), which
“need not be granted unless the district court finds

96a
that there is an intervening change of controlling law,
the availability of new evidence, or the need to correct
a clear error or prevent manifest injustice.” (quoting
Messina v. Krakower, 439 F.3d 755, 758 (D.C. Cir.
2006))); see Def.’s Opp’n at 31. Even indulging the
FEC’s contention that the collateral estoppel doctrine
does not compel certification of the first question here
after LNC I and II, as discussed next, the Court
reaches the same result as LNC I and II that certification of the first question is warranted.
As noted earlier, supra, a constitutional challenge
to the FECA under § 30110 warrants certification unless the challenge is “ ‘wholly insubstantial,’ ‘obviously
frivolous,’ [or] ‘obviously without merit,’ ” Holmes, 823
F.3d at 71 (quoting Shapiro, 136 S. Ct. at 456). The
FEC makes a convoluted and barely comprehensible
argument that the instant question flunks this test because LNC I itself forecloses the LNC’s claim. See
Def.’s Opp’n at 25–30.7 The gist of the FEC’s argument

7

The FEC in essence asks the Court simultaneously to conclude that LNC I (1) is binding insofar as LNC I held that the
contribution limits are constitutional as applied to bequests in
general, and (2) must be ignored insofar as LNC I recognized that
the contribution limits may be unconstitutional as to particular
bequests that raise no corruption concerns—all this, despite that
the instant question, which is limited to Mr. Shaber’s bequest, is
more akin to the question LNC I did in fact certify than to the
question LNC I declined to certify. The FEC seeks to have it both
ways, citing those aspects of LNC I that are helpful to the FEC’s
position while rejecting those aspects that are inconvenient. Such
efforts to treat precedent like a buffet, picking out the tasty bits
and ignoring the rest, are rightly viewed with healthy skepticism.

97a
for why LNC I bars the first question’s certification
seems reducible to three points. The FEC argues that
(1) LNC I held “that it is [ ]constitutional to apply campaign contribution limits to testamentary bequests as
a general matter.” Id. at 24.8 The FEC further argues
that (2) the contribution limits may apply to Mr. Shaber’s bequest to combat the mere appearance, rather
than only the reality, of corruption. See id. at 25, 28.
Finally, the FEC argues that (3) Mr. Shaber’s bequest
evinces sufficiently weighty concerns as to both the reality and appearance of corruption to justify the contribution limits’ application. See id. at 31–32. For the

8

One response to this part of the FEC’s argument simply
would be to assert that LNC I was wrongly decided and should be
disregarded. A district court, after all, may not “decline to certify
a constitutional question simply because the LNC is arguing
against . . . precedent so long as the LNC mounts a non-frivolous
argument in favor of overturning that precedent.” Holmes, 823
F.3d at 74. The LNC, however, concedes that collateral estoppel
forecloses this argument. See Pet.’s Mem. at 11 (“The LNC unfortunately lost that battle in the previous litigation.”); Pet.’s Opp’n
Def.’s Mot. Dismiss & Reply Supp. Mot. Certify Facts & Questions
(“Pet.’s Reply”) at 14, ECF No. 27 (“[T]he LNC acknowledges the
reality of what has already been won and lost.”). The LNC also
could go further and say that Buckley, which upheld contribution
limits’ facial constitutionality, itself should be overturned. The
LNC, however, declines to advance this argument. See Pet.’s
Mem. at 17 (“[T]he LNC merely seeks to apply the current state
of First Amendment precedent.”). Thus, the LNC must argue that
LNC I does not control.

98a
following reasons, the FEC’s argument fails at every
turn.9
9

The FEC does not dispute that the instant question is distinguishable from the question that LNC I declined to certify insofar
as the LNC challenges the contribution limits only as to the LNC’s
own First Amendment rights, rather than as to Mr. Shaber’s rights
as well. The FEC argues, however, that “[t]he LNC’s framing of its
legal arguments around a supposed First Amendment right to receive campaign contributions cannot save its first proposed certified question” because “any First Amendment interest the LNC has
in receiving contributions is already reflected in the constitutional
test the Supreme Court has applied to uphold FECA’s contribution
limits,” which “already accounts for the rights of individuals and
entities on the receiving end of contributions by asking if contribution limits are so low that they prevent recipients from amassing
the resources necessary for effective advocacy.” Def.’s Opp’n at 32
(citing Buckley, 424 U.S. at 21 (internal quotation marks omitted)).
As an initial matter, the instant question requires no “sav[ing],”
id., because, as explained further below, the FEC has failed to show
that the instant question does not merit certification. More fundamentally, the FEC’s argument completely misses the point of the
LNC’s claim, which is not that applying the contribution limits to
Mr. Shaber’s bequest would burden the LNC’s ability to “amass[]
the resources necessary for effective advocacy,” Buckley, 424 U.S.
at 21; see Pet.’s Mem. at 17 (“The LNC does not claim in this litigation that the current contribution limit . . . is too low.”), but rather,
that Mr. Shaber’s bequest raises no corruption concerns necessary
to justify the contribution limits’ application in the first place. Even
a modest burden on one’s ability to raise funds may be undue if
such burden serves no corruption concern whatsoever. See SpeechNow, 595 F.3d at 695 (concluding, in “weighing the First Amendment interests implicated by contributions . . . against the
government’s interest in limiting such contributions,” that “something outweighs nothing every time.” (quoting Nat’l Ass’n of Retired
Fed. Emps. v. Horner, 879 F.2d 873, 879 (D.C. Cir. 1989) (alterations and internal quotation marks omitted))). That existing doctrine already prohibits contribution limits set too low to enable
recipients to amass resources necessary for effective electioneering
is simply irrelevant to the issue presented by the LNC.

99a
1. LNC I Did Not Hold That Contribution
Limits Constitutionally May Apply To
Bequests As A General Matter.
Based on a fundamental misreading of LNC I, the
FEC argues that the first question does not merit certification because LNC I held that the contribution
limits generally may apply to bequests and the LNC
has failed to distinguish Mr. Shaber’s bequest from any
other bequest. See id. at 24–30. The FEC characterizes
LNC I as having concluded that “it is [ ]constitutional
to apply contribution limits to bequeathed contributions.” Id. at 25; see also id. at 26 (“Of course, the LNC
did lose its claim that the party contribution limit may
not be constitutionally applied to testamentary bequests in general.”); id. at 28 (“[T]he LNC has lost the
battle over whether it is unconstitutional to apply any
campaign contribution to testamentary bequests.” (alterations and internal quotation marks omitted)). LNC
I did not hold, as the FEC wrongly asserts, “that it is
[ ]constitutional to apply campaign contribution limits
to testamentary bequests as a general matter.” Id. at
24. LNC I’s actual holding is much more limited:
LNC I merely held “that it is possible for a bequest to
raise valid anti-corruption concerns.” 930 F. Supp. 2d
at 166. This is a far cry from holding that the contribution limits constitutionally may apply to most bequests
or to bequests as a general matter, that a bequest must
somehow be unusual for an as-applied challenge to
lie, or that a petitioner challenging a contribution
limit’s application to a particular bequest must identify a “categorical basis to differentiate” a particular

100a
contribution “from any other potential bequeathed
contribution.” Def.’s Opp’n at 26, 30. Indeed, LNC I’s
recognition of the mere “possib[ility]” that a bequest
may “raise valid anti-corruption concerns,” 930
F. Supp. 2d at 166, suggests if anything that most bequests do not raise valid corruption concerns, and that
bequests only rarely raise the corruption concerns necessary to justify the contribution limits’ application. At
the very least, LNC I did not hold that the contribution
limits presumptively are constitutional as to individual bequests. The FEC’s argument to the contrary fails
to understand what LNC I actually said.
2. The LNC Makes a Non-Frivolous Argument that Only Evidence of Actual
Corruption, Rather Than the Appearance of Corruption, Can Justify the
Contribution Limits’ Application to
Mr. Shaber’s Bequest.
The FEC argues that no evidence of actual corruption is needed to justify the contribution limits’ application to Mr. Shaber’s bequest because contribution
limits are designed to combat the appearance as well
as the reality of corruption. See Def.’s Opp’n at 25–28.10
10

The parties spill much ink arguing over which side bears
the burden “to show evidence of corruption,” or a lack thereof, as
to a particular contribution to justify the contribution limits’ application. Def.’s Opp’n at 27. The FEC argues that the LNC must
offer a “categorical” basis to “differentiate the Shaber bequest. . . .
from any other potential beque[st],” to which the FEC presumes
the contribution limits constitutionally may apply, id. at 26–27,
30, but this argument is flawed in at least two ways. First, as

101a

explained above, LNC I did not hold that the contribution limits
are constitutional as to an ordinary bequest, only that the contribution limits can apply to some bequests, at least in theory. Second, the government bears the burden to show a contribution
limit’s constitutionality. See Buckley, 424 U.S. at 25 (holding that
contribution limits “may be sustained if the State demonstrates a
sufficiently important interest and employs means closely drawn
to avoid unnecessary abridgment of associational freedoms” (emphasis added)). Chief Justice Roberts’s opinion, joined by Justice
Alito, in FEC v. Wisconsin Right to Life, Inc., 551 U.S. 449 (2007),
which held that the government bore the burden to show that a
facially-valid expenditure limit could apply to a particular expenditure, is instructive. An anti-abortion group raised an asapplied challenge to a statute criminalizing “broadcast, shortly
before an election, [of ] any communication that names a federal
candidate for elected office and is targeted to the electorate.” Id.
at 456. The government argued that because the statute in question had already been held “facially valid,” the anti-abortion
group “should be required to demonstrate that [the statute] is unconstitutional as applied to the ads” in question. Id. at 464. Chief
Justice Roberts rejected this argument, reasoning that whether
the statute (1) was constitutional as a facial matter and (2) “may
constitutionally be applied to these specific ads” were entirely
“separate question[s].” Id. Chief Justice Roberts determined that
“[b]ecause [the statute] burdens political speech,. . . . the Government must prove that applying [the statute] to [the anti-abortion
group’s] ads furthers a compelling interest and is narrowly tailored to achieve that interest.” Id. (emphasis in original). The
same reasoning applies here. The FEC seeks to apply the contribution limits to Mr. Shaber’s specific bequest, and so must bear
the burden of showing the contribution limits’ constitutionality as
to that bequest. That Wisconsin Right to Life applied strict scrutiny, rather than “closely drawn” scrutiny, see Buckley, 424 U.S.
at 25, is of no moment, as the government bears the burden to
show a law’s constitutionality under either standard. See id.;
Wisc. Right to Life, 551 U.S. at 464. To the extent the FEC suggests that LNC I requires a different result, Def.’s Opp’n at 24–
30, the FEC, as explained above, fundamentally misreads LNC I.

102a
The FEC is correct that existing doctrine recognizes
the prevention of apparent corruption, not just of actual corruption, as an interest that justifies contribution limits. See Citizens United v. FEC, 558 U.S. 310,
357 (2010) (“[R]estrictions on direct contributions are
preventative, because few if any contributions to candidates will involve quid pro quo arrangements. . . .
The Buckley Court, nevertheless, sustained limits on
direct contributions in order to ensure against the reality or appearance of corruption.”); Buckley, 424 U.S.
at 29–30 (1976) (observing that “most large contributors do not seek improper influence over a candidate’s
position or an officeholder’s action,” but that this “does
not undercut the validity of the $1,000 contribution
limitation. . . . Congress was justified in concluding
that the interest in safeguarding against the appearance of impropriety requires that the opportunity for
abuse inherent in the process of raising large monetary contributions be eliminated.”).
The LNC responds that even if contribution limits
may as a general matter “bar many contributions that
are not, in fact, tainted by corruption,. . . . the dead are
different, and thus raise different indicia of potential
corruption and a different level of concern from that
raised by the living.” Pet.’s Opp’n Def.’s Mot. Dismiss
& Reply Supp. Mot. Certify Facts & Questions (“Pet.’s
Reply”) at 16, ECF No. 27. This is so, the LNC asserts,
because “[w]ith a bequest, the corruption inquiry is
wholly retrospective, and barring supernatural intervention, the potential for quid pro quo activity is rather
more limited, as is its enforcement.” Id. at 16–17. The

103a
LNC thus seeks to recognize a limited exception, applicable only to bequests, to the general rule that the government’s interest in preventing the appearance of
corruption justifies contribution limits.
Neither party identifies any authority either recognizing or rejecting such an exception. Thus, whether
preventing the appearance, rather than the reality,
of corruption may justify a contribution limit’s application to a bequest appears to be a question of first impression.11 The absence of any authority foreclosing the
11

In SpeechNow.org, the D.C. Circuit concluded that “contributions to groups that make only independent expenditures” as a
matter of law “cannot corrupt or create the appearance of corruption,” regardless of the factual circumstances under which such
contributions are made. 599 F.3d at 694 (emphasis added). The
LNC does not argue that SpeechNow supports a conclusion that
testamentary contributions, like contributions to independent expenditure organizations, categorically cannot corrupt or create
the appearance of corruption, regardless of the factual circumstances under which such contributions are made, nor would such
an argument be sound. SpeechNow rested on Citizens United,
which the D.C. Circuit read to have held “as a matter of law that
independent expenditures do not corrupt or create the appearance of quid pro quo corruption.” 599 F.3d at 694. Citizens United,
in turn, “conclude[d]” as a matter of law “that independent expenditures, including those made by corporations, do not give rise
to corruption or the appearance of corruption,” reasoning that
“[t]he absence of prearrangement and coordination of an expenditure with the candidate or his agent not only undermines the
value of the expenditure to the candidate, but also alleviates the
danger that expenditures will be given as a quid pro quo for improper commitments from the candidate.” 558 U.S. at 345, 357.
Citizens United’s legal conclusion, however, must be understood in the context of the judicial proceedings from which it
emerged. In Citizens United, the government presented “only
scant evidence that independent expenditures even ingratiate,”

104a
LNC’s argument persuades the Court that such argument is not frivolous.
3. The LNC Makes a Non-Frivolous Argument that Mr. Shaber’s Bequest
Raises No Corruption Concerns.
Finally, the FEC argues that even if the government bears the burden to show that the contribution
limits are constitutional as applied to Mr. Shaber’s bequest, and regardless of whether evidence of only
much less give rise to quid pro quo corruption or the appearance
thereof. Id. at 360. As Justice Stevens observed, however, “Congress and outside experts” had in fact “generated significant evidence” that independent expenditures “give rise to quid pro quo
corruption or the appearance of corruption.” Id. at 457 (Stevens,
J., dissenting). The “only reason” the Supreme Court did “not
have any of the relevant materials before” it was “that the Government had no reason to develop a record at trial for a facial
challenge the plaintiff had abandoned” in the district court. Id.
On appeal, however, the Supreme Court sua sponte directed the
parties to litigate the independent expenditure limit’s constitutionality, without providing the government any opportunity to
develop a factual record necessary to support the position that
corporate independent expenditures can give rise to quid pro quo
corruption or the appearance thereof. Id. Citizens United did not
reject the relevance or value of factual evidence as to corporate
independent expenditures’ corrupting effect; Citizens United
simply had little such evidence available to it. Here, in contrast,
LNC I’s recognition that testamentary contributions can, under
certain conditions, create actual or apparent corruption rested on
extensive record evidence of the sort unavailable in Citizens
United. See LNC I, 930 F. Supp. 2d at 166–67. As such, SpeechNow and Citizens United do not support a conclusion that testamentary contributions cannot corrupt or create the appearance of
corruption, at least where evidence that testamentary contributions have an actual or apparent corrupting effect exists.

105a
actual or also apparent corruption may justify the contribution limits’ application, Mr. Shaber’s bequest
evinces sufficient “factual markers of the potential for
apparent or actual corruption” to justify applying the
contribution limits. Def.’s Opp’n at 31.12 The LNC, however, raises non-frivolous arguments to the contrary.
LNC I identified two circumstances in which “the
anti-corruption rationale for limiting contributions
from bequests is” beyond “theoretical.” 930 F. Supp. 2d
at 166 (alterations omitted). First, LNC I observed that
“making one’s bequest known” to a recipient “before
death could be treated just as a contribution is,” such
that “a political committee could feel pressure to continue to ensure that a (potential) donor is happy with
the committee’s actions lest they revoke the bequest.”
Id. at 166–67. Second, LNC I observed that “[a] bequest
may also help friends or family of the deceased have
access to political officeholders and candidates,” such
that “political committees could offer access to the donor’s heirs or representatives upon the production of a
generous will.” Id. Bequests that do not arise under
these circumstances, LNC I suggested, thus are unlikely to “raise the anti-corruption concerns that motivated the Buckley and McConnell [v. FEC, 540 U.S. 93
(2003)] Courts to dismiss a facial attack on contribution limits.” Id. at 166.
12

These “factual markers” include that Mr. Shaber “gave 47
times and more than $3,000 to the LNC, was eligible to become a
life member of the party, and received regular solicitations and
invitations to events from the LNC, including a VIP reception.”
Def.’s Opp’n at 31 (internal quotation marks omitted).

106a
The LNC asserts that both of the above factors
weigh toward concluding that Mr. Shaber’s bequest
raises no corruption concerns. First, according to the
LNC, Mr. Shaber did not make his bequest known to
the LNC prior to death. Pet.’s Reply at 16 (citing Pet.’s
Proposed Facts ¶ 70). Second, neither Mr. Shaber nor
any of his associates and loved ones had any known
relationship to the LNC or its board members, officers,
or candidates apart from Mr. Shaber’s donations themselves. Id. (citing Pet.’s Proposed Facts ¶ 84). Moreover,
Mr. Shaber gave little to the LNC during his life—only
$3,315 over the course of 24 years, an average of
$138.13 per year—and the LNC has given nothing tangible of value to Mr. Shaber or his associates and loved
ones. Id. (citing Pet.’s Proposed Facts ¶ 85; see Mot.
Cert., Ex. E, Joseph Shaber Gift History, ECF No. 24–
7). Thus, the LNC raises a non-frivolous argument that
the government cannot meet the burden to show that
Mr. Shaber’s bequest raises any concerns as to the appearance or reality of corruption to justify the contribution limits’ application.
LNC I supports the LNC’s argument.13 LNC I
determined that the LNC had “ma[de] a persuasive
argument that the Burrington bequest does not
implicate any valid anti-corruption concerns” given
that “the only known interaction between Burrington
and the LNC occurred in 1998 when the former
13

While, as discussed above, the Court presumes that LNC I
has no collateral estoppel effect insofar as it certified a challenge
to the contribution limits as to Mr. Burrington’s request, LNC I
remains at least persuasive authority in this regard.

107a
donated $25.00 to the Libertarian Party” and that “the
LNC had no idea that Burrington planned to leave any
money to the organization in his will.” 930 F. Supp. 2d
at 170. While the total $3,315 that Mr. Shaber contributed to the LNC in parts on 46 separate occasions during his life, see Joseph Shaber Gift History, is nearly
133 times the $25 that Mr. Burrington contributed to
the LNC during his life, see LNC I, 930 F. Supp. 2d at
170, neither the amount nor frequency of Mr. Shaber’s
contributions are so great as to make frivolous the
claim that Mr. Shaber’s contributions do not raise corruption concerns. The amount of $3,315 donated over
24 years is a drop in the bucket relative to current
law’s annual limit of $33,900 for individuals to contribute for any purpose to national political party committees, and an even smaller drop relative to the limit of
$339,000 that individuals may contribute for either
general or specialized purposes. See 52 U.S.C.
§ 30116(a)(1)(B), (a)(9); 82 Fed. Reg. at 10,905–06.
*

*

*

For the reasons explained above, (1) LNC I did not
hold that the contribution limits constitutionally may
apply to bequests as a general matter, and the LNC
has raised non-frivolous arguments that (2) the FEC’s
only interest in applying the contribution limits to Mr.
Shaber’s bequest is an interest in combatting the reality, as opposed to the mere appearance, of corruption,
and (3) Mr. Shaber’s bequest does not raise corruption
concerns so as to justify the contribution limits’ application. As such, the LNC’s first question—“Does imposing annual contribution limits against the bequest of

108a
Joseph Shaber violate the First Amendment rights of
the Libertarian National Committee?,” Pet.’s Mot.
Cert. at 1—warrants certification under § 30110.
C. The LNC’s Arguments that the FECA’s
Specialized Purpose Regime Impermissibly Limits Speech On the Basis
of Content is Not Frivolous
The LNC’s second question—“Do 52 U.S.C.
§§ 30116(a)(1)(B) and 30125, on their face, violate the
First Amendment rights of the Libertarian National
Committee by restricting the purposes for which the
Committee may spend its money?,” id.—asserts that
the FECA’s specialized purpose regime “directly
limit[s] how the LNC may express itself, in preparation
for and during political campaigns, based on the subject matter, function, or purpose of the LNC’s speech,”
in violation of the First Amendment. Pet.’s Mem. at 16.
The LNC argues that once a donor has contributed to
the LNC $33,900, the maximum annual legallyallowed general-purpose contribution, 52 U.S.C.
§ 20116(a)(1)(B); 82 Fed. Reg. at 10,905–06, any further contributions to the LNC by that donor, and the
LNC’s use of such contributions, are lawful only if
made or used “towards the purposes and in the
amounts ordained by Congress.” Pet.’s Mem. at 16.
These government-approved purposes are presidential
nominating conventions, party headquarters buildings, and recount expenses, see 52 U.S.C. § 30116(a)(9),
“all [of which] convey or enable expression in some way
or to some degree.” Pet.’s Mem. at 16. Thus, the LNC

109a
argues, “the amount of speech a political party may exercise turns on the content of that speech,” creating an
impermissible content-based restriction on speech.
Id.14
“[A]bove all else, the First Amendment means that
government has no power to restrict expression because of its message, its ideas, its subject matter, or its
content.” Police Dep’t of City of Chi. v. Mosley, 408 U.S.
92, 95 (1972); accord Act Now to Stop War & End Racism Coal. v. District of Columbia, 846 F.3d 391, 403
(D.C. Cir. 2017). “[T]he First Amendment ‘has its fullest and most urgent application’ to speech uttered during a campaign for political office,” Ariz. Free Enter.
Club’s Freedom Club PAC v. Bennett, 564 U.S. 721, 734
(2011) (quoting Eu v. S.F. Cty. Democratic Cent. Comm.,
489 U.S. 214, 223 (1989), as “ ‘[d]iscussion of public issues and debate on the qualifications of candidates are
integral to the operation’ of our system of government,”
id. (quoting Buckley, 424 U.S. at 14).
“Content-based laws—those that target speech
based on its communicative content—are presumptively unconstitutional and may be justified only if the
14

The LNC asserts that the contribution limits “are especially problematic, because they largely, if not only, disable minor
parties,” in that larger parties tend to need more money than
smaller parties to fund presidential nominating conventions,
party headquarter buildings, and recount proceedings. Pet.’s
Mem. at 18. The LNC emphasizes that “[t]his is not to say that
the LNC’ claims sound in equal protection, or are based on some
yardstick of competitive ability,” but merely to show that the contribution limits are “irrational” and cannot “meet the rigors of
strict scrutiny.” Id.

110a
government proves that they are narrowly tailored to
serve compelling state interests.” Reed v. Town of Gilbert, Ariz., 135 S. Ct. 2218, 2226 (2015). “Government
regulation of speech is content based if a law applies to
particular speech because of the topic discussed or the
idea or message expressed,” meaning that a court must
“consider whether a regulation of speech ‘on its face’
draws distinctions based on the message a speaker
conveys.” Id. at 2227 (quoting Sorrell v. IMS Health,
Inc., 131 S. Ct. 2653, 2663–2664 (2011)). “Some facial
distinctions based on a message are obvious, defining
regulated speech by particular subject matter, and others are more subtle, defining regulated speech by its
function or purpose.” Id. However, “[b]oth are distinctions drawn based on the message a speaker conveys,
and, therefore, are subject to strict scrutiny.” Id.
1. The Specialized Purpose Regime Should
Be Reviewed as a Contribution Limit
Rather Than as an Expenditure Limit.
As a threshold matter, the parties dispute whether
the specialized purpose regime should be reviewed as
a contribution limit or expenditure limit. Compare
Pet.’s Mem. at 17 (“[T]he [ ]omnibus expressive purpose
restrictions are expenditure limits—content-based restrictions on speech.”), with Def.’s Opp’n at 15 (“[T]here
is no credible argument that the segregated account
limits at issue here restrict expenditures.”). The distinction between contribution limits and expenditure
limits is legally significant, given the more demanding
constitutional test to which expenditure limits are

111a
subject. See, e.g., Randall v. Sorrell, 548 U.S. 230, 242
(recognizing that expenditure limits generally are
“constitutionally invalid”). The specialized purpose regime is neither a pure contribution limit nor a pure
expenditure limit, but contains elements of both, establishing higher limits on contributions directed toward one of three government-approved purposes than
on contributions directed toward other purposes, see 52
U.S.C. § 30116(a)(1)(B), (9), and directing that national
political parties “may not . . . spend any funds, that are
not subject to the limits [and] prohibitions . . . of this
Act,” id. § 30125(a)(1).
Binding precedent forecloses the LNC’s argument
that the specialized purpose regime should be reviewed as an expenditure limit rather than as a contribution limit. McConnell held that provisions of the
Bipartisan Campaign Reform Act (“BCRA”) prohibiting “national parties from receiving or spending [soft]
money” and state parties “from spending [soft] money
on federal election activities,” in addition to prohibiting
persons from making such contributions, were akin to
contribution limits rather than expenditure limits because “neither provision in any way limits the total
amount of money parties can spend,” but “simply limit
the source and individual amount of donations.” 540
U.S. at 139. “That they do so by prohibiting the spending of soft money,” McConnell reasoned, “does not render them expenditure limitations.” Id. The same
reasoning applies here.

112a
The specialized purpose regime’s characterization
as a contribution limit, however, does not necessarily
mean that mere “closely drawn,” rather than strict,
scrutiny applies to the LNC’s challenge here. Typically,
a challenge to a contribution limit asserts that the
limit prevents a person from contributing as much
money as the person would like to give, see, e.g., Buckley, 424 U.S. at 20, but Congress’s discretion to set
contribution limits’ specific dollar amounts is wellestablished, see, e.g., Randall, 548 U.S. at 248 (“[T]he
legislature is better equipped to make such empirical
judgments,. . . . [t]hus ordinarily we have deferred to
the legislature’s determination of such matters.” (quoting McConnell, 540 U.S. at 137)), FEC v. Colo. Republican Fed. Campaign Comm., 533 U.S. 431, 433 (2001)
(“[T]he limit’s dollar amount need not be fine tuned.”);
Buckley, 424 U.S. at 30 (“Congress’ failure to engage in
such fine tuning does not invalidate the legislation.”).
The LNC’s argument here is different.
The LNC asserts not “that the current contribution limit . . . to political parties is too low,” Pet.’s
Mem. at 17; see also id. (“This is not a challenge to any
contribution limit.”), but rather, that the specialized
purpose regime unconstitutionally conditions the lawfulness of a contribution on the content of the speech
for which the contribution is used, id. at 18 (“When a
political party can have money, and use it for some expression, but not other expression, that is an expression-restriction, not merely a contribution limit.”). In
this way, the LNC’s second question raises an issue
less akin to a traditional challenge to a contribution

113a
limit than to a challenge to a statute alleged to restrict
speech on the basis of content. See, e.g., Reed, 135 S. Ct.
at 2226. As such, the appropriate framework for review
is that governing content-based restrictions on speech,
requiring narrow tailoring to serve a compelling state
interest, see id., rather than the contribution limit
framework.
2. Whether the Specialized Purpose Regime Unconstitutionally Restricts Speech
Based On Content.
The FEC makes several arguments as to why the
specialized purpose regime does not impermissibly restrict speech on the basis of content. First, the FEC denies that the specialized purpose regime imposes a
content-imposed restriction at all. See Def.’s Reply
Mem. Supp. Mot. Dismiss (“Def.’s Reply”) at 7, ECF No.
29. Second, even if the specialized purpose regime
amounts to a content-based restriction, the FEC contends this regime is sufficiently tailored to achieve a
sufficiently important governmental interest. See
Def.’s Opp’n at 18-22. Third, the FEC argues that existing authority establishes that Congress may allow
contributions to particular recipients and those recipients’ expenditure of such contributions for certain purposes but not for others. See id. at 20. Each of these
arguments are addressed in turn.

114a
i.

Whether The Specialized Purpose Regime Imposes Content-Based Restrictions

The FEC argues that the specialized purpose regime does not constitute a content-based restriction on
speech because “the ability of a national political party
committee to use funds contributed to the segregated
accounts depends not on the content of any message
but rather the category of expenses at issue.” Def.’s Reply at 7. This, however, is not so. As the LNC correctly
observes, the LNC cannot lawfully spend the entirety
of a contribution in an amount above $33,900 “distributing pamphlets about the party’s ideology or supporting a non-presidential candidate,” but must spend at
least some portion of that contribution, if at all, “broadcasting its presidential nominating convention, hanging a sign on its building, or litigating an election
contest.” Pet.’s Mem. at 16. Thus, the lawfulness of a
particular expenditure by the LNC may indeed turn on
the message that the expenditure conveys. The FEC
argues that the LNC can spend specialized purpose account funds for any purpose so long as the LNC does
so at the LNC’s presidential nominating convention,
see Def.’s Reply at 7, but to condition an expenditure’s
lawfulness on whether the expenditure is made in connection with a convention itself arguably constitutes a
content-based restriction on speech. See Reed, 135
S. Ct. at 2227 (identifying laws that “defin[e] regulated
speech by its function or purpose” as imposing contentbased restrictions. At the very least, the LNC’s argument to this effect is not frivolous.

115a
ii. Whether the Specialized Purpose Regime Is Sufficiently Tailored To Serve
A Sufficiently Important Government
Interest
The FEC next argues that any disparate treatment of general purpose and specialized purpose contributions passes constitutional muster given that (1)
Congress, having ended public funding of presidential
nominating conventions in 2014, sought “to ensure
that national parties would maintain access to sufficient funds to continue their [convention] operations
after one source of funds was no longer available,”
(2) party headquarters and recount expenses “tend
to be less directly connected to most candidates or
campaigns for federal office,” and thus to raise lesser
corruption concerns than contributions toward expenses more directly connected to individual candidates and campaigns, and (3) “political parties and
their candidates tend to place more value on unrestricted contributions than those that may only be
used for certain expenses,” meaning that general purpose contributions “create a higher risk of corruption
or its appearance than” specialized purpose contributions, requiring more restrictive limits to prevent corruption or the appearance thereof. See Def.’s Opp’n at
18–20, 22.
The LNC counters, somewhat ironically, that specialized purpose contributions raise corruption concerns at least equal to those that general purpose
contributions raise, and thus, that setting higher limits on specialized purpose contributions undermines

116a
the anti-corruption rationale used to justify the general purpose contribution limits. See Pet.’s Mem. at 5.
“[D]onations received for a segregated purpose potentially free up other money that would have been spent
out of a party’s general account, to be used for unrestricted purposes,” the LNC observes, given that
“money is fungible.” Id. Thus, the LNC posits, “[s]o long
as a party would have spent a sufficient amount on a
segregated purpose, a segregated purpose donation is
effectively an unrestricted donation.” Id.
Whether the specialized purpose regime is sufficiently tailored, under the circumstances, to achieve a
sufficiently important interest under the applicable
standard of scrutiny is a question for the D.C. Circuit
to resolve in the first instance. At this stage, the LNC’s
arguments are not so clearly frivolous, and the merits
of the FEC’s argument so overwhelmingly obvious, as
to make certification unwarranted.
iii. Whether Existing Authority Establishes that Congress May Allow Contributions to Particular Recipients, and
Those Recipients’ Expenditure of Such
Contributions, For Certain Purposes
But Not For Others
The FEC further argues that binding precedent
establishes “that differing contribution limits may apply to distinct categories of expenses.” Def.’s Opp’n at
20. The FEC cites McConnell, which upheld a BCRA
provision, currently codified at 52 U.S.C. § 30125(b)(1),

117a
that prohibits state, district, and local political party
committees from using “soft-money . . . funds for activities that affect federal elections,” while allowing soft
money “[d]onations made solely for the purpose of influencing state or local elections,” as support. 540 U.S.
at 122, 133–34, 173.15 The FEC thus construes
McConnell to hold that Congress generally may allow
contributions to be made for certain purposes but not
for others. See Def.’s Opp’n at 20–21.
This reading of McConnell is too broad. There, the
plaintiffs challenged § 30125(b)(1) on the ground that
the statute “will prevent them from engaging in effective advocacy.” 540 U.S. at 173. The plaintiffs did not
raise the argument that § 30125(b)(1) unconstitutionally conditioned a contribution’s lawfulness on the
15

Section 30125(b)(1) provides that “an amount that is expended or disbursed for Federal election activity by a State, district, or local committee of a political party . . . shall be made from
funds subject to the limitations, prohibitions, and reporting requirements of this Act.” 52 U.S.C. § 30125(b)(1). Although
§ 30125(b)(1) is framed as a limitation on state and local party
“expend[itures] or disburse[ments] for Federal election activity,”
McConnell characterized the law as a contribution limit rather
than an expenditure limit because the statute does not “limit[ ]
the total amount of money parties can spend,” but “simply limit[s]
the source and individual amount of donations.” 540 U.S. at 139.
“That [§ 30125(b)(1)] do[es] so by prohibiting the spending of soft
money,” McConnell said, “does not render [it an] expenditure limitation[.]” Id. Section 30125(b)(1) also applies to expenditures or
disbursements for the purpose of “Federal election activity . . . by
an association or similar group of candidates for State or local office or of individuals holding State or local office.” 52 U.S.C.
§ 30125(b)(1). For ease of reference, § 30125(b)(1) is described
simply as a limitation on federal electioneering by state, district,
or local political committees.

118a
purpose for which the contribution was made, see id.,
which is the argument the LNC raises here, see Pet.’s
Mem. at 16. As such, McConnell cannot be read to foreclose the LNC’s claim. See Cooper Indus., Inc. v. Aviall
Servs., Inc., 543 U.S. 157, 170 (2004) (“Questions which
merely lurk in the record, neither brought to the attention of the court nor ruled upon, are not to be considered as having been so decided as to constitute
precedents.” (internal quotation marks omitted)).
Moreover, even if McConnell had expressly held
that § 30125(b)(1)’s distinction between contributions
to fund “Federal election activity” and contributions to
fund state and local election activities were constitutional, such a holding would not foreclose the LNC’s
claim. Content-based restrictions on speech must be
“narrowly tailored to serve compelling state interests.”
Reed, 135 S. Ct. at 2226. Section 30125(b)(1)’s distinction between contributions to fund federal election activities and contributions to fund state and local
activities may be said to (1) reflect Congress’s judgment that the federal government has a compelling interest in preventing the reality or appearance of
corruption as to federal elections but not as to state or
local elections, and (2) be narrowly tailored to serve
only the former interest. In other words, § 30125(b)(1)
might be understood to reflect the view that any corruption, in fact or appearance, of state and local political processes just is not the federal government’s
business, not that soft money contributions to fund
state and local election activity give rise to no real or
apparent corruption.

119a
The FEC also argues that prior to the BCRA, federal law allowed national political parties to accept unlimited soft money contributions to fund state and
local election activities, notwithstanding that such activity “could simultaneously influence federal elections.” Def.’s Opp’n at 21 (quoting Republican Nat’l
Comm. v. FEC, 698 F. Supp. 2d 150, 153 (D.D.C. 2010)).
The FEC cites no decision of any court affirming this
aspect of the pre-BCRA regime’s constitutionality,
however, id.; the issue apparently never arose.16 The
pre-BCRA soft money regime simply does not establish
16

The FEC cites FEC v. Colorado Republican Federal Campaign Committee, 533 U.S. 431, 458 (2001), for the proposition
that “the pre-BCRA contribution limits applicable to funds raised
by national political parties for use in federal elections remained
constitutional even though different rules applied to funds raised
for use in those state and local elections.” Def.’s Opp’n at 21. The
FEC’s reliance on Colorado Republican is baffling. That decision
upheld the constitutionality of limits on the amount of money a
national political party may expend in coordination with a political candidate, but did not address any disparity in treatment of
funds intended for use in federal or state and local election activity. See generally Colo. Republican, 533 U.S. 431. The FEC further argues that Colorado Republican shows that restrictions on
“how parties may use funds” merit “closely drawn” rather than
strict scrutiny. Def.’s Reply at 5. The FEC reads Colorado Republican far too broadly. Colorado Republican stands for nothing
more than the unremarkable proposition that contribution limits
are subject to mere closely drawn scrutiny, and that coordinated
expenditures, as functional equivalents to contributions, constitutionally may be subject to contribution limits. 533 U.S. at 447,
456. Colorado Republican certainly did not hold that Congress
may limit the amount that political parties spend toward particular purposes outside the narrow set of circumstances where such
spending effectively amounts to a contribution to a political candidate.

120a
that the FECA’s current specialized purpose regime
passes constitutional muster. Moreover, as with
§ 30125(b), the pre-BCRA rules allowing national parties to accept unlimited soft money contributions to
fund state and local, but not federal, election activities,
might be said to be reflect a proper congressional judgment that corruption of state or local elections is not
the federal government’s concern. As such, any conclusion that the pre-BCRA soft money regime were constitutional would not foreclose the LNC’s claim.
The parties debate the relative corruption concerns that various types of contributions raise, but
keeping score to determine this debate’s winner is a job
for the D.C. Circuit, not this Court. For example, pointing to the fact that “an individual may give $2,700 to
any candidate committee for each election, $5,000 annually to any political action committee, and $10,000
annually to any state or local party committee,” Def.’s
Reply at 4 (citing 52 U.S.C. § 30116(a)(1)(A)-(D); 82
Fed. Reg. at 10,905), the FEC argues that “[f ]rom such
an individual’s perspective, those contribution limits
apply ‘depending on how’ the individual wishes to
spend money,” id. Such restrictions on “how much
money a donor may contribute to a particular candidate or committee” have been upheld to “serv[e] the
permissible objective of combatting corruption.”
McCutcheon v. FEC, 134 S. Ct. 1434, 1442 (2014). Nevertheless, the LNC argues that limiting the purposes
toward which a person may contribute to a political
committee serves no anti-corruption interest because
money is fungible, meaning that the more specialized

121a
purpose funds available to a committee, the less general purpose funds the committee will need to spend
toward specialized purposes, and thus, will have available to spend toward other purposes. See Pet.’s Mem.
at 20–21. The FEC counters that restricted contributions pose less corruption concern than unrestricted
contributions, justifying higher contribution limits for
restricted contributions, because “political parties and
their candidates tend to place more value on unrestricted contributions than those that may only be
used for certain expenses.” Def.’s Opp’n at 22. The LNC,
in turn, asserts that restricted and unrestricted contributions are more fungible to large parties with large
specialized purpose expenses, but less fungible to
small parties that spend less toward specialized purposes. See Pet.’s Mem. at 20–21. The LNC’s argument
that the specialized purpose regime serves no anti-corruption interest given money’s fungibility, whether correct or not on the merits, plainly is not so frivolous or
insubstantial as to be unworthy of certification under
§ 30110.
*

*

*

For the reasons given above, the LNC’s claim in
the second question that the specialized purpose regime unconstitutionally conditions certain speech’s
lawfulness on that speech’s content is not “wholly insubstantial, obviously frivolous, [or] obviously without
merit,” and so satisfies § 30110’s “low bar.” Holmes, 823
F.3d at 71–72 (quoting Shapiro, 136 S. Ct. at 456).
Moreover, because the LNC’s second question merits
certification, it logically follows that the LNC’s third

122a
question—“Does restricting the purposes for which the
Libertarian National Committee may spend the bequest of Joseph Shaber violate the Committee’s First
Amendment rights?,” Pet.’s Mot. Cert. at 1—challenging the specialized purpose regime as to Mr. Shaber’s
particular bequest, also warrants certification.
D. Reformulating The LNC’s Proposed
Questions
The FEC argues that should the LNC’s second and
third proposed questions be certified, these questions
should be reformulated because, in their current form,
they are phrased in argumentative, question-begging,
and overbroad terms. See Def.’s Opp’n at 33. While the
Court declines to adopt the FEC’s proposed formulations of these questions, which themselves are argumentative and question-begging, for the reasons that
follow, the LNC’s questions two and three are reformulated to address the FEC’s concerns.
At the outset, the FEC contends that the LNC’s
second and third proposed questions “go far beyond the
claims asserted in the LNC’s complaint.” Id. According
to the FEC, “Counts II and III of the LNC’s complaint
focused on the constitutionality of the segregated account limits,” which “appeared to be the only aspect of
the limit on contributions to political parties that the
[LNC] challenged in its complaint.” Id. Yet, the FEC
continues, “the LNC’s proposed questions two and
three are not expressly targeted at the segregated account structure, but instead broadly assert that the

123a
contribution limits applicable to national committees
‘restrict the purposes for which the LNC may spend’
its money.” Id. at 34 (quoting Pet.’s Mem. at 3 (alterations omitted)). Contrary to the FEC’s description,
Counts II and III of the LNC’s complaint clearly allege
that § 30125, which prohibits “[a] national committee
of a political party” from “spend[ing] any funds, that
are not subject to the limitations [and] prohibitions . . .
of this Act,” 52 U.S.C. § 30125(a)(1), “violate[s] the First
Amendment speech and associational rights of the
LNC and its supporters,” Compl. ¶ 31; accord id. ¶ 34.
In short, the FEC’s criticism of questions two and three
for lack of notice is baseless, as the LNC’s complaint
targets § 30125’s restriction on the LNC’s ability to
spend specialized purpose account funds.
As to the framing of questions two and three, the
FEC deems these questions to be “argumentative because [they] beg[ ] the question [of ] whether the segregated account limits actually restrict the LNC’s
spending.” Def.’s Opp’n at 34. The second question asks
whether the specialized purpose regime facially “violate[s] the First Amendment rights of the [LNC] by restricting the purposes for which the [LNC] may spend
its money.” Pet.’s Mot. Cert. at 1. This question can be
understood to ask not only whether restricting the purposes for which the LNC may spend its money violates
the First Amendment, but also whether the specialized
purpose regime in fact imposes such a restriction. The
second question thus requires no reformulation.
The third question asks whether “restricting the
purposes for which the [LNC] may spend the bequest

124a
of Joseph Shaber violates the [LNC’s] First Amendment Rights.” Id. The third question, unlike the second
question, seemingly presumes that the specialized purpose regime does in fact restrict the purposes for which
the LNC may spend its money. The third question’s
phrasing thus is argumentative and question-begging:
whether the specialized purpose regime, in fact, restricts the purposes for which the LNC may spend its
money is an issue that must be decided, and may not
be presumed. As such, the Court reformulates the third
question to mirror the second question, a reformulation to which the LNC hardly can take issue given that
the LNC itself formulated the second question’s phrasing.
Finally, the FEC argues that the second and third
questions “are not limited to the segregated account
structure,” Def.’s Opp’n at 34, but rather, “implicate
whether national party committees may be subject to
contribution limits at all,” Def.’s Reply at 13. To the extent any ambiguity exists as to which aspects of the
FECA are subject to challenge here, the second
and third questions are reformulated to clarify that
only the specialized purpose regime created by
§ 30116(a)(1)(B), (a)(9), and § 30125(a)(1) are subject to
challenge, and only on the ground that the specialized
purpose regime conditions the lawfulness of contributions above § 30116(a)(1)(B)’s general purpose contribution limit on whether the contribution is directed
toward one of § 30116(a)(9)’s three enumerated specialized purposes.

125a
Accordingly, the second question is reformulated
as follows: “Do 52 U.S.C. §§ 30116(a)(1)(B), (a)(9), and
30125(a)(1), on their face, violate the First Amendment
rights of the Libertarian National Committee by restricting the purposes for which the Committee may
spend its contributions above § 30116(a)(1)(B)’s general purpose contribution limit to those specialized
purposes enumerated in § 30116(a)(9)?” The third
question is reformulated as follows: “Do 52 U.S.C.
§§ 30116(a)(1)(B), (a)(9), and 30125(a)(1) violate the
First Amendment rights of the Libertarian National
Committee by restricting the purposes for which the
Committee may spend that portion of the bequest of
Joseph Shaber that exceeds § 30116(a)(1)(B)’s general
purpose contribution limit to those specialized purposes enumerated in § 30116(a)(9)?”
At the same time, the Court declines to adopt the
FEC’s proposed formulations of the second and third
questions. The FEC would reformulate the [sic] these
questions as follows:
Question 2: “Do 52 U.S.C. § 30116(a)(1)(B)
and (9) violate the First Amendment rights of
the Libertarian National Committee by permitting it to accept 300% of the otherwise applicable contribution limit into segregated
accounts used to defray expenses with respect
to its presidential nominating conventions,
headquarters buildings, and election recounts
and contests and other legal proceedings?”
Def.’s Opp’n at 34–35;

126a
Question 3: “Do 52 U.S.C. § 30116(a)(1)(B)
and (9) violate the First Amendment rights of
the Libertarian National Committee by permitting it to accept 300% of the otherwise applicable contribution limit from the bequest of
Joseph Shaber into segregated accounts used
to defray expenses with respect to its presidential nominating conventions, headquarters buildings, and election recounts and
contests and other legal proceedings?” Id. at
35.
Framing the specialized purpose regime as one that
“permit[s]” the LNC “to accept 300% of the otherwise
applicable contribution limit” is argumentative and
question-begging. As discussed earlier, the crux of the
LNC’s challenge is not that the specialized purpose regime restricts the LNC from raising or spending sufficient funds, but that the specialized purpose regime
imposes a content-based restriction on speech by conditioning the lawfulness of certain contributions, and
of the LNC’s acceptance and expenditure of such contributions, on whether the contribution was made for a
particular enumerated government-approved purpose.
IV.

CONCLUSION

For the reasons given above, the FEC’s motion to
dismiss is denied and the LNC’s motion to certify is
granted in part and denied in part. An appropriate Order accompanies this Memorandum Opinion. Findings
of fact are set out in the Appendix.

127a
Date: June 29, 2018
/s/ [SEAL] Beryl A. Howell
BERYL A. HOWELL
Chief Judge

APPENDIX
FINDINGS OF FACT17
I.

The Parties
1.

The Plaintiff, Libertarian National Committee, Inc. (“LNC”), is the national committee
of the Libertarian Party of the United States.
Pet.’s Mot. Cert., Decl. of Nicholas Sarwark,
Chair, LNC, Inc. (“Sarwark Decl.”) ¶ 1, ECF
No. 24-17; Def.’s Answer & Affirmative Defenses (“Def.’s Answer”) ¶ 1, ECF No. 22.

2.

The Defendant, Federal Election Committee
(“FEC”), is the federal government agency
charged with the administration and enforcement of the Federal Election Campaign
Act (“FECA”), 52 U.S.C. § 30101 et seq. Pet.’s

17

The Court’s findings of fact are taken from the parties’ proposed findings of fact and responses thereto. See Pet.’s Mot. Cert.,
Ex. A, Pet.’s Facts Submitted for Cert. (“Pet.’s Proposed Facts”),
ECF No. 24-3; Def.’s Opp’n, Attach. 2, Def.’s Resps. Pet.’s Proposed Facts, ECF No. 26-2; Def.’s Opp’n, Attach. 3, Def.’s Proposed Findings of Fact (“Def.’s Proposed Facts”), ECF No. 26-3;
Pet.’s Reply, Attach. 1, Pet.’s Resps. Def.’s Proposed Facts, ECF
No. 27-1. To the extent that objections were lodged to any proposed factual finding, those objections are sustained, denied, or
resolved as reflected in the factual findings included in this Appendix.

128a
Complaint (“Compl.”) at 3, ECF No. 1. The
FEC has exclusive jurisdiction with respect
to the civil enforcement of such provisions.
Id. §§ 30106(b)(1), 30109. The FEC also has
the authority to make rules and regulations
necessary to carry out the FECA, id.
§§ 30107(a)(8), 30111(a)(8), 30111(d), and to
issue advisory opinions concerning the application of FECA and prescribed regulations,
id. §§ 30107(a)(7), 30108.
3.

The LNC is a “not-for-profit organization incorporated under the laws of the District of
Columbia.” Sarwark Decl. ¶ 1. “The LNC has
15,031 active paid sustaining donors, and
137,451 members, in all 50 states and the
District of Columbia.” Id. at ¶ 2. “Over half a
million registered voters identify with the
Libertarian Party in the states in which
voters can register as Libertarians.” Id.
“[Forty-eight] partisan officeholders and 111
non-partisan officeholders across the country
are affiliated with the Libertarian Party.” Id.

4.

“Founded in 1971, the Libertarian Party has
yet to elect a federal office holder, and no current federal office holder is affiliated with the
Libertarian Party.” Libertarian Nat’l Comm.,
Inc. v. FEC (“LNC I”), 930 F. Supp. 2d 154,
172 (D.D.C. 2013) (Wilkins, J.) (citation omitted).

5.

“The LNC’s purpose is to field national Presidential tickets, to support its state party affiliates in running candidates for public
office, and to conduct other political activities

129a
in furtherance of a libertarian public policy
agenda in the United States.” LNC I, 930
F. Supp. 2d at 172 (citation omitted);
Sarwark Decl. ¶ 3.
6.

The LNC “facilitates mutual contacts between contributors and federal candidates,”
and “assists candidates in their efforts to win
federal office.” Def.’s Opp’n, Ex. 2, Pet.’s
Resps. Def.’s First Set Requests for Admissions at 10, ECF No. 26-6.

7.

To achieve its political goals, the LNC organizes affiliate parties in all fifty states and
runs candidates for public office “with the
goal of reducing government control over individuals’ lives.” Def.’s Opp’n, Ex. 6, Dep. of
Nicholas Sarwark (“Sarwark Dep.”) at 28:4–
10, ECF No. 26-10. The LNC nominates candidates for president and vice president on
behalf of the Libertarian Party every four
years. Id. at 48:2–7, 49:8–11.

8.

“Even if a Libertarian Party candidate does
not win a federal election, the LNC generally
views it as positive if its candidate gets more
votes than the margin of victory between the
two major-party candidates and thus affects
the outcome of the election.” LNC I, 930
F. Supp. 2d. at 173 (citation omitted). That is
because such a result might cause a candidate of a major party to listen to the Libertarian Party’s position in the future or
reconsider his or her own position, “since the
party would have demonstrated that a sizeable percentage of the electorate agrees with

130a
the Libertarian Party and wants to see more
Libertarian public policies.” Id. (internal
quotations omitted).
9.

In a 2006 letter to prospective donors, the
LNC stated that
[o]ne of the most significant achievements of
the year was our candidates being identified
as the deciding factor in control of the U.S.
Senate. This led to positive press coverage in
the Washington Post and many other news
outlets. Our impact in these important elections even led to an article in The Economist
titled “Libertarians Emerge as a Force.”
Clearly, it was a good year for our party.
Id. at (citation omitted).

II.

The LNC’s Fundraising and Spending On
Segregated Account Expenses
10.

In some of its fundraising solicitations, the
LNC has told potential contributors that
their contributions will only be used for specific expenses. Sarwark Dep. at 13:8–14:6,
40:11–21. Some donors have informed the
LNC that they will only give money if they
are told what the money will be used for. Id.
at 21:18–22:3. Such project-based fundraising is often more effective for the LNC than
asking for “unearmarked” money. Id. at
22:18–23:4.

11.

The LNC “earmarks” certain contributions to
specify that those contributions are only to
be used for particular categories of expenses.

131a
Id. at 13:20–14:6. Those earmarks include
funds for “ballot access.” Id. at 14:14–15:19.
This may include litigation over whether the
Libertarian candidate will appear on a ballot
in a particular election. See id. at 15:7–19.
12.

The LNC maintains a “Legal Offense Fund”
that is used to finance “proactive litigation”
on behalf of the LNC. Id. at 40:11–14; see also
Def.’s Opp’n, Ex. 8, LNC Legal Offense Fund
Email, ECF No. 26–12. To raise money for
this fund, the LNC has sent solicitations to
potential contributors asking them specifically to donate to finance proactive litigation.
LNC Legal Offense Fund Email at 2. In one
such solicitation, LNC Chair Nicholas
Sarwark wrote: “I promise you that every
dollar we receive from this fundraiser will be
spent on legal offense.” Id. at 3.

13.

The LNC also maintains a segregated account for a “building fund,” which it operates
pursuant to 52 U.S.C. § 30116(a)(9)(B).
Sarwark Dep. at 14:14–15; Sarwark Decl.
¶ 29.

14.

The LNC does not place donations into its
segregated purpose building account unless
the donors specifically earmark their donations for building purposes. Id. “Of course,
mortgage payments and payments for other
expenses related to the building may be
made from LNC’s general account as circumstances warrant.” Id.

15.

“The Libertarian Party’s headquarters building makes an architectural statement that is

132a
consistent with the party’s mission. LNC
would not occupy a headquarters building
that would make an unsuitable architectural
statement.” Id. ¶ 30.
16.

“The Libertarian Party occasionally places
political signs in its headquarters windows,
or on the lawn in front of the building, but is
prohibited by city ordinance from placing
outdoor signage on its building.” Id. ¶ 31.

17.

News reports indicate that major cities
typically bid to host the presidential nominating conventions of the two major legacy
parties. See, e.g., Chris Brennan, Democrats
to Convene in Philly in 2016, PHILADELPHIA
INQUIRER (Feb. 13, 2015), http://www.philly.
com/philly/news/politics/20150213_Source__
Philadelphia_to_host_2016_Democratic_
Convention.html; Andrew J. Tobias, Cleveland Chosen to Host 2016 Republican National Convention, CLEVELAND PLAIN DEALER
(July 8, 2014), https://www.cleveland.com/open/
index.ssf/2014/07/cleveland_gop_convention_
a nnou.html.

18.

The LNC solicits directly for the building
fund. Def.’s Opp’n, Ex. 30, LNC Building
Fund Solicitation Letter, ECF No. 26-34. On
April 26, 2014, the LNC sent a solicitation to
contributors asking for contributions to this
fund, which the LNC has also referred to as
the David F. Nolan Memorial Headquarters
Office Fund. Id. at 1. The solicitation explained that “[a]ll funds raised go into a separate account and are dedicated to the Nolan

133a
Memorial Headquarters Office, and will be
restricted for use toward the associated purchase, furnishing, renovation, and moving
expenses.” Id. at 3.
19.

On April 4, 2013, the LNC sent an email to
potential contributors soliciting contributions to its building fund that explained that
“every dollar contributed to the David F. Nolan Memorial Building Fund must, by law, be
spent on buying an office or associated expenses – or it must be returned to you, the
donor.” Def.’s Opp’n, Ex. 32, LNC Building
Fund Email at 2, ECF No. 26-36. The email
noted “that means your donation is guaranteed to be used only for the Building Fund.”
Id. (emphasis in original).

20.

The LNC has offered recognition for people
who contributed to the building fund at certain levels. Sarwark Dep. at 20:1–11. Specifically, the LNC offered to allow contributors
to the building fund to name certain rooms
in the LNC’s headquarters or place their
name on plaques to be displayed in those
rooms. Id. at 18:15–19:1.

21.

The LNC has accepted money into an account authorized by 52 U.S.C. § 30116(a)(1)(B)
and (a)(9) that it could not have accepted
prior to the specialized purpose regime’s creation because the donor had already contributed the maximum amount in unrestricted
funds. See, e.g., Sarwark Dep. at 12:10–13:1;
Pet.’s Proposed Facts.

134a
22.

As of December 31, 2016, the LNC accepted
a total of $31,508 in contributions to a segregated account for its headquarters. Def.’s
Opp’n, Ex. 1, Decl. of Paul C. Clark II, Federal
Election Commission (“Clark Decl.”) ¶ 13
tbl.2, ECF No. 26-5; Pet.’s Mot. Cert., Attach.
22, Decl. of Paul C. Clark II ¶ 13 tbl.2, ECF
No. 24-22. One donor, Michael Chastain, donated $26,410.01 into the LNC’s segregated
building fund in 2017. Pet.’s Mot. Cert., Attach. 20, Decl. of Michael Chastain (“Chastain Decl.”) ¶ 4, ECF No. 24-20.

23.

The purpose of the LNC’s headquarters “is to
provide full-time, professional support for
the on-going political activities of the
[p]arty.” Def.’s Opp’n, Ex. 11, LNC Policy
Manual at 48, ECF No. 26-15. The activities
of the LNC’s headquarters include record
keeping, member services, development activities, external communications, and political action. Id. at 48–49.

24.

In 2014, the LNC purchased a building to
serve as its headquarters. LNC Building
Fund Solicitation Letter at 1. The purchase
price was $825,000. Id. at 2.

25.

“Among the LNC’s goals is to completely pay
off the headquarters building as quickly as
possible, and in any case prior to the 2024
due date of a balloon payment. [To] that end,
the LNC budgets at least $60,000 in . . . oddnumbered year[s] to pay down the principal,
and undertakes fundraising efforts dedicated specifically towards that purpose.

135a
Accordingly, LNC expects that it would pay
off the mortgage well before 2024. However,
the LNC’s goals at times exceed its budget,
and budget targets are not always met.”
Sarwark Decl. ¶ 28.
26.

The LNC holds a presidential nominating
convention once every four years immediately preceding a presidential election.
Sarwark Dep. at 48:2–4. The purpose of these
conventions is to conduct party business, including hearing reports from various LNC
committees regarding changes to the national party bylaws, changes to the national
party platform, election of officers and atlarge members of the LNC, the election of the
judicial committee, and occasional adoption
of public policy resolutions. See id. at 48:12–
49:7. In addition, Libertarian candidates for
president and vice president are nominated
at presidential nominating conventions. Id.
at 49:8–11.

27.

The LNC engages in fundraising specific to
expenses that would be incurred for presidential nominating conventions. Id. at
49:12–50:13.

28.

“All, or very nearly all, of the Libertarian
Party’s expenses for holding its presidential
nominating conventions are incurred and
paid for in the year in which the convention
is held. Occasionally . . . minor expenses related to presidential nominating conventions
. . . are pre-paid in the year preceding the
presidential nominating conventions. No

136a
expenses related to holding presidential
nominating conventions are incurred in the
two years following a year in which the
[LNC] holds a presidential nominating convention.” Sarwark Decl. ¶ 34.
29.

During discovery, the LNC provided an
expense report for years 2013 through 2016.
Def.’s Opp’n, Ex. 7, LNC Account
QuickReport, ECF No. 26-11. While the description of costs were not specifically tailored to the exact language of the segregated
account provision in FECA, in general, the
LNC spent roughly $467,251.58 on 52 U.S.C.
§ 30116(a)(9)-sanctioned expenses in 2016.
Id. at 30.

30.

The LNC’s total budget for program expenses and cost of support and revenue, including fundraising, was $1,406,400 in 2014,
Def.’s Opp’n, Ex. 22, LNC 2014 Budget, ECF
No. 26-26, $1,304,246.33 in 2015, Def.’s
Opp’n, Ex. 9, LNC 2015 Budget, ECF No. 2613, and $2,263,183 in 2016, Def.’s Opp’n, Ex.
10, LNC 2016 Budget, ECF No. 26-14.

31.

Between December 16, 2014, and December
31, 2016, national party committees have accepted a total of $129,997,590 into their specialized purpose accounts. Clark Decl. ¶ 13
tbl.2. The national party committees affiliated with the Democratic Party have accepted a total of $41,510,551; the national
party committees affiliated with the Republican Party have accepted a total of
$88,455,532; and the LNC has accepted

137a
$31,508. Id. No other national committee of
any political party reported segregated account contributions as of December 31, 2016.
Id. ¶ 14.
III.

The FECA’s Specialized Purpose Regime
32.

Potential donors may forego making a contribution to the national committee of a political party, or reduce the amount of their
contribution, if the uses of that contribution
are restricted. See Sarwark Decl. ¶ 10; see,
e.g., Pet.’s Mot. Cert., Attach. 19, Decl. of
Chris Rufer (“Rufer Decl.”) ¶¶ 5–7, ECF No.
24-19; Chastain Decl. ¶¶ 5–7; Pet.’s Mot.
Cert., Attach. 21, Decl. of William Redpath
(“Redpath Decl.”) ¶ 5, ECF No. 24-21.

33.

“LNC is unaware of any documentary evidence comparing the corrupting potential of
restricted, [specialized-purpose] contributions with the corrupting potential of unrestricted, general purpose contributions.”
Sarwark Decl. ¶ 11.

34.

During discovery in this litigation, the LNC
posed the following interrogatory to the FEC:
“[P]lease describe in detail all evidence tending to support the proposition that a maximum allowable contribution to one of the
separate, segregated accounts provided for in
52 U.S.C. § 30116(a)(9) is less corrupting
than a contribution that exceeds the unrestricted, general purpose contribution limits
by one dollar.” Pet.’s Mot. Cert., Ex. B, Def.’s
Objections & Resps. Pet. LNC’s First

138a
Discovery Requests (“Def.’s First Objections
& Resps.”) at 15, ECF 24-4. The FEC responded: “The FEC cannot respond to this interrogatory because it rejects the premise
that a contribution of any particular dollar
value is ‘corrupting’ but that lower values
are not ‘corrupting.’ Moreover, the FEC cannot completely answer this interrogatory, as
discovery is ongoing. Nevertheless, the FEC
is aware of case law, publicly available secondary material, and simple logic which dictates that parties may prefer unrestricted
contributions to those that may only be used
in connection with particular expenses. The
FEC is also aware of LNC’s allegations that
‘the LNC has comparatively less use for
funds intended to support national conventions, a headquarters building, or attorney
fees’ and therefore ‘needs’ unrestricted funds
‘in order to directly speak to the electorate.’
Compl. ¶ 13. Additional evidence may be uncovered through continuing discovery in this
case.” Id. at 15–16.18
35.

18

During discovery in this litigation, the LNC
posed the following interrogatory to the FEC:
“Please describe the likelihood that an

The LNC proposed to certify only the following fact: “The
FEC . . . rejects the premise that a contribution of any particular
dollar value is ‘corrupting’ but that lower values are not ‘corrupting.’ ” Pet.’s Proposed Facts ¶ 30 (citation omitted). The FEC
noted that the LNC’s proposed fact excerpted from a longer interrogatory response, and argued that “[t]o the extent this proposed
fact is certified . . . the FEC’s full response should in fairness be
included. See FED. R. EVID. 106.” Def.’s Resps. Pet.’s Proposed
Facts at 15.

139a
individual’s contribution of $101,700 to the
national committee of a political party, restricted for the purpose of funding a headquarters building, election contests, or a
presidential nominating convention, would
create the same or greater appearance of corruption as an unrestricted contribution in
the amount of $33,901 by that individual to
the same national committee of a political
party.” Pet.’s Mot. Cert., Ex. C, Def.’s Objections & Resps. Pet.’s Second Discovery Requests (“Def.’s Second Objections & Resps.”)
at 6, ECF 24-5. The FEC responded: “[L]arger contributions [to political parties] are
generally more likely to lead to actual or apparent quid pro quo arrangements and can
do so regardless of how the funds are ultimately used, but unrestricted funds contributed to a political party may be used for
activities that maximally benefit federal candidates and thus may pose a relatively more
acute danger of actual and apparent corruption.” Id. at 7.19
36.

19

During discovery in this litigation, the LNC
posed the following interrogatory to the FEC:

The LNC proposed to certify only the following fact:
“ ‘[L]arger contributions [to political parties] are generally more
likely to lead to actual or apparent quid pro quo arrangements
and can do so regardless of how the funds are ultimately
used. . . .” Pet.’s Proposed Facts ¶ 31 (alteration in original) (citation omitted). The FEC objected that the proposed fact “omits the
context of the FEC’s interrogatory response,” and argued that
“[t]o the extent this proposed fact is certified, the FEC’s full response should in fairness be included. See FED. R. EVID. 106.”
Def.’s Resps. Pet.’s Proposed Facts at 15–16.

140a
“Please explain why a maximum allowable
contribution to one of the separate, segregated accounts provided for in 52 U.S.C.
§ 30116(a)(9) may be less corrupting than a
contribution that exceeds the unrestricted,
general purpose contribution limits by one
dollar.” Def.’s First Objections & Resps. at 17.
The FEC responded in part: “Although all
contributions to political parties can create
the risk of corruption or its appearance regardless of the way that money is ultimately
spent, Congress could have permissibly concluded that contributions to a political party
that directly benefit a particular candidate
or can be spent directly on a particular election contest pose an especially acute risk
warranting a lower dollar limit.” Id.20
37.

20

The FEC takes the position that “Congress
could have permissibly concluded” that unrestricted donations to a political party pose
greater risk than restricted donations, Def.’s
First Objections & Resps. at 17, as it believes
that “unrestricted funds contributed to a political party may be used for activities that
maximally benefit federal candidates and
thus may pose a relatively more acute

The LNC proposed to certify only the following fact: “[A]ll
contributions to political parties can create the risk of corruption
or its appearance regardless of the way that money is ultimately
spent.” Pet.’s Proposed Facts ¶ 32 (emphasis in original) (citation
omitted). The FEC objected that the proposed fact “omits the context of the FEC’s interrogatory response,” and argued that “[t]o
the extent this proposed fact is certified, the FEC’s full response
should in fairness be included. See FED. R. EVID. 106.” Def.’s
Resps. Pet.’s Proposed Facts at 16.

141a
danger of actual and apparent corruption,”
Def.’s Second Objections & Resps. at 7.
38.

“Every dollar received through the separate,
segregated accounts provided for in 52 U.S.C.
§ 30116(a)(9) potentially frees up another
dollar in the recipient’s general account for
unrestricted spending.” Def.’s First Objections & Resps. at 12; Sarwark Decl. ¶ 12.

39.

“[A] political party may in some circumstances value a contribution with use restrictions more highly than a smaller
contribution without such restrictions.”
Sarwark Decl. ¶ 13; see also Def.’s Second
Objections & Resps. at 4.

40.

During discovery in this litigation, the LNC
posed the following interrogatory to the FEC:
“Please describe the likelihood that a political party would value a contribution with use
restrictions more highly than a smaller contribution without such restrictions.” Def.’s
Second Objections & Resps. at 7. The FEC responded in part: “[U]nrestricted funds contributed to a political party may be used for
activities that maximally benefit federal candidates and thus will generally be more
highly valued. A political party may value a
higher contribution with use restrictions in
some circumstances, however, such as in the
case of a contribution that the party may use
to defray expenses for which it knows it must
pay and for which it would otherwise have
trouble raising funds. The party may value
that contribution more than a smaller

142a
contribution that comes with no use restrictions but is easier to replicate through
other fundraising efforts.”21 Id. at 8.
41.

21

During discovery in this litigation, the LNC
requested that the FEC admit the following:
“An individual’s contribution of $101,700 to
the national committee of a political party,
even if restricted for the purpose of funding
a headquarters building, election contests, or
a presidential nominating convention, may
create the same or greater appearance of corruption as an unrestricted contribution in
the amount of $33,901 by that individual to
the same national committee of a political
party.” Def.’s Second Objections & Resps. at
5. The FEC “denie[d] that the requested admission is true as a general matter but admit[ted] that the hypothetical scenario
described in the request may occur in some
circumstances, for the reasons provided and
subject to the general caveats in the response

The LNC proposed to certify only the following fact: “A political party may value a higher contribution with use restrictions
in some circumstances . . . such as in the case of a contribution
that the party may use to defray expenses for which it knows it
must pay and for which it would otherwise have trouble raising
funds. The party may value that contribution more than a smaller
contribution that comes with no use restrictions but is easier to
replicate through other fundraising efforts.” Pet.’s Proposed Facts
¶ 39 (alteration in original) (citation omitted). The FEC “object[ed] to this proposed fact to the extent that it omits the full
context of the FEC’s interrogatory response,” and argued that
“[t]o the extent this proposed fact is certified, the FEC’s full response should in fairness be included. See FED. R. EVID. 106.”
Def.’s Resps. Pet.’s Proposed Facts at 20.

143a
to Request 27.” Id. In responding to the
LNC’s Request 27, the FEC asserted:
Given the close connection and alignment
of interests between national party committees and federal officeholders, larger
contributions are generally more likely to
lead to actual or apparent quid pro quo
arrangements and can do so regardless
of how the funds are ultimately used.
See, e.g., Republican Party of La. v. FEC,
219 F. Supp. 3d 86, 97 (2016) (citing
McConnell v. FEC, 540 U.S. 93, 154-55
(2003)), aff ’d 137 S. Ct. 2178 (2017). The
danger of actual and apparent quid pro
quo corruption can, however, be relatively
more acute when funds are used for activities that provide direct benefits to
federal candidates. Id. at 96 (citing
McConnell, 540 U.S. at 166–71). Because
unrestricted funds contributed to a political party may be used for activities that
maximally benefit federal candidates, including campaign advertisements in coordination with candidate campaigns,
political parties will generally value them
higher and such contributions pose a relatively more acute danger of quid pro quo
corruption. Subject to those general caveats, the Commission admits that a political party may in some circumstances
value a contribution with use restrictions
more highly than a smaller contribution
without such restrictions.”

144a
Def.’s Second Objections & Resps. at 3–4.22
42.

During discovery in this litigation, the LNC
requested that the FEC admit the following:
“Were a national committee of a political
party planning to spend at least $101,700
from its general account in a given year for
any of the purposes for which separate, segregated accounts are provided in 52 U.S.C.
§ 30116(a)(9), a $101,700 contribution received in one of the separate, segregated accounts would have the same effect as an
unrestricted $101,700 contribution.” Def.’s
Second Objections & Resps. at 5. The FEC
“object[ed] to this request for admission as
vague and ambiguous insofar as it does not
define the ‘effect’ to which the request alludes.” Id.

43.

During discovery in this litigation, the LNC
posed the following interrogatories to the
FEC: (1) “Please describe the likelihood that
an individual’s contribution of $101,700 to
the national committee of a political party,
restricted for the purpose of funding a

22

The LNC proposed to certify only the following fact: “An
individual’s contribution of $101,700 to the national committee of
a political party, even if restricted for the purpose of funding a
headquarters building, election contests, or a presidential nominating convention, may create the same or greater appearance of
corruption as an unrestricted contribution in the amount of
$33,901 by that individual to the same national committee of a
political party.” Pet.’s Proposed Facts ¶ 40. The FEC objected that
the proposed fact “omits the full context of the FEC’s [ ] response,”
and argued that “[t]o the extent this proposed fact is certified, the
FEC’s full response should in fairness be included. See FED. R.
EVID. 106.” Def.’s Resps. Pet.’s Proposed Facts at 20.

145a
headquarters building, election contests, or a
presidential nominating convention, would
create the same or greater appearance of corruption as an unrestricted contribution in
the amount of $33,901 by that individual to
the same national committee of a political
party,” Def.’s Second Objections & Resps. at
6; and (2) “Please describe the circumstances
under which an individual’s contribution of
$101,700 to the national committee of a political party, restricted for the purpose of
funding a headquarters building, election
contests, or a presidential nominating convention, would create the same or greater appearance of corruption as an unrestricted
contribution in the amount of $33,901 by
that individual to the same national committee of a political party.” Id. at 8. The FEC responded to both interrogatories, in part,
“that a particular within-limit contribution
to the segregated account of a national committee of a political party could appear as
corrupt as or more corrupt than a lower contribution to that committee’s general account that exceeds the general account limit,
depending on circumstances such as the
identity of the contributor and the receiver,
the policy interests of the contributor, the
current status of relevant policies, the financial needs and goals of the receiver including
as to the types of spending for which segregated account funds might be used and the
public knowledge of those matters, the receiver’s relative ability to raise funds for different proposed uses, and whether any

146a
relevant policy changes happen close in time
to the contribution.” Id. at 7, 9.23
44.

No parties, apart from the Libertarian, Democratic, and Republican Parties, have reported any segregated purpose accounts to
the FEC. Clark Decl. ¶ 14.

45.

Between 2014 and 2016, the Democratic National Committee (“DNC”) reported receiving
$12,255,964 for its segregated convention account, $3,901,490 for its segregated headquarters account, and $6,764,189 for its
segregated recount account. Clark Decl. at 5
tbl.2.

46.

Between 2014 and 2016, the Republican National Committee (“RNC”) reported receiving
$23,817,038 for its segregated convention account, $26,367,459 for its segregated headquarters account, and $5,992,015 for its
segregated recount account. Clark Decl. at 5
tbl.2.

23

The LNC proposed to certify only the following facts: (1)
“[A] particular within-limit contribution to the segregated account of a national committee of a political party could appear as
corrupt as or more corrupt than a lower contribution to that committee’s general account that exceeds the general account limit,”
and (2) “[I]t is . . . possible that a particular contribution below
the general account limit may have an appearance of corruption
that exceeds that of a higher contribution to a segregated account.” Pet.’s Proposed Facts ¶¶ 42, 43 (alterations in original)
(citations omitted). The FEC objected to both proposed facts on
the ground that they “omit[ ] needed context from the cited FEC
discovery response.” Def.’s Resps. Pet.’s Proposed Facts at 21,22.

147a
47.

Between 2014 and 2016, the DNC’s individual contributions, not including many contributions accepted in the segregated purpose
accounts, totaled $189,112,962.62. See DNC
Year-End FEC Reports at 3, line 11(a)(iii),
http://docquery.fec.gov/cgi-bin/fecimg/?_1595
1133010+0(last visited June 28, 2018) (for
2014), http://docquery.fec.gov/cgi-bin/fecimg/?_
201601299 004933424+0 (last visited June
28, 2018) (for 2015), http://docquery.fec.gov/
cgi-bin/fecimg/\?_201706019055202873+0 (last
visited June 28, 2018) (for 2016).

48.

Between 2014 and 2016, the RNC’s individual contributions, not including many contributions accepted in the segregated
purpose accounts, see supra ¶ 46, totaled
$266,758,900.34. RNC Year-End FEC Reports at 3, line 11(a)(iii), http://docquery.fec.
gov/cgi-bin/fecimg/?_15970244221+0 (last visited
June 28, 2018) (for 2014), http://docquery.fec.
gov/cgi-bin/fecimg/?_201603229011936493+0
(last visited June 28, 2018) (for 2015); http://
docquery.fec.gov/cgi-bin/fecimg/?_201701319
042260933+0 (last visited June 28, 2018) (for
2016).

49.

In 2016, the RNC’s individual contributions,
not including many contributions accepted
in the segregated purpose accounts, supra
¶ 46, totaled $89,643,729.23. 2016 RNC
Year-End FEC Report at 3, line 11(a)(iii),
http://docquery.fec.gov/cgi-bin/fecimg/?_2017
01319042260933+0 (last visited June 28,
2018).

148a
50.

“Unrestricted funds are more valuable to national party committees and their candidates
than funds that may only be used for particular categories of expenses.” FEC’s Proposed
Facts at 9.

51.

The RNC and Donald J. Trump for President,
Inc., entered a joint fundraising agreement
during the 2016 presidential election. See
Def.’s Opp’n, Ex. 34, Excerpt of Production
from Republican National Committee to the
Def.’s Subpoena to Produce Documents, ECF
No. 26-38. According to that agreement, any
donations to the joint fundraising committee
that exceeded the maximum that could be
donated to Trump’s campaign would be allocated first to RNC’s general operating account up to the General Party Limit. Id. at 8.
Only after the contributor reached the
General Party Limit would contributions be
allocated to RNC’s segregated accounts pursuant to the Segregated Account Limit. Id.

52.

The specialized purpose limit applicable to
national party committees’ legal expenses allows parties to engage in litigation without
having to reduce their general political advocacy. For example, RNC spokeswoman Cassie
Smedile recently explained that paying for
legal expenses “with funds from a pre-existing legal proceedings account [ ] [did] not reduce by a dime the resources we can put
towards our political work.” Def.’s Opp’n, Ex.
35, Matea Gold, RNC Taps Legal Account to
Help Pay for Lawyers for President Trump

149a
and Son Donald Jr. in Russia Probes, WASH.
POST. (Sept. 20, 2017), ECF No. 26-39.
IV.

Political Parties and Quid Pro Quo Corruption
53.

Because of the close relationship between
parties and candidates, contributions to parties can lead to the actuality and appearance
of quid pro quo corruption. National political
parties are “inextricably intertwined” with
their federal officeholders and candidates,
with whom they “enjoy a special relationship
and unity of interest.” McConnell v. FEC, 540
U.S. 93, 145, 155 (2003) (internal quotation
marks and citation omitted), overruled by
Citizens United v. FEC, 558 U.S. 310 (2010).
In fact, “[t]here is no meaningful separation
between the national party committees and
the public officials who control them.” Id. at
155 (citations omitted).

54.

“Once elected to legislative office, public officials enter an environment in which political
parties-in-government control the resources
crucial to subsequent electoral success and
legislative power. Political parties organize
the legislative caucuses that make committee assignments.” Id. at 156 (internal quotation marks and citation omitted). Thus,
“officeholders’ reelection prospects are significantly influenced by attitudes of party leadership,” id. (citing Krasno & Sorauf Expert
Report), and an individual Member’s stature

150a
and responsibilities vary dramatically depending on whether his party is in the majority or in the minority.
55.

Parties are not like regular political committees. Non-connected committees “do not select slates of candidates for elections,”
“determine who will serve on legislative committees, elect congressional leadership, or organize legislative caucuses,” but these
activities count among the parties’ core responsibilities. Id. at 188 (“Political parties
have influence and power in the Legislature
that vastly exceeds that of any interest
group. . . . [P]arty affiliation is the primary
way . . . voters identify candidates,” and
therefore parties have special relationships
with those who hold public office.). “A primary goal of all the major political parties is
to win elections.” Cao v. FEC, 688 F. Supp. 2d
498, 527 (E.D. La.), aff ’d sub nom. In re Cao,
619 F.3d 410 (5th Cir. 2010); see also id. (“The
ultimate goal of a political party is to get as
many party members as possible into elective office, and in doing so to increase voting
and party activity by average party members.” (quoting declaration of former Representative Meehan)).

56.

This overriding purpose makes political parties particularly susceptible to contributors
who want to create a quid pro quo relationship with an officeholder. As the Supreme
Court has explained:

151a
Parties are [ ]necessarily the instruments
of some contributors whose object is not
to support the party’s message or to elect
party candidates across the board, but
ratherto [sic] support a specific candidate
for the sake of a position on one narrow
issue, or even to support any candidate
who will be obliged to the contributors.
FEC v. Colo. Republican Fed. Campaign
Comm’n, 533 U.S. 431, 451–52 (2001); see
also id. at 452 (“[W]hether they like it or not,
[parties] act as agents for spending on behalf
of those who seek to produce obligated officeholders.”); id. at 455 (“In reality, parties . . .
function for the benefit of donors whose object is to place candidates under obligation, a
fact that parties cannot escape. Indeed, parties’ capacity to concentrate power to elect is
the very capacity that apparently opens
them to exploitation as channels for circumventing contribution and coordinated spending limits binding on other political
players.”).
57.

The national committees of the two major
parties—the Democratic Party and the Republican Party—are “both run by, and
largely composed of, federal officeholders and
candidates.” McConnell, 540 U.S. at 155. “The
President typically controls his party’s national committee, and once a favorite has
emerged for the presidential nomination of
the other party, that candidate and his
party’s national committee typically work
closely together.” McConnell v. FEC, 251

152a
F. Supp. 2d 176, 697 (D.D.C. 2003) (KollarKotelly, J.). The leaders of the two major parties are also the parties’ federal candidates,
officeholders, and important Congressional
leaders. Id. at 469 (“[T]he internal structure
of parties permits, for example, former U.S.
Senator D’Amato, who chaired the [RSCC]
from 1995–97, to at the same time serve as
chair of the Senate Banking, Housing, and
Urban Affairs Committee.”) (alterations in
original) (citation omitted).
58.

Similarly, LNC officials have run for federal
office as Libertarian Party candidates while
holding their offices with the LNC. For example, William Redpath is currently an at-large
member of the LNC, and he previously
served as the LNC’s national chair from July
2006 through May 2010 and as the LNC’s
treasurer three times. Redpath Decl. ¶ 1.
Redpath ran as a Libertarian Party candidate for United States Senate in 2008 and for
United States House of Representatives in
2010 and 2014. Id. As national chair, Redpath was the LNC’s “chief executive officer
. . . with full authority to direct [the LNC’s]
business and affairs.” LNC I, 930 F. Supp. 2d
at 178 (citation omitted). The LNC’s rules do
not bar its leaders from also running for federal office. Id.

59.

The public record contains significant evidence of actual and apparent quid pro quos
involving contributions to national, state,
and local parties. In the 1930s, Congress
enacted restrictions on contributions to

153a
national political parties in light of the notorious “Democratic campaign book” scandal,
in which federal contractors were forced to
buy books at hyper-inflated prices from the
Democratic party to assure that they would
continue to receive government business. 84
CONG. REC. 9598-99 (1939) (statement of
Rep. Taylor); see also Wagner v. FEC, 793 F.3d
1, 11–12 (D.C. Cir. 2015) (en banc) (“Congressman J. Will Taylor pointed to the coercion of contractors in the celebrated
Democratic campaign book scandal as a
prime example of political immorality and
skullduggery that should not be tolerated. 84
CONG. REC. 9598-99 (1939). Representative
Taylor recounted that, at the behest of the
Democratic National Committee, party representatives paid visits to government contractors, reminding each one of the business
he had received from the Government and
explaining that the contractor was expected
to buy a number of the party’s souvenir convention books—at $250 each—in proportion
to the amount of Government business he
had enjoyed.” (internal quotation marks
omitted)).
60.

In 1976, Armand Hammer was fined and
placed on probation after pleading guilty to
making an illegal contribution to President
Nixon’s reelection campaign. David Rampe,
Armand Hammer Pardoned by Bush, N.Y.
TIMES (Aug. 15, 1989), http://www.nytimes.
com/1989/08/15/us/armand-hammer-pardonedby-bush.html. Mr. Hammer contributed
$54,000 to the Nixon re-election campaign in

154a
the names of others, friends of a subordinate
at Occidental Petroleum. Id. The subordinate
was convicted of concealing the source of the
contribution. Id. In 1989, Mr. Hammer made
contributions exceeding $100,000 to the Republican Party and another $100,000 to the
Bush-Quayle Inaugural Committee. Marc
Lacey, Political Memo; Resurrecting Ghosts
of Pardons Past, N.Y. TIMES (Mar. 4, 2001),
http://www.nytimes.com/2001/03/04/us/
political-memo-resurrecting-ghosts-of-pardonspast.html. Shortly afterward, on August 14,
1989, President George H.W. Bush pardoned
Mr. Hammer for his illegal contribution to
President Nixon’s reelection campaign. Id.;
David Hoffman, Bush Signs Pardon for Armand Hammer, WASH. POST (Aug. 15, 1989),
https://www.washingtonpost.com/archive/
politics/1989/08/15/bush-signs-pardon-forarmand-hammer/b6cb4260-bbb1-40ae-a9d67f67ef4a7226/. In comparing the pardon to
President Bill Clinton’s later pardon of Marc
Rich, Representative Henry Waxman observed that “ ‘[t]he appearance of a quid pro
quo is just as strong in the Hammer case as
in the Rich case, if not stronger, since Mr.
Hammer himself gave the contribution.’ ”
Lacey, supra.
61.

In 1988, Edwin Cox, Jr. pled guilty to bank
fraud by falsifying collateral on an $80 million loan. Bank Fraud Guilty Plea, N.Y. TIMES
(June 17, 1988), http://www.nytimes.com/1988/
06/17/business/bank-fraud-guilty-plea.html.
According to CNN’s matching of Cox family
members with contribution records, from

155a
1980 to 2000 that family contributed approximately $200,000 to campaigns of President
George H.W. Bush, his relatives, and Republican campaign committees. Kelly Wallace,
Former President Bush Granted Last Minute
Pardon to Contributor’s Son, CNN (Mar. 7,
2001, 1:57 PM), http://www.cnn.com/2001/
ALLPOLITICS/03/07/bush.pardon/. In addition to contributing to these various campaigns, Cox’s father, Texas oilman Edwin L.
Cox, Sr., coordinated political support for the
pardon. See id. On November 24, 1992, former White House chief of staff James Baker
wrote to the White House counsel, copying
the president, that “[f ]ormer Texas Gov. Bill
Clements called me and asked me whether
or not the president would consider a pardon
for Edwin Cox, son of Ed Cox, who is a longtime supporter of the president’s.” Id. On
January 18, 1993, two days before leaving
the White House, President Bush pardoned
Mr. Cox for his bank fraud conviction. Id. After the pardon, Edwin Cox, Sr. donated at
least $100,000 to the George Bush Presidential Library. Id.; Michael Weisskopf, A Pardon, a Presidential Library, a Big Donation,
TIME (Mar. 6, 2001), http://content.time.com/
time/nation/article/0,8599,101652,00.html
(noting that Edwin Cox, Sr.’s “name is etched
in gold as a ‘benefactor,’ those whose donations amount to between $100,000 to
$250,000”).
62.

In McConnell, the record documented that,
as one former senator described, “ ‘[l]arge
soft money contributions in fact distort the

156a
legislative process. They affect what gets
done and how it gets done. . . . [M]ake no
mistake about it—this money affects outcomes.’ ” 251 F. Supp. 2d at 496 (quoting Sen.
Rudman).
63.

As another Senator testified:
It is not unusual for large contributors to
seek legislative favors in exchange for
their contributions. A good example of
that which stands out in my mind because it was so stark and recent occurred
on the next to last day of the 1995-96 legislative session. Federal Express wanted
to amend a bill being considered by a
Conference Committee. . . . This was
clearly of benefit to Federal Express,
which according to published reports had
contributed $1.4 million in the last 2-year
cycle to incumbent Members of Congress
and almost $1 million in soft money to the
political parties. I opposed this in the
Democratic Caucus, arguing that even if
it was good legislation, it should not be
approved without holding a hearing, we
should not cave in to special interests.
One of my senior colleagues got up and
said, ‘I’m tired of Paul always talking
about special interests; we’ve got to pay
attention to who is buttering our bread.’ I
will never forget that. This was a clear example of donors getting their way, not on
the merits of the legislation, but just because they had been big contributors. I do

157a
not think there is any question that this
is the reason it passed.
McConnell, 251 F. Supp. 2d at 482 (quoting
former Sen. Simon); see also Colo. Republican, 533 U.S. at 451 n.12 (quoting Senator Simon’s statement that “I believe people
contribute to party committees on both sides
of the aisle for the same reason that Federal
Express does, because they want favors.
There is an expectation that giving to party
committees helps you legislatively.”).
64.

In July 1995, the Department of Interior denied an application by three bands of Wisconsin Indian tribes to open a casino in
Hudson, Wisconsin. S. REP. NO. 105-167, pt.
1, at 44–45 (1998). Initially, the application
was approved by a branch office of the Bureau of Indian Affairs (“BIA”). Id. at 44. A
wealthy group of neighboring tribes in Minnesota, who operated a competing casino,
hired a prominent lobbyist and former DNC
treasurer, who spoke personally with President Clinton and officials of the DNC. Id. Following their meeting, DNC officials promised
to talk to the White House and have them
contact Secretary of the Interior Bruce Babbitt. Id. at 45. Meanwhile, a career BIA employee had drafted “a 17-page analysis
recommending approval of the Hudson application.” Id. According to testimony provided to a Senate Committee, Secretary
Babbitt felt pressure from the White House
to make a determination quickly on the application and was aware of tribal “political

158a
contributions” to the DNC and state Democratic parties. Id. (recalling that Secretary
Babbitt remarked to the applicant tribes’ attorney, “Do you have any idea how much
these Indians, Indians with gaming contracts . . . have given to Democrats? . . .
[H]alf a million dollars.”). Ultimately, the application was denied. Id. In the four months
following the application’s denial, “the opposition tribes contributed $53,000 to the DNC
and the DSCC . . . an additional $230,000 to
the DNC and the DSCC during 1996, and . . .
more than $50,000 in additional money to
the Minnesota Democratic Party.” Id. “There
is strong circumstantial evidence that the Interior Department’s decision to deny the
Hudson application was caused in large part
by improper political considerations, including the promise of political contributions
from opposition tribes.” Id., pt. 2, at 3168; see
also id. at 3193 (“From all the circumstances,
there appears to be a direct relationship between the activities of the Department of the
Interior and contributions received by the
DNC and DSCC from the opposition tribes.”).
Political donations to the DNC and the Minnesota Democratic Party “apparently succeeded in purchasing government policy
concessions.” Id., pt. 1, at 45 (emphasis in
original); see also McConnell, 540 U.S. at
164–65,165 n.61 (discussing the episode in
connection with of the governmental interests
underlying § 30125(b)).
65.

Between 1995 and 1996, Roger Tamraz contributed approximately $300,000 to the DNC

159a
and various state Democratic parties to gain
support for an oil-pipeline project in the Caucuses, which was opposed by the National Security Council (“NSC”) and other executive
branch agencies. See generally S. REP. NO.
105-167, pt. 2, at 2907–31. NSC staff developed a policy of denying Mr. Tamraz “highlevel U.S. Government access” to discuss the
pipeline. Id. at 2911. To circumvent this policy, Mr. Tamraz met with DNC officials and
began contributing to the DNC and state
Democratic parties. See id. at 2912–13. All
told, “by the end of March 1996 Tamraz had
made contributions totaling $100,000 to the
Virginia Democratic Party, $25,000 to the
Virginia Legislative Conference, $20,000 to
[Richard] Molpus[‘s] campaign [for governor
of Mississippi], $25,000 to the Louisiana
Democratic Party, and $130,000 to the DNC.”
Id. at 2913–14. In addition, Mr. Tamraz contributed “ ‘10 [or] 20’ thousand dollars either
to Senator [Ted] Kennedy’s campaign or to
the Massachusetts Democratic Party.” Id. at
2915. DNC officials “went to great lengths in
an attempt to provide Tamraz the ‘political
leverage’ he sought in his Caspian ventures.”
Id. at 2913. Their efforts included providing
pressure from White House and Department
of Energy officials to change the U.S. Government’s position on the pipeline. See id. at
2928–30. While Mr. Tamraz was not ultimately successful “in persuading the U.S.
Government to support his pipeline,” the
Committee Report notes he “succeeded
through his political contributions, and

160a
apparently the promise of additional donations, in enlisting senior United States officials in his attempt to change the working
group’s policy on Caspian energy issues.” Id.
at 2930. Undeterred by his White House rebuke, Mr. Tamraz also approached officials at
the Overseas Private Investment Corporation, an independent U.S. Government
agency whose president was Ruth Harkin.
Id. at 2929. Mr. Tamraz contributed “$35,000
to the Iowa Democratic Party at the request
of Ruth Harkin’s husband, Senator Tom
Harkin of Iowa.” Id.
66.

As explained by the D.C. Circuit in Wagner v.
FEC, there were a “series of quid pro quos”
made by the former lobbyist Jack Abramoff
and former Representative Bob Ney. 793 F.3d
1, 15 (D.C. Cir. 2015).

67.

Abramoff, who pled guilty in 2006 to corruption charges and served time in prison, has
written a book about how he and fellow lobbyists made campaign contributions to a
range of political committees as part of a
strategy to obtain political favors. See generally JACK ABRAMOFF, CAPITOL PUNISHMENT:
THE HARD TRUTH ABOUT WASHINGTON CORRUPTION FROM AMERICA’S MOST NOTORIOUS
LOBBYIST (2011).

68.

Abramoff ’s book describes a 1995 meeting
involving former House Majority Whip Tom
DeLay and executives from Microsoft. Id. at
64–65. The issue being discussed was “software program encryption export.” Id. Once

161a
“DeLay expressed his general support for
their positions and reminded [the executives] that it was likely to be the Republicans
who would defend the freedom they required
to develop their company,” he made a “soft
appeal for political contributions from the
company.” Id. at 65. When one of the executives “firmly brushed off ” the solicitation,
DeLay delivered a “stern message”: he told
the executives a story about an earlier time
when Walmart had suffered by refusing to
“ ‘sully their hands’ ” by making a contribution. Id. That refusal backfired a year later
when Walmart could not get DeLay to “ ‘sully
his hands’ ” with a request to get a highway
ramp near one of their stores. Id. Once DeLay related this story, the “quivering executives” “finally got the joke.” Id. “A $100,000
check was soon delivered to the [National]
Republican Congressional Committee, and
Microsoft’s relationship with the American
right commenced.” Id.
69.

In 2002, in exchange for former Representative Ney’s commitment to add to the Help
America Vote Act (“HAVA”) language to reopen a casino owned by the Tiguas, a Texas
Indian tribe that Abramoff represented,
Abramoff arranged for lavish contributions
to be made by tribal officials to or on Ney’s
behalf, including at least $32,000 in contributions “to Ney’s campaign and political . . .
committees.” James V. Grimaldi & Susan
Schmidt, Lawmaker From Ohio Subpoenaed
in Abramoff Case, WASH. POST (Nov. 5, 2005),

162a
http://www.washingtonpost.com/wp-dyn/
content/article/2005/11/04/AR2005110401197.
html; FEC Opp’n, Ex. 38, Factual Basis for
Plea of Robert W. Ney (“Ney Factual Proffer”)
¶ 10(a)(ii), ECF No. 26-42; see FEC Opp’n,
Ex. 37, Factual Basis for Plea of Jack A.
Abramoff (“Abramoff Factual Proffer”) ¶¶ 20,
22, ECF No. 26-41. On March 20, 2002, Ney
agreed to “move forward” with the plan to
slip into the HAVA an “abstruse” sentence
drafted by Abramoff ’s office that “would
magically open the doors to the Tigua casino.” ABRAMOFF, supra, at 197–198, 205–06;
id. at 198 (referencing the abstruse sentence:
“Public Law 100-89 is amended by striking
section 207 (101 Stat. 668, 672)”); see also
Ney Factual Proffer ¶ 10(a)(ii). Abramoff had
the Tiguas make “substantial campaign contributions.” Ney Factual Proffer ¶ 9(d) (admitting receipt of substantial campaign
contributions from Abramoff ’s clients in exchange for performing official acts). Furthermore, on March 22, 2002, two days after the
agreement, the Tiguas donated another
$30,000 to the National Republic [sic] Senatorial Committee (“NRSC”). NRSC Report of
Receipts and Disbursements at 871, http://
docquery.fec.gov/cgi-bin/fecimg/?22020272668
(last visited June 28, 2018); see also
ABRAMOFF, supra, at 197 (noting a strategy to
prepare for a “backlash” through a strategy
of “Tigua contributions to the Republican
Party,” which would help “construct a cadre
of supporters”). According to Abramoff, Senator Christopher Dodd gave his “assent” in

163a
mid-April 2002 to the plan “and a request for
a $50,000 contribution to the Democrats in
Dodd’s name.” ABRAMOFF, supra, at 206; see
also id. at 206, 210 (explaining that
Abramoff ’s associate assured Abramoff that
he would cover the requested contribution
“from the budget the Tiguas had provided
him,” and that neither of them considered
that this “ ‘contribution’ was, in fact, merely
a bribe;” according to Abramoff, Senator
Dodd reneged when he later got “cold feet”).
70.

In his book, Abramoff described his approach
to lobbying:
As a lobbyist, I thought it only natural
and right that my clients should reward
those members who saved them such substantial sums with generous contributions. This quid pro quo became one of the
hallmarks of our lobbying efforts. . . .
Since the tribes I represented lived and
died by what the Congress did to and for
them, and since they had comparatively
unlimited funds, we were in the position
to deliver millions of dollars in legal political contributions, and did.
ABRAMOFF, supra, at 90; see also McConnell,
251 F. Supp. 2d at 495 (quoting an affidavit
of the lobbyist Daniel Murray: “I advise my
clients as to which federal office-holders (or
candidates) they should contribute and in
what amounts, in order to best use the resources they are able to allocate to such efforts to advance their legislative agenda.

164a
Such plans also would include soft money
contributions to political parties and interest
groups associated with political issues.”); id.
(“To have true political clout, the giving and
raising of campaign money for candidates
and political parties is often critically important.” (quoting lobbyist Wright Andrews)).
71.

Abramoff also explained:
The regularity with which my staff would
return from congressional offices with request for funds, on the heels of our asking
for help should have disturbed me, but it
didn’t. It was illegal and wrong, but it
didn’t register as abnormal in any way. I
was so used to hearing senator so-and-so
wants $25,000 for his charity, or representative X wants $50,000 for the Congressional Campaign Committee, that I
would actually double check with my staff
when they didn’t request lucre for the legislators. The whole process became so perfunctory it actually seemed natural.
ABRAMOFF, supra, at 206.

V.

The LNC’s Major Donor Network
72.

“Just like the major parties, the LNC offers
its donors membership in various majordonor groups that provide ‘certain perks’ and
benefits. For example, an LNC donor can become a member of the ‘Chairman’s Circle’ for
$25,000 annually or $2,500 monthly, and in

165a
return, receive ‘[d]irect contact with [the]
National Chair, POTUS [President of the
United States] nominee, or significant
L[ibertarian] P[arty] candidate during [the]
campaign season.’ Chairman’s Circle members also receive ‘VIP Seating . . . with [the]
National Chair, LNC officer, special guest, or
POTUS nominee at [the] National Convention banquet or other events.’ The LNC also
offers membership in major-donor groups for
annual donors of $15,000 (‘Select Benefactor’), $5,000 (‘Beacon of Liberty’), $2,500 (‘Pioneer of Freedom’), or $1,500 (‘Lifetime
Founder’). In addition to predetermined benefits, LNC staff has the ‘discretion to create
and bestow additional benefits’ upon its major-donor group members.” LNC I, 930
F. Supp. 2d at 179–80 (citations omitted); see
also LNC Policy Manual at 36–38.
73.

“The LNC offers a monthly pledge program
in which donors can agree to give a recurring
monthly contribution to the LNC, and the
LNC will automatically charge the donor’s
credit card or checking account. The monthly
pledges continue indefinitely until the donor
decides to end the donations.” LNC I, 930
F. Supp. 2d at 180 (citations omitted).

74.

“Members of the LNC’s top five major-donor
groups are also granted membership in the
LNC’s ‘Torch Club,’ which entitles members
to attend a special Torch Club event at the
LNC’s national convention. The Libertarian
Party’s federal candidates can attend this
special event so long as they are also Torch

166a
Club members, and William Redpath attended the event while serving as the LNC’s
national chair and running as a Libertarian
Party candidate for federal office.” LNC I,
930 F. Supp. 2d at 180 (citations omitted); see
also LNC Policy Manual at 38.
75.

“The LNC offers the benefits of major-donorgroup membership as an inducement to
hopefully have people increase their contributions. And the inducement has worked, as
the groups have been effective in attracting
larger donations for the LNC. Donations
from the relatively small group of donors
who are members of the LNC’s major-donor
groups account for a substantial percentage
of LNC revenue.” LNC I, F. Supp. 2d at 181
(internal quotations and citations omitted).

76.

“The LNC could potentially grant someone
membership in one of its major-donor groups,
such as the Chairman’s Circle, if the person
showed the LNC his or her will providing for
a bequest large enough to qualify for membership or if the person threatened to revoke
such a bequest.” Id. at 187 (citation omitted).

77.

“If individuals informed the LNC that they
intended to leave the LNC a bequest upon
death, the LNC would be thankful to them
for possibly leaving a gift for the LNC someday, since the LNC needs more money. And
the LNC would be grateful to these potential
future donors for the possible contributions
even though the donors could revoke their

167a
bequests before death.” Id. (internal quotations omitted and citation omitted).
78.

“[I]ndividuals have bequeathed very large
amounts of money to non-profit organizations. For example, in 2005, the National Rifle Association received a $1 million bequest
from a member and donor. And in 2003,
philanthropist Joan Kroc bequeathed more
than $200 million to National Public Radio,
an amount almost double its then-annual
budget.” Id.at 182 (citations omitted).

79.

“Philanthropists recognize that there is potential to raise great sums of money via bequests. For example, in 2009, Bill Gates and
Warren Buffet started an effort to convince
the 400 wealthiest Americans to pledge ‘at
least 50% of their net worth to charity during
their lifetimes or at death.’ ” Id. (citation
omitted). In 2015, Facebook founder Mark
Zuckerberg and his wife committed to giving
99% of their Facebook shares—then valued
at more than $45 billion—to charity during
their lives. Vindu Goel & Nick Wingfield,
Mark Zuckerberg Vows to Donate 99% of
His Facebook Shares for Charity, N.Y. TIMES
(Dec. 1, 2015), https://www.nytimes.com/2015/
12/02/technology/mark-zuckerberg-facebookcharity.html.

80.

“Many non-profit organizations have sophisticated planned-giving programs that solicit
bequests and other forms of planned giving,
such as the National Rifle Association, the
Nature Conservancy, the American Civil

168a
Liberties Union, and the NAACP Legal Defense Fund. Planned-giving consultants advise groups looking to increase their
fundraising on how to more effectively solicit
bequests.” LNC I, F. Supp. 2d at 182–83 (citations omitted).
81.

“Political parties are ‘primarily concerned
with electing their candidates’ to office.” Id.
at 178 (quoting McConnell, 251 F. Supp. 2d
at 469 (Kollar-Kotelly, J.)). “They have no
economic interests apart from this ultimate
goal, and thus ‘the money they raise is spent
assisting their candidates’ campaigns.’ ” Id.
(quoting McConnell, 251 F. Supp. 2d at 469–
70 (Kollar-Kotelly, J.)). As a former member
of Congress explained:
The ultimate goal of a political party such
as the Democratic Party is to get as many
Party members as possible into elective
office, and in doing so to increase voting
and Party activity by average Party members. The Party does this by developing
principles on public policy matters the
Party stands for, and then by finding candidates to run for the various political offices who represent those principles for
the Party. When the Party finds its candidates, it tries to raise money to help get
like-minded people to participate in the
elections, and to try to get the Party’s candidates the resources they need to get
their message out to voters.
Id. at 178–79.

169a
82.

“Similarly, it is the LNC’s mission to move
public policy in a Libertarian direction by . . .
nominating candidates for political office
that are Libertarian and trying to get them
elected. It is the LNC’s goal to have a Libertarian president and a Libertarian Congress
and Libertarians elected to governorships
and state general assemblies, state legislatures. As the LNC told a donor in 2003, the
LNC is in the business of winning elections
and the donor’s gift goes towards making
that happen.” LNC I, 530 F. Supp. 2d at 179
(internal quotations and citations omitted).

83.

“The LNC spends the bulk of its resources on
obtaining access to the ballot for its candidates. Obtaining ballot access is probably the
most important thing the [LNC] does, since
the LNC’s role in this electoral system is to
field as many candidates . . . as possible for
federal and state and local offices[.]” Id. (internal quotations and citations omitted).
“Thus, the LNC funds petition drives for the
party’s federal candidates and works closely
with its presidential candidate’s campaign
on ballot-access issues.” Id. (citations omitted).

84.

“In order to receive financial support from
the LNC, Libertarian Party candidates must
be certified as Libertarian candidates by the
governing board of the party in their state
and must not support any Presidential ticket
other than the Libertarian Party’s presidential ticket. The LNC has the power to take
the Libertarian Party nomination away from

170a
a presidential ticket that fails to conduct its
campaign in accordance with the party’s
platform.” LNC I, 930 F. Supp. 2d at 179 (citations omitted); see also LNC Policy Manual
at 43.
85.

“Individuals have bequeathed contributions
directly to federal candidates and their authorized political committees.” LNC I, 930
F. Supp. 2d at 190 (citation omitted). “Such
contributions are subject to FECA’s limit on
contributions to ‘any candidate and his authorized political committees.’ ” Id. (quoting
52 U.S.C. § 30116(a)(1)(A)).

86.

For example, the Estate of Louise Welch
made a $2,600 contribution to Yarmuth for
Congress in 2013. Clark Decl., Ex. B, FEC
Form 3X, ECF No. 24-22. In 2007, the Estate
of Shirley Bogs made a $2,100 contribution
to Kucinich for President 2008. Clark Decl.
¶ 15, tbl.6. And in 2006, the Estate of William G. Helis made a $2,100 contribution to
Committee to Re-Elect Bobby Jindal. Id.

87.

“Before BCRA banned soft-money donations
to national party committees in 2002, the
committees could accept the full amount of a
bequest from an estate so long as the committees designated the amount in excess of
FECA’s contribution limit as soft money—
that is, funds purportedly to be used for nonfederal-election purposes.” LNC I, 930 F.
Supp. 2d at 183.

88.

“As a result, when soft-money donations to
national party committees were legal,

171a
estates were able to donate the entire
amount of a large bequest in one lump sum.
For example, in 2002, the Estate of Martha
Huges donated $390,000 from a bequest to
the DNC. In 1999, the Estate of Lola Cameron donated $141,988 from a bequest to the
RNC. In 1997, the Estate of Gwendolyn Williams donated $133,829 from a bequest to
the DNC. And in 2002, the Estate of Joan
Shepard donated $80,000 to the RNC.” Id. at
183 (citations omitted).
VI.

The Specialized Purpose Regime’s Impact
on the LNC
89.

“The Libertarian Party’s ability to influence
elections is in some measure related to its
ability to raise and expend money.” Sarwark
Decl. ¶ 53. “The LNC needs, and would prefer, to spend its funds in order to directly
speak to the electorate about its ideology and
political mission, to support its candidates,
and to build its institutional capability, including its ability to regularly qualify for the
ballot in various states.” Id.

90.

“LNC’s ability to solicit donations depends in
part on having adequate financial resources
on hand.” Id. at ¶ 54. “Donors, voters, and
prospective political candidates who might
be attracted to the party’s ideology are nonetheless dissuaded from supporting the party
by its lack of resources.” Id.

91.

Absent the annual contribution limit, the
LNC would utilize donations exceeding such

172a
limit for political expression, including improving the party’s access to ballots, promoting awareness of the party and its ideology,
and supporting candidates for state and federal office. Id. ¶ 56.
92.

VII.

“The LNC is confident that it could identify
and develop additional donors who would
give beyond the base annual contribution
limit (currently $33,900), but refrain from
doing so because it is illegal to give larger
amounts without restriction and they do not
perceive sufficient value in donations that
carry the government’s purpose restrictions.”
Id. ¶ 58. “The LNC would also be better able
to attract larger testamentary bequests if
the donors would know that a larger portion
of their bequest would be immediately effective.” Id.

Testamentary Contributions
93.

“[I]t is possible for a bequest to raise valid
anti-corruption concerns,” as the LNC has
“concede[d].” LNC I, 930 F. Supp. 2d at 166.

94.

As a general matter, nothing prevents a living person from informing the beneficiary of
a planned bequest about that bequest. FEC’s
Proposed Facts at 8.

95.

In the past, “associates of a decedent who has
left a bequest for a national party committee
[have] inform[ed] specific federal officeholders or candidates of the bequest.” LNC I, 930
F. Supp. 2d at 188. “In 2009, an attorney

173a
representing the co-trustees of a trust holding a bequest of over $100,000 for the Democratic Party wrote a letter to United States
Senator Frank Lautenberg informing him of
the bequest.” Id. “The attorney stated that
his ‘good friend and accountant’ who ‘had interactions with [the Senator] in his role as a
director of Holy Name Hospital’ suggested
that he alert the Senator to the bequest.” Id.
at 189 (alteration in original) (citations omitted). “The attorney sent Senator Lautenberg
a copy of the trust documents and in doing so
highlighted the fact that the bequest was for
more than $100,000.” Id.
96.

“In April 2009, the LNC learned that it was
to receive a $10,000 bequest from the estate
of James Kelleher.” Id. “Upon learning of the
bequest in an e-mail, the LNC’s thennational chair asked, ‘Whom do we thank?,’
even though Kelleher was deceased.” Id. (citations omitted). “According to the LNC, in
the case of a bequest it ‘would be reasonable
to thank anybody who was helping to [e]ffect
the donation’ to the LNC, including ‘[p]ossibly the executor. Possibly the estate administrator or the estate attorney.’ ” Id.
(alterations in original) (citations omitted).
“As the LNC sees it, ‘[s]omebody is doing
something to give $10,000 to the [LNC], even
if a penny is not coming out of their pocket,
it is not inappropriate and mighty inexpensive to say thank you.’ ” Id. (alterations in
original) (citations omitted). “For the Kelleher bequest, the LNC’s director of operations
directed a colleague to send a thank you note

174a
to the executor of the Kelleher estate.” Id. (citations omitted).
97.

The LNC has been informed by living persons that those persons planned to make
large bequests to the LNC. Those persons include Michael Chastain (value of bequest estimated to be between $500,000 and
$1,000,000) and Dominick Frollini (value of
bequest estimated to be between $25,000
and $75,000). Chastain Decl. ¶ 8; Def.’s
Opp’n, Ex. 12, Frollini LNC Estate Planning
Email, ECF No. 26-16.

98.

Another living person, William Redpath, has
informed the LNC that he would leave a
large bequest, with a value estimated at $1.1
million, to fund a trust charged with furthering ballot access and electoral reform, but
that he would prefer to leave an unrestricted
contribution if it would not be subject to the
current FECA contribution limits. Redpath
Decl. ¶¶ 3–5.

99.

“If a national party committee discovered
that an individual planned to bequeath it a
contribution or donation, the national party
committee, its candidates, or officeholders
could, in exchange, grant that individual political favors.” LNC I, 930 F. Supp. 2d at 186.
“A bequest may also help friends or family of
the deceased in securing meetings with federal officeholders and candidates.” Id. at 166.

100. “An individual can revoke a request before
death, and . . . this possibility creates an incentive for a national party committee to

175a
limit the risk that a planned bequest will be
revoked.” Id. at 186. “An individual’s revocable promise to bequeath a contribution” in
the future “could cause that political party,
its candidates, or its office holders to grant
political favors to the individual in the hopes
of preventing the individual from revoking
his or her promise.” FEC’s Proposed Facts at
7. Political committees “could feel pressure to
. . . ensure that a (potential) donor is happy
with the committee’s actions lest [that donor]
revoke the bequest.” LNC I, 930 F. Supp. 2d
at 167.
101. “A living person may alter his or her estate
planning documents at any time before
death for any reason, including that a candidate, office holder, or political party votes or
takes a political position contrary to the person’s wishes.” FEC’s Proposed Facts at 8.
102. Estates have contributed more than $3.7
million in bequeathed funds to recipients
that must file reports with the FEC, according to FEC records dating from 1978 through
August 2, 2017. Clark Decl. ¶¶ 1–4. The actual amount of bequeathed funds is likely
even higher, because reporting entities are
not required to inform the FEC that a particular contribution they received came from a
bequest, and if they choose to do so anyway,
they are not required to report this information in any standardized manner. Id. ¶ 5.
For example, the LNC’s disclosures regarding the Shaber bequest at issue in this litigation do not indicate that the contributions

176a
are the result of a bequest. Id. “As a result,
Shaber’s bequest to the LNC is not reflected
in the totals described above.” Id. Bequests,
therefore, are likely underreported to the
FEC. See id.
103. National political party committees have reported bequeathed contributions that exceeded the General Party Limit. Clark Decl.
¶ 6 & tbl.1. For example, the Democratic
Congressional Campaign Committee (“DCCC”)
received $206,955.46 between 2014 and 2016
in bequeathed contributions from Robert
Bohna. Id. at tbl.1. The DCCC “accepted
$167,992.06 of the total bequest on December 31, 2014, with $32,400 of that amount going to the DCCC’s general account, and the
remainder going to the type of segregated accounts described in 52 U.S.C. § 30116(a)(9):
$38,392.06 of the contribution went into the
DCCC’s building fund, and $97,200 went to
the DCCC’s recount fund.” Id. ¶ 7. “In 2015,
the DCCC accepted an additional $32,400 of
the bequest into its general fund.” Id. “In
2016, the DCCC accepted an additional
$6,563.40 into its general fund.” Id.
104. “On January 13, 2017, the [RNC] accepted a
total of $100,000 from the Estate of Richard
Peter Belden by accepting $33,400 into its
general account and $66,600 into its headquarters account.” Clark Decl. ¶ 8.
105. “The [DNC] accepted $32,400 from the
Ronald L. Gabriel Trust in 2013 and again
in 2014.” Clark Decl. ¶ 9. “In 2015, DNC

177a
accepted $45,243.96 from the same trust by
accepting $32,400 into its general account
and an additional $12,843.96 into its convention account.” Id.
106. The “DNC also accepted $50,000 from the
Sarah Weatherbee Trust on April 4, 2015,
with $33,400 of that amount going to the
DNC’s general account and $16,600 going to
its convention account.” Id. ¶ 10. “The next
year, DNC accepted an additional $9,723.30
into its convention account.” Id.
107. The “LNC accepted $30,800 from the Estate
of Raymond Groves Burrington in 2012 and
again 2013. In 2014, the LNC accepted
$15,744.75 from the same estate.” Id. ¶ 11.
108. In 2010, the trustee of a trust holding a
$200,000 bequest to the DNC wrote a letter
to the then-chair of the DNC stating:
Due to the fact that mid-term elections
are upon us, I [am] working to get this
[contribution from the decedent’s bequest] out to you as quickly as possible. I
know it would be important to my friend,
Michael Buckley, who we called “Buckley.” Of course I cannot speak with him,
as he is deceased, but both of us were kindred spirits with regard to our political
views and had many, many discussions on
politics. As you can see by the fact that he
left the [DNC] 25% of his estate, it was a
very important thing to him. While I believe he would want you to use the money
in the way you think best, it is my

178a
heartfelt belief that he would want this
year’s money going towards defeating
Carly Fiorina and Meg Whitman in California. Buckley was a former employee of
Hewlett Packard under the reigns [sic] of
Carly Fiorina and he was not silent with
regard to how he felt about her. I think he
would be actively campaigning against
her and Meg Whitman, if he were alive today.
LNC I, 930 F. Supp. 2d at 188 (alteration in
the original) (citation omitted). “The trustee
then asked the DNC to let her know if the
money would in fact be used to help defeat
Fiorina and Whitman, because the decedent’s ‘friends would be pleased to know.’ ”
Id.
VIII. Joseph Shaber’s Bequest
109. Between 1988 and 2011, Joseph Shaber
made donations to the LNC in amounts
ranging from $10 to $300. Pet.’s Mot. Cert.,
Ex. E, Joseph Shaber Gift History, ECF 24-7.
The most that Mr. Shaber donated to the
LNC at any time during that period was
$300 in March 1997. Id. Between June 2011
and November 2012, Shaber donated $100
per month to the LNC. Id. In May 2012, he
donated an additional $100. Id.
110. In total, Mr. Shaber made 46 donations totaling $3,315 to the LNC. Id.

179a
111. Mr. Shaber’s contributions to the LNC made
him eligible to be a life member of the LNC
in 2012. Sarwark Dep. at 78:12–18.
112. “On May 20, 2013, LNC sent Joseph Shaber
an invitation to attend a VIP reception to be
held on July 12, 2013, to raise money for the
David F. Nolan Building Fund.” Def.’s Opp’n,
Ex. 5, Joint Stipulation ¶ 3, ECF No. 26-9; see
also Def.’s Opp’n, Ex. 14, LNC Invitation,
ECF No. 26-18. This event was held in conjunction with FreedomFest, a large, annual
convention for conservatives and libertarians. See Sarwark Dep. at 81:11–19; LNC Invitation at 3. The LNC typically participates
in FreedomFest by having a table at the
event and organizing breakout sessions to
attempt to recruit and solicit donors.
Sarwark Dep. at 82:1–10. Libertarian candidates frequently attend the event. Id. at
82:11–13.
113. Mr. Shaber was included on LNC in-house
mailing lists, Def.’s Opp’n, Ex. 3, Pet.’s Resps.
Def.’s Interrogatories at 1, ECF No. 26-7, to
which the LNC sends communications soliciting contributions, Sarwark Dep. at 17:7–21,
70:14–73:12. Mr. Shaber responded to some
of these solicitations with contributions to
the LNC. See Joseph Shaber Gift History.
114. By April 2012, Mr. Shaber had contributed
$750 to Ron Paul’s campaign in the Republican presidential primary. See Def.’s Opp’n,
Ex. 21, Shaber Contribution Receipt, ECF
No. 26-25. Although Ron Paul was then

180a
running for the Republican nomination, he
later switched to the Libertarian Party after
leaving federal office. LNC I, 930 F. Supp. 2d
at 173.
115. Without the LNC’s knowledge, the LNC was
made a beneficiary of the Joseph Shaber
Revocable Trust under a trust dated February 11, 2010. Sarwark Decl. ¶ 35.
116. The size of Mr. Shaber’s gift to the LNC was
contingent upon a variety of factors, including the value of Mr. Shaber’s property and
whether he would have grandchildren at the
time of his passing. See Pet.’s Mot. Cert., Ex.
G, Notice of Irrevocable Trust, ECF No. 24-9.
117. Mr. Shaber died on August 23, 2014, rendering the trust irrevocable. Id.; Pet.’s Mot.
Cert., Ex. F, Escrow Agreement at 1, ECF No.
24-8; Pet,’s Mot. Cert., Ex. H, FEC Advisory
Opinion 2015-05, ECF No. 24-10.
118. Mr. Shaber’s death prevents him from engaging in political expression, association, or
support. Def.’s First Objections & Resps. at 4;
Sarwark Decl. ¶ 43.
119. The LNC first had access to money from
Shaber’s bequest in 2015, and took the maximum $33,400 allowed for unrestricted purposes, in compliance with the FECA’s general
purpose limit, in February of that year. Decl.
of Robert Kraus, Operations Director, LNC
(“Kraus Decl.”) ¶¶ 2, 4, ECF No. 12-4; FEC
Advisory Opinion 2015-05 at 1–2.

181a
120. By the terms of the trust, the LNC was
named as the specific beneficiary of a
$50,000 monetary gift, plus a residual beneficiary of 25% of the remaining trust estate
after specific distributions were made. Notice
of Irrevocable Trust at 4–5. The LNC was
also a contingent beneficiary of an additional
25% of the residue of Mr. Shaber’s trust estate, which it would receive if Mr. Shaber
died with no grandchildren. Id. Mr. Shaber
did not have any grandchildren at the time
of his death. Def.’s Opp’n, Ex. 29, Email from
Michelle Lauer to William Hall at 1, ECF No.
26-33.
121. It was finally determined in September 2015,
that The LNC’s share of the Shaber trust was
$235,575.20. Escrow Agreement at 1.24
122. The LNC had sent Mr. Shaber a fundraising
appeal related directly to its headquarters
building. Sarwark Decl. ¶ 36.
123. Mr. Shaber specified that the LNC should
take his bequest “outright.” Notice of Irrevocable Trust at 5.
124. The FEC is unaware of any condition or limitation attached by Mr. Shaber to his bequest
to the LNC. Def.’s First Objections & Resps.
at 5.
24

Other aspects of the record suggest that the LNC’s share
of the Shaber trust was $225,000. See FEC Advisory Opinion
2015-05 at 1–2. The parties seem to agree that the LNC’s share
of the trust was $235,575.20, however, see Def.’s Resps. Pet.’s Proposed Facts at 33, and thus the Court so finds.

182a
125. The FEC is unaware at this time of any quid
pro quo arrangement related to Mr. Shaber’s
bequest to the LNC. Def.’s First Objections &
Resps. at 3.
126. The Trustee of Shaber’s Trust could not impose restrictions on Mr. Shaber’s bequest
that Mr. Shaber did not himself place. FEC
Advisory Opinion 2015-05 at 2.25
127. The LNC would accept and spend the entire
amount of the Shaber bequest for its general
expressive purposes, including expression in
aid of its federal election efforts. Sarwark
Decl. ¶ 38.
128. On September 15, 2015, the Trust and the
LNC agreed to deposit the remaining
$202,175.20 due to the LNC into an escrow
account. Def.’s Opp’n, Ex. 27, Escrow Agreement at 10, ECF No. 26-31. The escrow
agent, First International Bank & Trust, has
control over the annual distributions to the
LNC in amounts equal to the limitations of
federal campaign finance law, 52 U.S.C
§ 30116(a)(1)(B). Id. at 1. The Escrow Agreement instructs the Escrow Agent to invest
the funds in the escrow account in bank accounts or certificates of deposit, with all interest accruing to the benefit of the national
Libertarian Party, and to annually disburse
25

The FEC Advisory Opinion notes that “[t]he request [for
an advisory opinion] states that Ms. Shaber, as trustee, has no
power to require that the [LNC] accept its share in a way not required by the Settlor,” though does not present this assertion as
a fact. FEC Advisory Opinion 2015-05 at 2 (alterations omitted).

183a
the funds to LP at the maximum allowed permitted by contribution limits. Id.; Sarwark
Dep. at 93:15-19. The agreement explicitly
provides that LP may challenge the legal validity of the contribution limit, and demand
payment of the full amount remaining in the
account should its challenge succeed. Escrow
Agreement at 2.
129. To LNC’s knowledge, neither Mr. Shaber nor
anyone related to him or acting on his behalf
has had any relationship with the LNC, its
officers, board members, or candidates, apart
from Mr. Shaber’s contribution history.
Sarwark Decl. ¶ 41.
130. The LNC received a contribution of $33,400
on behalf of Mr. Shaber from the escrow account on January 29, 2016. Def.’s Opp’n, Ex.
19, 2016 Itemized Receipts, ECF No. 26-23.
131. The LNC has also received its maximum contribution from the Shaber trust for 2017.
Def.’s Opp’n, Ex. 18, 2017 Itemized Receipts,
ECF No. 26-22.
132. The LNC is prohibited from pledging, assigning, or otherwise obligating the anticipated
contributions before they are disbursed. FEC
Advisory Opinion 2015-05 at 4 n.5 (citing
FEC Advisory Opinion 2004-02).
133. Aside from pursuing its ideological and political mission, the LNC has provided nothing
of value to Mr. Shaber, or to anyone else, in
exchange for his bequest to the LNC.
Sarwark Decl. ¶ 42.

184a
134. Upon learning of the Shaber bequest, the
LNC removed Mr. Shaber from the membership rolls. Sarwark Decl. ¶ 44.
IX.

Other Potential Donors To The LNC
135. The LNC solicits potential contributors to include the LNC as a beneficiary in donors’ estate planning materials. See Def.’s Opp’n, Ex.
25, LNC Legacy Libertarians Email, ECF
No. 26-29. On March 27, 2017, the LNC sent
an email to 140,322 people on its contact list
informing them that the party had started a
planned giving program for people who want
to designate the Libertarian Party as a beneficiary in their will. Pet.’s Resps. Def.’s Interrogatories at 4. The email noted that the
“Libertarian Party will honor these generous
supporters by listing their names on a permanent plaque at our headquarters.” Id.
136. In response to this email, Nick Frollini wrote
to the LNC to explain that he had designated
the LNC as a beneficiary in his will and that
he estimated his bequest would be worth “between $25,000 and $75,000 at the time of
[his] passing.” Frollini LNC Estate Planning
Email at 1. The LNC’s Head of Development,
Lauren Daugherty, responded to the email
with an invitation to have dinner with the
LNC’s national chair. Id. Frollini did not ultimately attend the dinner. Sarwark Dep. at
68:2–4.
137. “If contribution limits did not apply to bequests, the LNC would increase its outreach

185a
about its planned giving program to its members who have a high capacity for giving.”
Pet.’s Resps. Def.’s Interrogatories at 4.
“Planned giving would take a more prominent place in the LNC’s donor cultivation via
in person meetings, online correspondence,
and traditional mail.” Id.
138. “Among the donations that the LNC would
solicit and accept in excess of the base annual contribution limit (currently $33,900)
would be donations from donors who have already given the base annual contribution
limit but stand ready to give more for unrestricted purposes if it were legal to do so, including Chris Rufer, Michael Chastain, the
Shaber escrow, the forthcoming Clinard escrow, and, at some point, the Redpath and
Chastain estates.” Sarwark Decl. ¶ 57.
a. Chris Rufer
139. Chris Rufer is a Libertarian who desires “to
maximize the ideals of the Libertarian Party
and to see them implemented through political action.” Rufer Decl. ¶ 1.
140. Rufer believes that “the Libertarian Party is
the only organization that seeks to directly
participate in and control the government,
with the aim of steering its functions according to libertarian principles.” Id. ¶ 1. Therefore, he “regularly donate[s] money to the
[LNC], and to Libertarian candidates.” Id. In
2016 alone, Rufer “donated over $900,000 to

186a
directly support the election of the LNC’s
candidates.” Id.
141. Rufer “trust[s] the LNC to effectively spend
funds advancing its mission, which [he] support[s].” Id. ¶ 2. He wishes to “maximize
LNC’s unrestrained ability to advocate its
message, and further [his] participation in
the LNC’s mission, by donating as much as
[he is] comfortably able to the LNC to be
spent freely in the LNC’s judgment.” Id. “The
government’s contribution limitations are
below the amount [Rufer] would freely give
the LNC this year, and in future years, to be
spent as the LNC sees fit.” Id.
142. Rufer says he wishes “to donate money to the
[LNC] to advance its mission, not to obtain
access to or the gratitude of any candidates
or officeholders.” Id. ¶ 3. Rufer has “no expectation of receiving any special access to candidates or officeholders if [he] were to donate
over $33,900 to the [LNC] in any given year,
to be spent for a particular purpose or without restriction.” Id.
143. Rufer has “donated over $280,000 directly to
the LNC over the years, including the maximum amounts allowed by law for unrestricted purposes this year, and in 2012,
2013, and 2016.” Id. ¶ 4.
144. Rufer “understand[s] that the government
now allows [him] to donate up to $339,000 to
the LNC per year, but not if the money would
be spent as the LNC wishes.” Id. ¶ 5. “Any
additional money [Rufer] would donate this

187a
year beyond the $33,900 he has already donated would come with government-imposed
strings.” Id. Accordingly, Rufer is “not giving
the LNC any additional money for the year.”
Id.
145. Rufer does “not want any part of [his] contribution this year restricted to spending on a
headquarters building, fees for election contests and other legal proceedings, and presidential nominating conventions.” Id. Rufer
does “not believe that the LNC has much use
for those spending purposes this year, and
any money spent for those purposes may not
communicate the same messages that the
LNC would otherwise communicate with
[his] donation.” Id.
146. Rufer “would donate funds to the [LNC] in
excess of the annual contribution limits for
general, non-segregated purposes and the
party’s spending for segregated account purposes, this year and . . . in future years, but
refrain[s] from doing so owing to the contribution limits and restrictions imposed by the
government.” Id. ¶ 6. Rufer understands that
he “face[s] a real threat of prosecution if [he]
were to violate the federal laws restricting
[his] ability to donate money to the [LNC],
and [he is] not willing to risk prosecution.”
Id.
147. “If it is determined that the [LNC] is not subject to the limitation for general, nonsegregated purposes, currently $33,900 per
year, such that donations exceeding that

188a
amount per year need not be dedicated to the
segregated purpose accounts, [Rufer] would
expect to donate to the Libertarian National
Committee in excess of that amount, this
year and in future years.” Id. ¶ 7.
b. Michael Chastain
148. Michael Chastain is a Libertarian who “desire[s] to maximize the ideals of the Libertarian Party and see them implemented
through political action.” Chastain Decl. ¶ 1.
149. Chastain believes that the “Libertarian
Party is the only organization that seeks to
directly participate in and control the government, with the aim of steering its functions according to libertarian principles.” Id.
¶ 1. Therefore, Chastain “regularly donate[s]
money to the [LNC] and to Libertarian candidates.” Id.
150. Chastain “trust[s] the LNC to effectively
spend funds advancing its mission, which
[he] support[s].” Id. ¶ 2. He “wish[es] to maximize LNC’s unrestrained ability to advocate
its message, and further [his] participation
in the LNC’s mission, by donating as much
as [he is] comfortably able to the LNC to be
spent freely in the LNC’s judgment.” Id. “The
government’s contribution limitations are
below the amount [Chastain] would freely
give the LNC this year, and in future years,
to be spent as the LNC sees fit.” Id.

189a
151. Chastain “wish[es] to donate money to the
[LNC] to advance its mission, not to obtain
access to or the gratitude of any candidates
or officeholders.” Id. ¶ 3. Chastain has “no expectation of receiving any special access to
candidates or officeholders if [he] were to donate over $33,900 to the [LNC] in any given
year, to be spent for a particular purpose or
without restriction.” Id.
152. “Thus far in 2017, [Chastain has] donated a
total of $60,310.01 to the [LNC].” Id. ¶ 4.
Chastain has “donated the maximum
$33,900 in unrestricted funds, and an additional $26,410.01 to the building fund.” Id.
153. Chastain “understand[s] that the government now allows him to donate up to
$339,000 to the LNC per year, but not if the
money would be spent as the LNC wishes.”
Id. ¶ 5. “Any additional money [Chastain]
would donate this year beyond the $33,900
he has already donated for unrestricted purposes would come with government-imposed
strings.” Id. Accordingly, Chastain is “not giving the LNC any additional money for the
year.” Id.
154. Chastain does “not want any additional part
of his contribution this year restricted to
spending on a headquarters building, fees for
election contests and other legal proceedings,
and presidential nominating conventions.”
Id. Chastain does “not believe that the LNC
has much use for those spending purposes
this year, and any money spent for those

190a
purposes may not communicate the same
messages that the LNC would otherwise
communicate with [his] donation.” Id.
155. Chastain “would donate funds to the [LNC]
in excess of the annual contribution limits
for general, non-segregated purposes and the
party’s spending for segregated account purposes, this year and in future years, but refrain[s] from doing so owing to the
contribution limits and restrictions imposed
by the government.” Id. ¶ 6. Chastain “understand[s] that he face[s] a real threat of
prosecution if [he] were to violate the federal
laws restricting [his] ability to donate money
to the [LNC], and [he is] not willing to risk
prosecution.” Id.
156. “If it is determined that the [LNC]is not subject to the limitation for general, non-segregated purposes, currently $33,900 per year,
such that donations exceeding that amount
per year need not be dedicated to the segregated purpose accounts, [Chastain] would
donate to the [LNC] in excess of that amount,
this year and in future years. Id. ¶ 7.
157. Chastain is “in the process of revising [his]
estate plan,” and “plan[s] to make the LNC a
contingent beneficiary in the amount of
$500,000-$1,000,000.” Id. ¶ 8.
158. Chastain “would not want the government to
impose any strings on how the LNC would
spend [his] bequest.” Id. Chastain “would not
want any part of his bequest to LNC restricted to spending on a headquarters

191a
building, fees for election contests and other
legal proceedings, and presidential nominating conventions.” Id. Chastain “would want
the LNC to have [his] bequest entirely without restriction.” Id.
159. Chastain “would not bequeath money to
LNC in an attempt to remain affiliated with
the party after [he is] dead.” Id. ¶ 9. “The
party does not have deceased members.” Id.
160. Chastain has “no idea who would be running
as a Libertarian Party candidate for any office at the time [his] estate would disburse
his assets to the Libertarian Party.” Id. ¶ 10.
Chastain “cannot predict who will run for office under the Libertarian banner in the future, and [he] hope[s] and expects to live
beyond the time through which the party’s
candidates, and the likely issues they would
espouse, may be currently foreseen.” Id.
161. Chastain has “not received any sort of benefit
whatsoever for promising to remember the
Libertarian Party in [his] will should the
contribution limits change.” Id. ¶ 11. “The
Party does not offer any benefits in exchange
for being remembered in an individual’s will,
apart from perhaps a simple expression of
gratitude.” Id.
c. William Redpath
162. William Redpath is “currently an at-large
member of the [LNC].” Redpath Decl. ¶ 1. He

192a
has “served as the Treasurer of the Libertarian Party three times, and served as the National Chair of the Libertarian Party from
July, 2006 through May, 2010.” Id. He has
also repeatedly “run for public office as a Libertarian.” Id.
163. Redpath is a Libertarian who “desire[s] to
maximize the ideals of the Libertarian Party
and see them implemented through political
action.” Id. ¶ 2. Redpath believes that “the
Libertarian Party is the only organization
that seeks to directly participate in and control the government, with the aim of steering
its functions according to libertarian principles.” Id. “Therefore, [Redpath] regularly donate[s] money to the [LNC] and to
Libertarian candidates.” Id. “Apart from [his]
time, over the years, [he has] contributed
over $100,000 to the LNC.” Id.
164. Redpath’s “last will and testament provides
that upon [his] death, 40% of his estate—a
portion of his anticipated estate that is currently valued at over $1.1 million—would
fund a trust charged with furthering ballot
access and electoral reform to benefit the
Libertarian Party.” Id. ¶ 3.
165. Redpath “would prefer, however, to leave this
seven-figure amount to the LNC as an unrestricted bequest.” Id. ¶ 4. Redpath “would
want [his] death to give expression to the
LNC cause that [he has] so steadfastly endorsed and advocated throughout [his] life,
and to assist in the LNC’s expression of its

193a
ideals and political program.” Id. Redpath
“trust[s] the LNC to effectively use [his] bequest for these expressive purposes, and
want[s] to maximize the LNC’s expression by
seeing that [his] bequest is given to the LNC
without restriction.” Id.
166. “But for the current contribution limits,
which limit the purposes for which the LNC
could spend [Redpath’s] bequest, [Redpath]
would immediately alter [his] last will and
testament to replace the current ballot access and electoral reform trust with an unrestricted donation of that same 40% of [his]
estate to the LNC.” Id. ¶ 5. Redpath “do[es]
not want any part of his bequest restricted to
spending on a headquarters building, fees for
election contests and other legal proceedings,
and presidential nominating conventions,
and [he] will not leave a sizable gift to the
LNC so long as these strings are attached to
the LNC’s ability to access [his] gift.” Id. Redpath “do[es] not believe that the LNC has
much use for those spending purposes in any
given year, and any money spent for those
purposes may not communicate the same
messages that the LNC might otherwise
communicate with [his] donation.” Id.
167. Redpath “would not bequeath money to LNC
in an attempt to remain affiliated with the
party after he is dead.” Id. ¶ 6. “The party
does not have deceased members.” Id.
168. Redpath has “no idea who would be running
as a Libertarian Party candidate for any

194a
office at the time his estate would disburse
assets to the Libertarian Party.” Id. ¶ 7. Redpath “cannot predict who will run for office
under the Libertarian banner in the future,
and [he] hope[s] and expect[s] to live beyond
the time through which the party’s candidates, and the likely issues they would espouse, may be currently foreseen.” Id.
169. Redpath has “not received any sort of benefit
whatsoever for promising to remember the
Libertarian Party in [his] will should the
contribution limits change.” Id. ¶ 8. “The
Party does not offer any benefits in exchange
for being remembered in an individual’s will,
apart from perhaps a simple expression of
gratitude.” Id.
d. Frank Welch Clinard, Jr.
170. “LNC has been left a testamentary bequest
by one Frank Welch Clinard, Jr. The bequest
does not specify any use restriction. Sarwark
Decl. ¶ 45; see also Pet.’s Mot. Cert., Ex. L,
Last Will and Testament of Frank Welch Clinard, Jr. at 3–4, ECF No. 24–14.
171. Between 1988 and 2008, Clinard had sporadically donated to the LNC, in small amounts
that totaled $1,625.30 throughout the time
period. See Pet.’s Mot. Cert., Ex. M, Donor
Clinard Gift History, ECF No. 24-15. Only
three times did his donations meet or exceed

195a
$100, with the highest donation amounting
to $159. See id.26
172. “To LNC’s knowledge, neither Clinard nor
anyone related to him or acting on his behalf
has had any relationship with the LNC, its
officers, board members, or candidates, apart
from
Clinard’s
contribution
history.”
Sarwark Decl. ¶ 47.
173. Clinard’s bequest to LNC totals $111,863.52.
Pet.’s Mot. Cert., Ex. N, Estate of Frank W.
Clinard, Jr. at 12, ECF No. 24-16.
174. “LNC would accept and spend the entire
amount of the Clinard bequest for its general
expressive purposes, including expression in
aid of its federal election efforts.” Sarwark
Decl. ¶ 48.
175. “LNC is in the process of establishing an escrow account so that it may receive the entirety of Clinard’s bequest for general
expressive purposes, without restriction.” Id.
¶ 49.
176. “Aside from pursuing its ideological and political mission, LNC has provided nothing of
value to Frank Clinard, or to anyone else, in

26

The Sarwark Declaration asserts that Clinard donated
$1,625.30 to the petitioner between 1996 (rather than 1988) and
2008. Sarwark Decl. ¶ 46. This appears to be a typographical error, which the parties inadvertently repeat, see Def.’s Resps. Pet.’s
Proposed Facts at 49, as Exhibit M to the petitioner’s memorandum shows that Clinard donated $1,625.30 to the petitioner between 1988 and 2008. See Donor Clinard Gift History.

196a
exchange for his bequest to the LNC.” Id.
¶ 50.
177. “Frank Clinard’s death prevents him from
engaging in political expression, association,
or support.” Id. ¶ 51.
178. “The LNC has removed Frank Clinard from
its membership rolls on account of his
death.” Id. ¶ 52.

197a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
LIBERTARIAN NATIONAL
COMMITTEE, INC.,
Civil Action
No. 16-121 (BAH)

Plaintiff,
v.
FEDERAL ELECTION
COMMISSION,

Chief Judge
Beryl A. Howell

Defendant.
ORDER
(Filed Jun. 29, 2018)
Upon consideration of the petitioner Libertarian
National Committee, Inc.’s Motion to Certify Facts &
Questions, ECF No. 24, the defendant Federal Election
Commission’s Motion to Dismiss for Lack of Jurisdiction, ECF No. 25, the related legal memoranda in support and in opposition, the exhibits and declarations
related thereto, and the entire record herein, for the
reasons set forth in the accompanying Memorandum
Opinion, it is hereby
ORDERED that the defendant’s Motion to Dismiss is DENIED; and it is further
ORDERED that the petitioner’s Motion to Certify
is GRANTED IN PART and DENIED IN PART; specifically, the petitioner’s motion is granted with respect to

198a
the petitioner’s first question and with respect to the
petitioner’s second and third questions as reformulated below, and denied with respect to the petitioner’s
second and third questions as originally formulated;
and it is further
ORDERED that the following questions of law,
as well as the findings of fact contained in the Appendix to the accompanying Memorandum Opinion, are
certified to the U.S. Court of Appeals for the District of
Columbia Circuit pursuant to 52 U.S.C. § 30110:
1.

Does imposing annual contribution limits
against the bequest of Joseph Shaber violate
the First Amendment rights of the Libertarian National Committee?

2.

Do 52 U.S.C. §§ 30116(a)(1)(B), (a)(9), and
30125(a)(1), on their face, violate the First
Amendment rights of the Libertarian National Committee by restricting the purposes
for which the Committee may spend its contributions above § 30116(a)(1)(B)’s general
purpose contribution limit to those specialized purposes enumerated in § 30116(a)(9)?

3.

Do 52 U.S.C. §§ 30116(a)(1)(B), (a)(9), and
30125(a)(1) violate the First Amendment
rights of the Libertarian National Committee
by restricting the purposes for which the
Committee may spend that portion of the
bequest of Joseph Shaber that exceeds
§ 30116(a)(1)(B)’s general purpose contribution limit to those specialized purposes enumerated in § 30116(a)(9)?

199a
SO ORDERED.
Date:

June 29, 2018
[SEAL] [Beryl A. Howell]
BERYL A. HOWELL
Chief Judge

200a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
LIBERTARIAN NATIONAL
COMMITTEE, INC.,
Plaintiff,
v.
FEDERAL ELECTION
COMMISSION,

Civil Action No.
16-121 (BAH)
Chief Judge
Beryl A. Howell

Defendant.
MEMORANDUM OPINION
(Filed Jan. 3, 2017)
The plaintiff, the Libertarian National Committee
(“LNC”), was left a testamentary bequest by Joseph
Shaber in 2015 in the amount of $235,575.20 but was
allegedly unable to accept the bequest in full due to restrictions imposed by the Federal Election Commission
Act (“FECA”), see 52 U.S.C. §§ 30116 and 30125. The
LNC challenges certain aspects of the statutory
scheme as unconstitutional and seeks certification of
the constitutional issues it raises to the D.C. Circuit en
banc, pursuant to 52 U.S.C. § 30110.1 The defendant,
1

Pursuant to 52 U.S.C. § 30110, “the national committee of
any political party” may bring an action “in the appropriate district court” challenging the constitutionality of a FECA provision.
Section 30110 further provides that the district court “immediately shall certify” any non-frivolous constitutional challenge to

201a
the Federal Election Commission (“FEC”), has moved
to dismiss pursuant to Federal Rule of Civil Procedure
12(b)(1) on the ground that LNC lacks standing to
bring this suit. This potential Article III issue must be
addressed before certifying any question to the D.C.
Circuit under § 30110. See Holmes, 823 F.3d at 70 (“If
the requirements of Article III of the Constitution are
satisfied, the district court must ‘immediately’ ‘certify
all questions of constitutionality of this Act to the
United States court of appeals for the circuit involved
. . . sitting en banc.’ ”); see also Republican Party of La.
v. FEC, 146 F. Supp. 3d 1, 8 (D.D.C. 2015) (“This Court
may properly dismiss [the plaintiffs’] claims [under
analogous Bipartisan Campaign Reform Act] without
convening a three-judge panel if [the plaintiffs] lack
standing to bring those claims.”); Holistic Candlers &
Consumers Ass’n v. FDA, 664 F.3d 940, 943 (D.C. Cir.
2012) (describing standing as a “threshold jurisdictional question” (quoting Byrd v. EPA, 174 F.3d 239,
243 (D.C. Cir. 1999)). For the reasons set out below, the
FEC’s motion will be denied.

FECA to the court of appeals en banc. Id.; see also Holmes v. FEC,
823 F.3d 69, 71 (D.C. Cir. 2016) (“[D]istrict courts do not certify
‘frivolous’ constitutional questions to the en banc court of appeals.” (quoting Cal. Med. Ass’n v. FEC, 453 U.S. 182, 192 n.4
(1981))).

202a
I.

BACKGROUND

The challenged statutory framework is summarized before discussing the particular facts underlying
this suit and the LNC’s claims.
A. FECA’s Limits on Contributions to Political Committees
Under FECA, “no person,” including, inter alia, a
testamentary estate,2 “shall make contributions . . . to
the political committees established and maintained
by a national political party, which are not the authorized political committees of any candidate, in any calendar year which, in the aggregate, exceed $25,000.”
52 U.S.C. § 30116(a)(1). FECA was amended in 2014 to
allow individuals to make additional donations of up
to three hundred percent of the annual contribution
limit set out in § 30116(a)(1) for each of three specified
purposes: (1) “expenses incurred with respect to a
presidential nominating convention;” (2) “expenses incurred with respect to the construction, purchase,
2

The FEC has interpreted the word “person” as used in
§ 30116(a)(1) to include an individual’s testamentary estate, see,
e.g., Pl.’s Opp’n, Ex. C (“FEC Advisory Op. 2015-05”), ECF No. 123. The LNC does not challenge this interpretation of the statute,
and, in a recent case involving these same parties, this Court explained that the FEC’s interpretation is entitled to deference under Chevron, U.S.A., Inc. v. Natural Resources Def. Council, Inc.,
467 U.S. 837 (1984). See LNC v. FEC (“LNC I”), 930 F. Supp. 2d
154, 165 (D.D.C. 2013) (“The FEC’s interpretation of the statute
to include a testamentary bequest appears reasonable, is not seriously challenged by the LNC in its briefs, and is entitled to deference under Chevron. . . .”).

203a
renovation, operation, and furnishing of one or more
headquarters buildings of the party;” and (3) “expenses
incurred with respect to the preparation for and the
conduct of election recounts and contests and other legal proceedings.” Id. § 30116(a)(9)(A)–(C). Donations
accepted for the three enumerated purposes under
§ 30116(a)(9) must be funneled into a “separate, segregated account” and not comingled with other funds. Id.
The contribution limits set forth in § 30116(a)(1)
are adjusted for inflation in odd-numbered years such
that, at the time this Complaint was filed, the annual
limit on a general account contribution was $33,400,
and the annual limit on a segregated account contribution for each of the three segregated accounts was
$100,200. See id. § 30116(c). Accordingly, in 2015, the
total amount that a party’s political committee could
accept from any person, including a testamentary estate, was $334,000.
B. Bequest to the LNC by Joseph Shaber
The LNC is “the national committee of the Libertarian Party of the United States.” Compl. ¶ 1. Its mission is “to field national [p]residential tickets, to
support its state party affiliates in running candidates
for public office, and to conduct other political activities
in furtherance of a libertarian public policy agenda in
the United States.” Id. From 1988 to 2011, Mr. Shaber
made small, periodic donations to the LNC. Id. ¶ 15.
“Unbeknown to the LNC, it was made a beneficiary of
the Joseph Shaber Revocable Living Trust U/T/D

204a
February 11, 2010.” Id. ¶ 16. Upon his death on August
23, 2014, Mr. Shaber’s trust became irrevocable, with
the LNC’s share amounting to $235,575.20. Id. ¶ 17.
No restrictions were placed on how the LNC could
utilize the bequest, and the trustee maintains that
it is “entirely up to the LNC how it wishes to apply
the distribution.” See Def.’s Mot. Dismiss at 6–7,
ECF No. 9 (quoting Letter from Trustee’s Counsel
to FEC (dated June 15, 2015), available online at
http://saos.fec.gov/aodocs/1317218.pdf (last visited
Dec. 27, 2016)).
On February 23, 2015, the trustee distributed
$33,400 of the bequest to the LNC’s general account.
Id. ¶ 19. LNC asserts that it “would [have] accept[ed]
and spen[t] the entire amount of the Shaber bequest
for its general expressive purposes” but for FECA’s contribution limits. Id. ¶¶ 18–19. On May 6, 2015, the
trustee requested an advisory opinion from the FEC as
to whether the remainder of the bequest could be
placed in a third-party escrow account for annual disbursements pursuant to § 30116(a)(1). The FEC approved the trustee’s request on August 11, 2015. See
generally FEC Advisory Op. 2015-05. In January 2016,
the LNC accepted another $33,400 of the Shaber bequest from escrow for deposit into the party’s general
purpose account. Compl. ¶ 20. Thus, as of the filing of
the complaint, approximately $168,775.20 of the bequest remained in escrow. See Def.’s Mot. Dismiss at 7;
Pl.’s Opp’n Def.’s Mot. Dismiss (“Pl.’s Opp’n”) at 20,
ECF No. 12 (referencing $168,000 in escrow).

205a
C. The LNC’s Claims
The LNC’s complaint alleges in three counts that
application of the § 30116 contribution limits to the
Shaber bequest “violates the First Amendment speech
and associational rights of the LNC and its supporters,” id. ¶ 27 (Count I), and that the segregated accounts scheme, which allows parties to accept larger
donations for three specified purposes only, amounts to
a content-based restriction on speech, both on its face
and as applied to the Shaber bequest id. ¶¶ 31, 34
(Counts II and III); see also Pl.’s Opp’n at 8 (“[P]rivileging large donations based on their purposes—as if a
party would be corrupted by a $33,401 donation for
general purposes, but not a $312,000 donation for conventions, buildings, and lawyers[—]is an irrational
content-based speech restriction.”). The LNC seeks
“[a]n order permanently enjoining [the FEC] . . . from
enforcing 52 U.S.C. §§ 30116 and 30125, either generally or in relation to the Shaber [b]equest,” in addition
to “[d]eclaratory relief consistent with the injunction.”
Id., Prayer for Relief ¶¶ 1–2.
II.

LEGAL STANDARD

“ ‘Federal courts are courts of limited jurisdiction,’
possessing ‘only that power authorized by Constitution
and statute.’ ” Gunn v. Minton, 133 S. Ct. 1059, 1064
(2013) (quoting Kokkonen v. Guardian Life Ins. Co. of
Am., 511 U.S. 375, 377 (1994)). Indeed, federal courts
are “forbidden . . . from acting beyond our authority,”
NetworkIP, LLC v. FCC, 548 F.3d 116, 120 (D.C. Cir.

206a
2008), and, therefore, have “an affirmative obligation
‘to consider whether the constitutional and statutory
authority exist for us to hear each dispute,’ ” James
Madison Ltd. ex rel. Hecht v. Ludwig, 82 F.3d 1085,
1092 (D.C. Cir. 1996) (quoting Herbert v. Nat’l Acad. of
Scis., 974 F.2d 192, 196 (D.C. Cir. 1992)).
Federal Rule of Civil Procedure 12(b)(1) is the
proper vehicle for moving to dismiss a complaint due
to lack of subject matter jurisdiction. Absent subjectmatter jurisdiction over a case, the court must dismiss
it, Fed. R. Civ. P. 12(h)(3); Arbaugh v. Y & H Corp., 546
U.S. 500, 506–07 (2006), and the burden of establishing
any jurisdictional facts to support the exercise of the
subject matter jurisdiction rests on the plaintiff, see
Hertz Corp. v. Friend, 559 U.S. 77, 96–97 (2010); Moms
Against Mercury v. FDA, 483 F.3d 824, 828 (D.C. Cir.
2007). A court “may consider materials outside the
pleadings” in determining whether jurisdiction exists.
Jerome Stevens Pharm., Inc. v. FDA, 402 F.3d 1249,
1253 (D.C. Cir. 2005); see also Belhas v. Ya’Alon, 515
F.3d 1279, 1281 (D.C. Cir. 2008) (examining materials
outside the pleadings in ruling on a Rule 12(b)(1) motion to dismiss for lack of subject matter jurisdiction).
With regard to standing, Article III of the Constitution restricts the power of federal courts to hear
only “Cases” and “Controversies.” U.S. Const. art. III,
§ 2, cl. 1. “The doctrine of standing gives meaning to
these constitutional limits by ‘identify[ing] those disputes which are appropriately resolved through the judicial process.’ ” Susan B. Anthony List v. Driehaus, 134
S. Ct. 2334, 2341 (2014) (alterations in original)

207a
(quoting Lujan v. Defs. of Wildlife, 504 U.S. 555, 560
(1992)); Clapper v. Amnesty Int’l USA, 133 S. Ct. 1138,
1146 (2013) (“ ‘One element of the case-or-controversy
requirement’ is that plaintiffs ‘must establish that
they have standing to sue.’ ” (quoting Raines v. Byrd,
521 U.S. 811, 818 (1997))). As the Supreme Court has
explained, “the irreducible constitutional minimum of
standing contains three elements.” Defs. of Wildlife,
504 U.S. at 560. First, the plaintiff must have suffered
an “injury in fact,” i.e., “an invasion of a legally protected interest which is (a) concrete and particularized,
and (b) actual or imminent, not conjectural or hypothetical.” Id. (citations and internal quotation marks
omitted). Second, there must be “a causal connection
between the injury and the conduct complained of,” i.e.,
the injury alleged must be fairly traceable to the challenged action of the defendant. Id. Finally, it must be
likely that the injury will be redressed by a favorable
decision. Id. at 561. In analyzing whether a party has
standing, the Court “must be ‘careful not to decide the
questions on the merits for or against the plaintiff, and
must therefore assume that on the merits the plaintiff[ ] would be successful in [its] claims.’ ” In re Navy
Chaplaincy, 534 F.3d 756, 760 (D.C. Cir. 2008) (quoting
City of Waukesha v. EPA, 320 F.3d 228, 235 (D.C. Cir.
2003)).
III. DISCUSSION
In considering the FEC’s motion to dismiss the
LNC’s complaint for lack of standing, a recent case in
this Court involving the same parties is instructive

208a
since, in that case, the LNC was found to have standing
to challenge the predecessor provision to § 30116(a).
See LNC v. FEC (“LNC I”), 930 F. Supp. 2d 154, 163
(D.D.C. 2013) (Wilkins, J.).3 The LNC I Court explained
that “[t]he LNC satisfies the core elements of Article
III’s case-or-controversy requirement, because it alleges an injury connected to the FEC’s conduct—the
prevention of obtaining immediate control of the entire
. . . bequest—that would be redressed by a favorable
decision.” Id.
The FEC advances two arguments in an apparent
effort to show why LNC I’s standing analysis does not
apply here, but neither argument is persuasive.4 First,
relying on the 2014 amendment to § 30116, which established the segregated accounts scheme and therefore increased the total amount a person may donate
to a political committee in a given year, the FEC asserts that the LNC’s injury is self-inflicted because the
LNC could accept the full bequest but has chosen not
to. Second, and in the alternative, the FEC argues that
even if not self-inflicted, the alleged injury, which the
FEC construes as a competitive disadvantage vis-à-vis
the two major political parties, is not a valid injury in
fact under binding precedent, that actors in the political marketplace, not FECA, caused LNC’s claimed
3

FECA was transferred from Title 2 to Title 52 on September 1, 2014. Thus, LNC I refers to 2 U.S.C. § 441a(a)(1), which is
currently codified at 52 U.S.C. § 30116(a)(1).
4
Notably, while referencing LNC I for various propositions,
the FEC fails to engage with LNC I’s most pertinent holding that
the LNC had standing to challenge the contribution limits applicable to testamentary estates.

209a
competitive disadvantage, and that a favorable decision from this Court is not likely to redress the claimed
injury. The FEC’s arguments are addressed seriatim.
A. Self-Inflicted Injury
“[S]elf-inflicted harm doesn’t satisfy the basic requirements for standing” since it is neither a “cognizable” injury nor “fairly traceable to the defendant’s
challenged conduct.” Nat’l Family Planning & Reproductive Health Ass’n, Inc. v. Gonzalez, 468 F.3d 826, 831
(D.C. Cir. 2006); accord Afifi v. Lynch, 101 F. Supp. 3d
90, 110 (D.D.C. 2015); Ellis v. Comm’r of IRS, 67
F. Supp. 3d 325, 336–37 (D.D.C. 2014), aff ’d sub nom.
Ellis v. C.I.R., 622 Fed. App’x 2 (D.C. Cir. 2015). According to the FEC, the LNC has chosen not to accept the
entire Shaber bequest even though it could and, consequently, any injury suffered by the LNC is self-inflicted
and thereby insufficient to establish standing. Def.’s
Mot. Dismiss at 10–14. As support, the FEC points out
that § 30116(a) permits the LNC to accept immediately the entire balance of the bequest by funneling
funds beyond the general spending account into the
special-purpose segregated accounts. See id. at 11. Indeed, FECA allows a committee of a national party to
accept, in addition to $33,400 for general spending,
$100,200 for the party’s presidential nominating convention, $100,200 for work on the party headquarters,
and $100,200 for legal fees, which, when combined, far
exceeds the balance in the escrow account. See id.
(“FECA allows the LNC in 2016 to receive a total of
$334,000 from any one donor.”). Accordingly, the FEC

210a
contends that the alleged harm flows from the LNC’s
choice not to deposit the funds into segregated accounts.5
The FEC’s argument papers over the nuance in
the LNC’s claims. The LNC does not argue that the
amended statutory scheme allowing a party to accept
a contribution as large as $334,000 prohibits the LNC
from accepting the entire Shaber bequest in one lump
sum. Rather, the LNC alleges that the harm is due to
the restriction on the political committee’s inability to
accept the entire bequest for general expressive purposes when the bequest became available in 2015. See
Compl. ¶¶ 18–19; Pl.’s Opp’n at 8 (“LNC’s injury is that
it cannot accept money—from Shaber’s bequest and
5

The FEC’s reliance on Sykes v. FEC, 335 F. Supp. 2d 84, 87
(D.D.C. 2004), see Def.’s Mot. Dismiss at 10–11; Def.’s Reply at 7,
is misplaced. According to the FEC, “[i]n the campaign finance
context, any harm allegedly arising from a political actor’s voluntary choice not to accept contributions that FECA allows it to accept is a self-inflicted injury that cannot support standing.” Def.’s
Mot. Dismiss at 10. In Sykes, the plaintiff, a Green Party candidate for Senate, challenged FECA’s tacit authorization of out-ofstate campaign contributions. Sykes, 335 F. Supp. 2d at 85. He
argued that FECA’s silence as to out-of-state contributions injured his opportunity to compete in the Senate race, id. at 88–89,
even though he had not actually received any out-of-state contributions, id. at 87. This Court held, inter alia, that the plaintiff
had not established an injury in fact and therefore lacked standing to sue because he had challenged FECA’s “failure to restrict
out-of-state contributions” as opposed to “[a] portion[ ] of FECA
which directly restricted his own campaign activity.” Id. at 89 (emphasis in original). Here, § 30116 “directly restrict[s]” the LNC’s
ability to accept the Shaber bequest. Accordingly, the discussion
in Sykes about the standard for asserting an injury in fact does
not support the FEC’s position.

211a
from other donors—for spending as it wishes.”) (emphasis in original). Thus, the fact that the LNC could
accept the entire bequest by utilizing its segregated accounts does not eliminate the alleged harm. The precise harm alleged confers a sufficient injury in fact to
sustain standing. See Wagner v. FEC, 717 F.3d 1007,
1010 n.1 (D.C. Cir. 2013) (“Our constitutional jurisdiction is clear. Because Appellants declare that they
would make political contributions but for section 441c
[52 U.S.C. § 30119’s predecessor provision], they have
Article III standing. Section 441c allegedly deprives
them of a legally protected interest (making a political
contribution) that an order of this court declaring section 441c unenforceable would remedy.”); Republican
Party of La. v. FEC, ___ F. Supp. 3d ___, No. 15-cv-1241,
2016 WL 6601420, at *4 (D.D.C. Nov. 7, 2016) (threejudge panel) (“The state party’s inability to use corporate funds in its possession for additional [federal election activity] in which it would like to engage qualifies
as a concrete injury.”).
The FEC, however, advances an additional theory
as to why the LNC’s injury is self-inflicted. See Def.’s
Mot. Dismiss at 12. The FEC suggests that “LNC’s public disclosure reports show that it actually spends significant amounts on expenses for which Segregated
Account funds may be used” and, therefore, the LNC
“could have spent the entire bequest during this election cycle had it chosen to do so.” Id. According to the
FEC, “the LNC spent in excess of $940,000 on its Alexandria building headquarters” during the 2014 election cycle, id., and spent $120,000 on its 2014 national

212a
convention, id. at 12–13. At the time the FEC moved to
dismiss this case, “the LNC has spent approximately
$63,000 on its headquarters” during the 2016 election
cycle. Id. at 13; see also Def.’s Notice Supplemental Jurisdictional Facts at 2, ECF No. 18 (“Since the parties
completed briefing, the LNC has filed public disclosure
reports with the FEC confirming that it has in fact
spent at least as much money on segregated account
purposes in 2016 as it would have received from the
bequest.”). Based on these spending sums, the FEC
posits that “[i]f the LNC were to accept the remaining
$168,775.20 of the Shaber bequest into its Segregated
Accounts and spend it on its convention, building, or
legal expenses, that same amount from the LNC’s General Account would become available for other purposes—including advocacy and elections.” Id. at 13–14.
The FEC thus contends that the LNC’s alleged injury
“is not an injury in fact but a mere ‘self-inflicted budgetary choice.’ ” Id. at 14 (quoting Envtl. Integrity Project v. McCarthy, 13-cv-1306, 2015 WL 5730427, at *8
(D.D.C. Sept. 29, 2015)).
The FEC’s argument has some surface-level appeal, but does not stand up to scrutiny. The LNC’s precise injury is that it was not permitted to accept the
Shaber bequest in full, when it became available, to
spend on federal election activities. See Compl. ¶ 18
(“LNC would accept and spend the entire amount of
the Shaber bequest for its general expressive purposes,
including expression in aid of its federal election efforts.”). Since the bequest became available in 2015,
the LNC’s 2014 and 2016 expenditures are of no

213a
moment.6 Likewise, as the LNC points out, “FECA’s
limits apply per annum,” Pl.’s Opp’n at 13, so the
LNC’s total spending in a given election cycle is a red
herring. What matters is that in 2015, LNC spent no
money on a presidential nominating convention,
$72,827.11 on its headquarters, and $7,260.61 on legal
proceedings, totaling $80,872.72 in segregated purpose
spending. Decl. of Robert Kraus, Operations Director,
Libertarian National Committee, Inc. ¶¶ 5–7, ECF No.
13. On these undisputed attestations, if the LNC had
accepted the entire bequest when it became available
by taking $33,400 of the bequest into its general account and the remainder (approximately $168,000, see
Def.’s Mot. Dismiss at 7; Pl.’s Opp’n at 20) into segregated purpose accounts, the LNC would have accepted
more into its segregated purpose accounts than it
spent on its building, presidential nominating convention, and legal expenses in 2015. Due to this overage,
accepting the entire bequest would not have freed up
6

The LNC contends that even if the entire bequest has been
accepted into segregated accounts, it still would not have freed up
the same amount of money for expressive purposes. See Pl.’s Resp.
Notice of Supplemental Jurisdictional Facts at 2, ECF No. 19
(“Worse still, the FEC’s math doesn’t add up.”). The Court need
not resolve this factual dispute given that the LNC’s 2016 expenditures are irrelevant for standing purposes. The Court also need
not address the LNC’s argument that “the FEC bars political parties from making strategic withdrawals from testamentary bequest trusts,” Pl.’s Opp’n at 9, and thus would not permit the LNC
to accept the bequest into segregated accounts in order to free up
funds in the general account for other purposes. Even if the FEC
did prohibit this, the dispositive and undisputed allegation here
is that the LNC did not spend an amount equivalent to the remaining bequest funds on segregated account purposes in 2015.

214a
the full value of the Shaber bequest for engaging in
federal election activities and resulted in the alleged
injury in 2015. See Elrod v. Burns, 427 U.S. 347, 373
(1976) (“The loss of First Amendment freedoms, for
even minimal periods of time, unquestionably constitutes irreparable injury.”). The FEC’s argument that
the LNC’s injury was self-inflicted thus fails.
B. Competitive Disadvantage
The FEC argues that “[e]ven if the LNC’s choice to
forego [sic] immediate acceptance of the Shaber bequest is not to blame for its claimed competitive injury,
that alleged injury cannot support the LNC’s standing
for three independent reasons.” Def.’s Mot. Dismiss at
15. First, under Buckley v. Valeo, 424 U.S. 1, 48 (1976)
and McConnell v. FEC, 540 U.S. 93, 227 (2003), “LNC’s
claim that it is competitively disadvantaged and so
must use the Shaber bequest to achieve electoral success fails to allege a valid injury in fact.” See Def.’s Mot.
Dismiss at 15. Second, the LNC’s alleged competitive
disadvantage is not caused by FECA but by decisions
of private actors in the political marketplace. Id. at 15–
17. Finally, a favorable decision by this Court would
not remedy the alleged injury but instead would exacerbate the injury by giving the major parties access to
more money. Id. at 17–19.
These arguments are predicated on the FEC’s
characterization of the LNC’s alleged injury as stemming from a “competitive disadvantage . . . against its
major party rivals.” Id. at 2. In suggesting that the

215a
LNC’s alleged injury is a competitive disadvantage, the
FEC cherry-picks certain phrases from the LNC’s complaint referencing the party’s interest in competing
with other parties. See Def.’s Mot. Dismiss at 8 (citing
Compl. ¶¶ 12–14, 26). The Complaint does allege that,
“[u]nlike its two major competitors, the Libertarian
Party’s national committee is forced to spend the bulk
of its resources securing access to the ballot, leaving
comparatively little for actual campaigning—an expensive activity in and of itself.” Compl. ¶ 12; see also
id. ¶ 13 (“[T]he LNC has comparatively less use for
funds intended to support national conventions, a
headquarters building, or attorney fees.”). Further, the
Complaint alleges that “[i]n the absence of the Party
Limit’s application to the Shaber bequest, the LNC
would substantially improve its ability to advocate and
achieve electoral success by taking immediate control
over the balance of the Shaber funds.” Id. ¶ 26.
The Court agrees with the LNC that “the Commission does not afford the Complaint a fair reading.” Pl.’s
Opp’n at 18; see also id. at 19 (“The Libertarian Party
certainly does not argue that the First Amendment requires a level electoral playing field, free of the advantages that speakers may have owing to their
resources.” (emphasis in original)). The phrases the
FEC relies on are included in the Complaint to explain
why the LNC sought to accept the entire bequest into
its general purpose account when the bequest became
available and why accepting the bequest into the segregated accounts was not an adequate substitute. See
id. at 19. As noted above, the LNC clearly articulates

216a
the injury suffered to be the inability to accept the entire Shaber bequest, when it became available in 2015
to engage in election activities, including various forms
of expressive conduct. See Compl. ¶¶ 14, 18–19. Accordingly, the FEC’s arguments that the LNC’s alleged
injury is not cognizable, not caused by the FEC, and
not redressable are premised on a mischaracterization
of the alleged injury and therefore fail.7

7

The LNC suggests that the FEC’s arguments sound more
in mootness than standing and then proceeds to argue that the
claims asserted here fall within the “capable of repetition, yet
evading review” exception to mootness. See id. at 14–18 (citing
Honeywell Int’l v. NRC, 628 F.3d 568, 576 (D.C. Cir. 2010)). The
FEC argues in reply that “[b]ecause the LNC lacks standing, its
assertion that its claims are capable of repetition yet evading review is beside the point.” Def.’s Reply at 9 n.4. Mootness has been
an issue in past litigation between these two parties concerning
FECA’s contribution limits. See generally LNC v. FEC, No. 135088, Order (D.C. Cir. Mar. 26, 2014), ECF No. 1485531 (en banc)
(unpublished). In the earlier case, however, the LNC had accepted
or was able to accept the entire bequest—into its general account—by the time the case reached the D.C. Circuit. See FEC’s
Suggestion of Mootness at 1, LNC I, No. 13-5088 (D.C. Cir. Feb.
3, 2014) (“As of January 1, 2014, however, the LNC has either
already received, or can immediately accept the entire bequest.”).
Here, thousands of dollars remain in escrow, waiting to be distributed into the LNC’s general account. Accordingly, the LNC’s
claims are not moot, see Judicial Watch, Inc. v. Kerry, No. 165015, 2016 WL 7439010, at *2 (D.C. Cir. Dec. 27, 2016) (reversing
the district court’s dismissal on mootness grounds because the
plaintiff “ha[d] not ‘been given everything [they] asked for’ ” (quoting Noble v. Sombrotto, 525 F.3d 1230, 1241 (D.C. Cir. 2008))),
and the Court need not address the LNC’s arguments concerning
the capable of repetition yet evading review exception to mootness.

217a
IV. CONCLUSION
The LNC has standing to challenge FECA provisions that restricted immediate access to the full
amount of a bequest for expressive activities. That the
LNC could accept the entire bequest by depositing the
funds into segregated accounts does not alter this analysis because the LNC alleges that it wishes to use the
funds for expressive activities. Accordingly, the FEC’s
motion to dismiss is denied. The parties shall submit
jointly, within twenty days, a schedule to govern further proceedings in this matter.
Date:

January 3, 2017
[SEAL] [Digitally signed]
BERYL A. HOWELL
Chief Judge

218a
APPENDIX E
U.S. Const. amend. I
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.

52 U.S.C. § 30110
Judicial review
The Commission, the national committee of any
political party, or any individual eligible to vote in any
election for the office of President may institute such
actions in the appropriate district court of the United
States, including actions for declaratory judgment, as
may be appropriate to construe the constitutionality of
any provision of this Act. The district court immediately shall certify all questions of constitutionality of
this Act to the United States court of appeals for the
circuit involved, which shall hear the matter sitting
enbanc.

219a
52 U.S.C. § 30116
Limitations on contributions and expenditures
(a) Dollar limits on contributions.
(1) Except as provided in subsection (i) and section 315A [52 USCS § 30117], no person shall
make contributions–
***
(B) to the political committees established and maintained by a national
political party, which are not the
authorized political committees of
any candidate, in any calendar year
which, in the aggregate, exceed
$ 25,000, or, in the case of contributions made to any of the accounts described in paragraph (9), exceed 300
percent of the amount otherwise applicable under this subparagraph
with respect to such calendar year;
***
(9) An account described in this paragraph is any
of the following accounts:
(A) A separate, segregated account of a
national committee of a political party
(other than a national congressional campaign committee of a political party)
which is used solely to defray expenses incurred with respect to a presidential
nominating convention (including the
payment of deposits) or to repay loans the
proceeds of which were used to defray

220a
such expenses, or otherwise to restore
funds used to defray such expenses, except that the aggregate amount of expenditures the national committee of a
political party may make from such account may not exceed $ 20,000,000 with
respect to any single convention.
(B) A separate, segregated account of a
national committee of a political party
(including a national congressional campaign committee of a political party)
which is used solely to defray expenses incurred with respect to the construction,
purchase, renovation, operation, and furnishing of one or more headquarters
buildings of the party or to repay loans
the proceeds of which were used to defray
such expenses, or otherwise to restore
funds used to defray such expenses (including expenses for obligations incurred
during the 2-year period which ends on
the date of the enactment of this paragraph).
(C) A separate, segregated account of a
national committee of a political party
(including a national congressional campaign committee of a political party)
which is used to defray expenses incurred
with respect to the preparation for and
the conduct of election recounts and contests and other legal proceedings.
***

221a
(c) Increases on limits based on increases in price index.
(1) (A) At the beginning of each calendar year
(commencing in 1976), as there become available necessary data from the Bureau of Labor
Statistics of the Department of Labor, the Secretary of Labor shall certify to the Commission and publish in the Federal Register the
percent difference between the price index for
the 12 months preceding the beginning of
such calendar year and the price index for the
base period.
(B) Except as provided in subparagraph
(C), in any calendar year after 2002 –
(i) a limitation established by subsections (a)(1)(A), (a)(1)(B), (a)(3), (b),
(d), or (h) shall be increased by the
percent difference determined under
subparagraph (A);
(ii) each amount so increased shall
remain in effect for the calendar
year; and
(iii) if any amount after adjustment
under clause (i) is not a multiple of
$ 100, such amount shall be rounded
to the nearest multiple of $ 100.
(C) In the case of limitations under subsections (a)(1)(A), (a)(1)(B), (a)(3), and (h),
increases shall only be made in odd-numbered years and such increases shall remain in effect for the 2-year period
beginning on the first day following the

222a
date of the last general election in the
year preceding the year in which the
amount is increased and ending on the
date of the next general election.
(2) For purposes of paragraph (1) –
(A) the term “price index” means the
average over a calendar year of the Consumer Price Index (all items – United
States city average) published monthly
by the Bureau of Labor Statistics; and
(B)

the term “base period” means –
(i) for purposes of subsections (b)
and (d), calendar year 1974; and
(ii) for purposes of subsections
(a)(1)(A), (a)(1)(B), (a)(3), and (h), calendar year 2001.

(d) Expenditures by national committee, State committee, or subordinate committee of State committee in connection with general election campaign
of candidates for Federal office.
(1) Notwithstanding any other provision of law
with respect to limitations on expenditures or limitations on contributions, the national committee
of a political party and a State committee of a political party, including any subordinate committee
of a State committee, may make expenditures in
connection with the general election campaign of
candidates for Federal office, subject to the limitations contained in paragraphs (2), (3), and (4) of
this subsection.

223a
(2) The national committee of a political party
may not make any expenditure in connection with
the general election campaign of any candidate for
President of the United States who is affiliated
with such party which exceeds an amount equal to
2 cents multiplied by the voting age population of
the United States (as certified under subsection
(e)). Any expenditure under this paragraph shall
be in addition to any expenditure by a national
committee of a political party serving as the principal campaign committee of a candidate for the
office of President of the United States.
(3) The national committee of a political party, or
a State committee of a political party, including
any subordinate committee of a State committee,
may not make any expenditure in connection with
the general election campaign of a candidate for
Federal office in a State who is affiliated with such
party which exceeds –
(A) in the case of a candidate for election to
the office of Senator, or of Representative from
a State which is entitled to only one Representative, the greater of –
(i) 2 cents multiplied by the voting age
population of the State (as certified under
subsection (e)); or
(ii)

$ 20,000; and

(B) in the case of a candidate for election
to the office of Representative, Delegate, or
Resident Commissioner in any other State,
$ 10,000.

224a
(4) Independent versus coordinated expenditures by party.
(A) In general. On or after the date on which
a political party nominates a candidate, no
committee of the political party may make –
(i) any coordinated expenditure under
this subsection with respect to the candidate during the election cycle at any time
after it makes any independent expenditure (as defined in section 301(17) [52
USCS § 30101(17)]) with respect to the
candidate during the election cycle; or
(ii) any independent expenditure (as defined in section 301(17) [52 USCS
§ 30101(17)]) with respect to the candidate during the election cycle at any time
after it makes any coordinated expenditure under this subsection with respect to
the candidate during the election cycle.
(B) Application. For purposes of this paragraph, all political committees established
and maintained by a national political party
(including all congressional campaign committees) and all political committees established and maintained by a State political
party (including any subordinate committee
of a State committee) shall be considered to be
a single political committee.
(C) Transfers. A committee of a political
party that makes coordinated expenditures
under this subsection with respect to a candidate shall not, during an election cycle,

225a
transfer any funds to, assign authority to
make coordinated expenditures under this
subsection to, or receive a transfer of funds
from, a committee of the political party that
has made or intends to make an independent
expenditure with respect to the candidate.
(5) The limitations contained in paragraphs (2),
(3), and (4) of this subsection shall not apply to expenditures made from any of the accounts described in subsection (a)(9).

52 U.S.C. § 30125
Soft money of Political Parties
(a) National committees.
(1) In general. A national committee of a political party (including a national congressional campaign committee of a political
party) may not solicit, receive, or direct to another person a contribution, donation, or
transfer of funds or any other thing of value,
or spend any funds, that are not subject to the
limitations, prohibitions, and reporting requirements of this Act.
(2) Applicability. The prohibition established by paragraph (1) applies to any such
national committee, any officer or agent acting on behalf of such a national committee,
and any entity that is directly or indirectly established, financed, maintained, or controlled
by such a national committee.

